<html>
<title> - REVIEW OF THE DEPARTMENT OF ENERGY'S DEPLOYMENT OF DOE-FUNDED ENVIRONMENTAL CLEANUP TECHNOLOGIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
     REVIEW OF THE DEPARTMENT OF ENERGY'S DEPLOYMENT OF DOE-FUNDED 
                   ENVIRONMENTAL CLEANUP TECHNOLOGIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 26, 1999

                               __________

                           Serial No. 106-36

                               __________

            Printed for the use of the Committee on Commerce



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 57-444CC                    WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Bernardi, Richard T., General Manager, Bio-Imaging, 
      Incorporated...............................................    91
    Card, Robert G., President, Kaiser-Hill......................   114
    Gallagher, James L., President, Government and Environmental 
      Services, Westinghouse Electric Corporation; accompanied by 
      Susan Wood, Director, Savannah River Technology Center, 
      Vice President, Westinghouse Savannah River Company........   106
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................    39
    Jones, Gary L., Associate Director, Energy, Resources, and 
      Sciences Issues, General Accounting Office.................    43
    Kotrappa, Payasada, President, Rad Elec, Incorporated........    87
    McIntire, Lee A., President, Bechtel National, Incorporated..   110
    Moniz, Ernest J., Under Secretary; accompanied by Gerald 
      Boyd, Acting Deputy Assistant Secretary for Science and 
      Technology; and Jim Owendoff, Acting Assistant Secretary of 
      Environmental Management, Department of Energy.............    51
    Peterson, Ronald G., Group President, Fluor Corporation......   122
    Rogers, Terry W., President, Delphi Research, Incorporated...    85
    Schofield, John T., President and CEO of Thermatrix, 
      Incorporated...............................................    96

                                 (iii)



     REVIEW OF THE DEPARTMENT OF ENERGY'S DEPLOYMENT OF DOE-FUNDED 
                   ENVIRONMENTAL CLEANUP TECHNOLOGIES

                              ----------                              


                        WEDNESDAY, MAY 26, 1999

                  House of Representatives,
                             Committee on Commerce,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:33 a.m., in 
room 2322, Rayburn House Office Building, Hon. Fred Upton 
(chairman) presiding.
    Members present: Representatives Upton, Barton, Burr, 
Bilbray, Blunt, Bryant, Klink, Stupak, McCarthy, and DeGette.
    Staff present: Dwight Cates, majority professional staff; 
Penn Crawford, legislative clerk, and Edith Holleman, minority 
counsel.
    Mr. Upton. Good morning, everyone.
    Today, the subcommittee will continue its review of the 
Department of Energy's efforts to deploy new environmental 
technologies by the Department's Office of Science and 
Technology, OST. These technologies are important, because DOE 
currently estimates that it will cost $200 billion--``b'' as in 
big--to pay for environmental cleanup responsibilities at its 
several nuclear waste sites. Indeed, we have already committed 
$51 billion to the cleanup effort since 1990, and DOE expects 
that we will spend an additional $147 billion during the next 
70 years.
    In order to reduce these enormous costs and speed the 
cleanup of these dangerous wastes, Congress has invested $2.7 
billion in OST for the development of cheaper, faster, and 
safer environmental technologies. However, so far, our expected 
return on this investment has been very disappointing. In 
November 1996, Chairman Bliley began a programmatic review of 
this important issue by asking the Department three simple 
questions: What technologies have been funded by OST? Which of 
these have been deployed at DOE waste sites? And what cost 
savings have occurred as a result of those deployments? 
Remarkably, DOE was unable to readily provide this information, 
because these basic, programmatic performance measures were 
simply not tracked.
    Chairman Barton's May 1997 oversight hearing revealed 
severe mismanagement within OST, a lack of integration between 
OST and the cleanup offices within DOE's Office of 
Environmental Management, a disappointing deployment rate, and 
many questionable funding decisions, including OST's $33 
million investment in molten metal technologies. Although there 
has been some progress in the past 2 years, according to GAO, 
many of DOE's management problems have not been resolved. But, 
today, I would like to focus on solving the deployment problem.
    After several years of what seems to be an endless 
characterization and study, DOE is now moving into the actual 
cleanup phase. The Office of Environmental Restoration and the 
Office of Waste Management are stabilizing and treating waste 
sites, decommissioning nuclear facilities, and moving 
radioactive wastes to the recently opened WIPP facility. By the 
end of this year, cleanup at 4,490 sites, or 46 percent, of the 
Department's 9,700 release sites will be completed. The 
Department is also accelerating and disposal of the 
transuranic, low-level, and mixed radioactive wastes. 
Additionally, this year, 120,000 cubic meters of radioactive 
wastes will be treated and disposed. Much of this work is 
necessary to meet the Department's plan to complete cleanup at 
many DOE sites by the year 2006. However, a large part of the 
Department's cleanup job will remain after 2006. Many cleanup 
projects, such as Hanford radioactive tank waste will take many 
decades and several billion dollars to solve.
    Unfortunately, amidst all of this cleanup progress, 
relatively few OST-funded environmental technologies are 
finding widespread application in the DOE cleanup market. DOE 
can verify that only 160 of its technologies have been 
deployed. Most of these technologies have been deployed only 
once and a total of less than 300 deployment instances have 
occurred. Notably, the Department's single most successful year 
occurred in 1998; the year after our May, 1997 hearing with 
approximately 104 deployments. However, DOE expects that only 
60 innovative environmental technologies will be deployed in 
fiscal years 1999 and 2000. Why would DOE set such low 
expectations going forward? At this deployment rate, hundreds 
of deployment opportunities will be missed annually as the 
Department accelerates cleanup activities but ignores the use 
of promising environmental technologies.
    In addition to the total number of deployments, total cost 
saving is also an important measure of success. At the 
subcommittee's May, 1997 hearing, DOE identified $20 billion in 
potential life-cycle cost savings that can be achieved with the 
application of OST technologies. However, after $51 billion in 
taxpayer funds spent on environmental cleanup to date, 
including $2.7 billion spent on technology development, DOE can 
account only for $700 million in projected cost savings. DOE 
will never achieve $20 billion in cost savings unless the 
Department and its site management contractors commit to 
deploying these cost saving environmental technologies at a 
much faster rate.
    DOE's site management contractors play a very important 
role in the technology deployment process, and new technology 
will not be used unless the site contractor and its 
subcontractors agree to use it. We should not expect the DOE 
marketplace to embrace OST-funded technologies unless they 
offer a real improvement over baseline technologies. However, 
in many cases, the contractors seem to be reluctant customers 
even when the technology is proven and available. Today, we 
will hear about the experiences of several small businesses 
that have developed promising technologies with OST funds but 
are unable to penetrate the bureaucracy at DOE waste sites.
    This committee's work on this issue over the past several 
years has revealed that there is a substantial graveyard of 
OST-funded projects that did not have technical merit, did not 
have an identified end user once it was completed, or simply 
should never have been funded. However, OST does offer several 
proven and promising technologies. Although countless 
deployment opportunities have already missed, there is a great 
deal of cleanup work yet to be started or completed. If DOE and 
its contractors are willing, there is ample opportunity to find 
widespread use for several OST-funded technologies which could 
save us billions.
    Today, we will hear from GAO, DOE, the Department's site 
management contractors, and a few environmental technology 
vendors on how we will achieve this important goal.
    And I would yield to the ranking member of this 
subcommittee, Mr. Klink.
    Mr. Klink. Thank you, Chairman Upton.
    In May 1997, as the chairman said, the subcommittee held 
its first hearing on the Department of Energy's Office of 
Science and Technology. This office has long been a subject of 
criticism by the General Accounting Office and by others. 
Questions have been raised repeatedly about whether enough of 
the technologies funded by this $2 billion program have 
actually been used at DOE cleanup sites, and those questions 
will be raised again here today.
    The minority prepared the first request for the GAO for a 
comprehensive request of OST prior to that hearing. It was 
signed by both the committee and subcommittee chairmen and 
ranking members. The report was completed in September 1998, 
and GAO's testimony today is a follow-up to that report.
    The investigation of the inefficient of taxpayer funds at 
DOE should be a bipartisan effort. Now, I have to say that, 
unfortunately, the preparation for this hearing was not. 
Minority staff was excluded from meetings and communications 
with technology vendors and site contractors. Written 
information requested from the contractors by the majority was 
not shared. One contractor even requested that minority counsel 
attend the meeting but was told that was not allowed. Until 
recently, we were not aware of the GAO's continuing work to 
update our joint request. Such actions make it very difficult 
for the minority to be a full and active participant in this 
subcommittee's, and, Mr. Chairman, I will note, for the record, 
we have had two other hearings in the past week, and in those 
two hearings, the preparation was completely bipartisan; we 
have worked together. So, it appears, some days we are in, and 
some days we are out.
    In any event, I do look forward to hearing from the 
witnesses before us, and we hope that we can move forward 
working together, because this is something that is very 
important, and the minority would like to work with the 
majority on this issue.
    And if there is no objection, I would like to put into the 
record two reports directly relevant to today's hearing. The 
authors of those reports are not here today. One is a May 19 
audit report from the Department's Inspector General on 
technology deployment. The other is a communication from the 
Environmental Management Advisory Board concerning one of DOE's 
technology initiatives. The EMAB provided essential testimony 
at our 1997 hearing, and I have got the two reports here, Mr. 
Chairman.
    Mr. Upton. Without objection, the material is entered into 
the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7444.001
    
    [GRAPHIC] [TIFF OMITTED] T7444.002
    
    [GRAPHIC] [TIFF OMITTED] T7444.003
    
    [GRAPHIC] [TIFF OMITTED] T7444.004
    
    [GRAPHIC] [TIFF OMITTED] T7444.005
    
    [GRAPHIC] [TIFF OMITTED] T7444.006
    
    [GRAPHIC] [TIFF OMITTED] T7444.007
    
    [GRAPHIC] [TIFF OMITTED] T7444.008
    
    [GRAPHIC] [TIFF OMITTED] T7444.009
    
    [GRAPHIC] [TIFF OMITTED] T7444.010
    
    [GRAPHIC] [TIFF OMITTED] T7444.011
    
    [GRAPHIC] [TIFF OMITTED] T7444.012
    
    [GRAPHIC] [TIFF OMITTED] T7444.013
    
    [GRAPHIC] [TIFF OMITTED] T7444.014
    
    [GRAPHIC] [TIFF OMITTED] T7444.015
    
    [GRAPHIC] [TIFF OMITTED] T7444.016
    
    [GRAPHIC] [TIFF OMITTED] T7444.017
    
    [GRAPHIC] [TIFF OMITTED] T7444.018
    
    [GRAPHIC] [TIFF OMITTED] T7444.019
    
    [GRAPHIC] [TIFF OMITTED] T7444.020
    
    [GRAPHIC] [TIFF OMITTED] T7444.021
    
    [GRAPHIC] [TIFF OMITTED] T7444.022
    
    [GRAPHIC] [TIFF OMITTED] T7444.023
    
    [GRAPHIC] [TIFF OMITTED] T7444.024
    
    [GRAPHIC] [TIFF OMITTED] T7444.025
    
    [GRAPHIC] [TIFF OMITTED] T7444.026
    
    [GRAPHIC] [TIFF OMITTED] T7444.027
    
    [GRAPHIC] [TIFF OMITTED] T7444.028
    
    [GRAPHIC] [TIFF OMITTED] T7444.029
    
    [GRAPHIC] [TIFF OMITTED] T7444.030
    
    [GRAPHIC] [TIFF OMITTED] T7444.031
    
    [GRAPHIC] [TIFF OMITTED] T7444.032
    
    Mr. Upton. At this point, I will recognize Mr. Bryant.
    Mr. Bryant. Thank you, Mr. Chairman, and I want to thank 
you for convening this hearing and look forward to the 
testimony from what appears to be an outstanding group of 
witnesses on the panel. I want to specially recognize our first 
panelist today, my colleague, Mr. Hastings, from the fourth 
district of Washington, and I know his interest in this is very 
strong. He has long been an advocate for his district and for 
his State on these kinds of issues, and I certainly would 
welcome him and the other members of the panel and would yield 
back.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I am delighted to come 
to an O&I hearing. I am chairing a hearing on electricity 
restructuring at 10, so I am going to have to leave, but I did 
want to come and give an opening statement on this important 
hearing.
    Mr. Upton. If you can just put the mike closer.
    Mr. Barton. Oh--on this hearing, which is a continuation of 
a series of hearings that we did in the last Congress.
    Over the past 10 years, we have invested nearly $3 billion 
in the Department of Energy's Office of Science and Technology. 
Congress appropriated those funds with the expectation that OST 
would develop environmental technologies for use at DOE waste 
sites to reduce the substantial costs associated with cleaning 
up the Nation's nuclear wastes. We estimate those costs now 
approach $200 billion.
    Last Congress, when we began our review of OST, things 
looked pretty bad. We held a hearing in May 1997 which 
identified gross mismanagement within OST, a very poor 
development deployment records of the technologies that OST has 
funded. We determined that DOE's dismal deployment rate was due 
to poor internal management and sufficient integration between 
OST funding activities and DOE's cleanup efforts in the field. 
At that hearing, the former Assistant Secretary for 
Environmental Management, a gentleman named Al Alm, told the 
subcommittee that the record of deployment was bad because 
``there was not really strong pressures to do more with less, 
and without the pressure to cut costs, you don't have any 
incentives to pursue innovative technologies.''
    I am glad that you are holding this hearing today, Mr. 
Chairman, because we have had at least 1\1/2\ years to try to 
make some improvements. After the hearing back in 1997, then 
Assistant Secretary Alm did undertake several initiatives to 
improve the management at OST and increase the rate of 
technology deployment. As a result of those initiatives, the 
management, I am told, at OST has improved, and there has been 
an increase in the deployment rate of OST-funded technology. 
But I am also told at the staff level that we are nowhere near 
where we could be and should be. Of the 160 OST-funded 
technologies that have been deployed at DOE waste sites, almost 
100 of them have only been deployed one time. A one-time use of 
the technology that costs millions of dollars in development 
will not maintain the commercial viability of the small 
businesses that OST has funded to develop these new 
technologies.
    Apparently, there continues to be a breakdown in 
integration between OST efforts and the cleanup work at DOE 
waste sites. In the testimony today, the GAO will report that 
OST continues to fund the development and demonstration of 
technologies without involving or obtaining a commitment from 
the end user. I don't think this is good policy. Each year, DOE 
completes hundreds of waste cleanup actions; that is a good 
thing. In many instances, the remediation project manager in 
the field is unaware of the available innovative technologies 
that could reduce the cost, could speed up the cleanup time 
over the baseline technologies that are being deployed.
    Today, we will also hear from DOE's site management 
contractors. The questions that I would ask if I could stay at 
the hearing are, are they doing all they can to promote and 
deploy the best technologies offered by OST? Do they think that 
the Department of Energy offers the right incentives to 
encourage the contractors to use these new technologies?
    The Department of Energy waste remediation market 
represents the world's biggest single source of revenues for 
large remediation companies yet this market seems impenetrable 
to small companies. I hope that our hearing today will shed 
some insight on ways that small companies can use these 
innovative technologies and can compete.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    I would like to take this opportunity to welcome Mr. Barton 
back.
    It has been somewhat lonely without him being here. I want 
to take the opportunity to----
    Mr. Barton. I am sure Mr. Klink shares that.
    Mr. Burr. I noticed Mr. Klink grinned when we said that.
    I want to take the opportunity to follow up on what Joe 
did, and that was 2 years ago in April when we held a hearing 
on OST, and I want to go a little bit further and read the 
three points that Mr. Alm pointed to at that time for their 
failure, he thought. He said, one, a conservative regulatory 
environment limits the demand for innovative technologies. Two, 
the Department's management and operating contracting structure 
discourages use of innovation. Three, it lacks a real budget 
pressure and the past has not required less costly solutions.
    Well, we are here 2 years later to look at the progress 
that has been made in the Office of Science and Technology. At 
that time, we were very early into a 10-year plan that 
projected, I think, somewhere between $12 billion and $27 
billion worth of savings through the good work of OST. At that 
time, 2 years ago, there were many fingers pointed at site 
managers; that site managers were, in fact, the ones that 
didn't promote the technological use by contractors, and, as 
Mr. Barton pointed out, that in most cases we had a good one-
time usage by contractors of technology developed through OST 
but never a continuation or an integration into the cleanup 
process of any of the technologies from OST.
    I hope, today, that the DOE will be candid with us in their 
testimony and in their answers as it relates to how well we 
have integrated technology into the work of all contractors, 
not just some; how successful we are at fulfilling the 10-year 
plan of savings of taxpayer money, because, ultimately, in that 
hearing, the one thing that I think was passionate from all 
Members of Congress was if it didn't change, there was no way 
we could continue to support this area. I can assure you that 
Mr. Barton's pledge then to supply real budget pressure can be 
follow up by this hearing with an elimination through the 
budget process if, in fact, we haven't made progress in the 
right direction.
    I thank the Chair for the opportunity to have this hearing, 
look forward to the witnesses, and I welcome our colleague, Doc 
Hastings.
    Mr. Upton. Thank you. I would note that all members of the 
subcommittee will have a chance by unanimous consent to put in 
a statement into the record as part of the opening statement, 
and we welcome our colleague, Doc Hastings, for his special 
perspective on this issue from the State of Washington.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Tom Bliley, Chairman, Committee on Commerce
    Today the Subcommittee continues its review of the Department of 
Energy's efforts to deploy environmental technologies developed by the 
Office of Science and Technology, or OST. Ten years ago, Congress 
directed the Secretary of Energy to develop a program to fund the 
development of technologies useful for the environmental cleanup of 
DOE's nuclear waste complex. In response, DOE created OST with the 
mission to develop technologies that would help DOE save money, reduce 
environmental risks, and speed up the restoration process. In November 
of 1996, I initiated a review of OST to determine how it had spent more 
than 2 BILLION dollars of taxpayer funds. This review revealed some 
real mismanagement. At this Subcommittee's May 1997 hearing, OST was 
unable to provide a sound report on what technologies it had funded, 
whether these technologies had actually been used, or even if there 
were any savings.
    Today, I am happy to report that in two years since the 
Subcommittee's first hearing, progress has been made at OST to rectify 
many of these management problems. Unfortunately, as OST cleaned up its 
books, the books revealed a substantial catalog of poor funding 
decisions and millions of dollars wasted on technologies that never 
would have passed a credible peer review process. However, there are a 
few diamonds in the rough. OST has funded several promising 
technologies, and a few of these technologies have found widespread use 
at the Savannah River site and the Oak Ridge site. But these few 
success stories are the exception, not the norm.
    In testimony, the Department presents tables and statistics that 
show an increasing deployment rate of OST-funded technologies over the 
past three years. I urge this Subcommittee to look behind these 
numbers. In fact, of the 160 OST-funded technologies that have been 
deployed, approximately 100 of these have been used only one time. 
Commercial viability of a small business trying to sell a new 
technology cannot be established or maintained with a one-time use of 
that technology. In far too many instances, the Department has left 
these promising small businesses stranded after spending millions to 
help them get started.
    DOE headquarter offices, DOE field site offices, site management 
contractors, state and federal regulators, and numerous stakeholders 
are not putting their shoulder to the same wheel. In many cases the DOE 
has failed to bring these various parties together in this effort. The 
Department must demonstrate greater leadership, otherwise the 
widespread deployment and commercialization of these new technologies 
will never occur.
    Also, in some cases the Department's site management contractors 
seem to be reluctant to use these new technologies. Let me be clear, I 
do not expect site management contractors to use a new technology 
simply because it has received government funds. But if a technology 
has been proven to work, there should be no excuse for its lack of 
widespread use at all sites where that technology is applicable.
    At our May 1997 hearing, the Department identified 20 BILLION 
dollars in potential life cycle cost savings as a result of the use of 
OST-funded technologies. At the current rate of deployment, these 
savings will not be realized. DOE must achieve quick acceptance and 
application of these new technologies over the next few years as DOE 
accelerates the completion of much of its cleanup work by the year 
2006. Today I want to hear from the DOE, the small businesses who own 
these new technologies, and the Department's site management 
contractors on how we will achieve the substantial cost savings the DOE 
has promised.
                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Mr. Chairman, I would like to start by thanking you for holding 
this important hearing. For too many years, our government manufactured 
nuclear weapons at sites around the country with little or no concern 
for the environmental impact of those actions. I hope that these 
hearings help to speed us along the track to cleaning up some of these 
sites.
    Today, this committee is set to examine the role of the Office of 
Science and Technology in this cleanup process. Now, while I was not a 
member of this subcommittee at the time, I understand that at a 
previous hearing, in May 1997, DOE came here and told us that it while 
they estimate the cost of these cleanups at $200 billion, that they 
felt they could save some $20 billion of that through the development 
of new cleanup technologies.
    After 10 years of development and $2.7 billion, though, how much 
has been saved? How far along in the cleanup process have we come?
    Currently, cleanup at 4,123 of 9,700 sites, 43% of the total, has 
been completed, while the savings so far are estimated at $750 million. 
According to the EPA, the cleanup decisions for the remaining 5,577 
sites will be made by the year 2000. It seems that we have a long way 
to go in a very short period of time if we are to realize an additional 
$19 billion in savings.
    Questions have also been raised about the lack of a connection 
between the development of technologies and the identification of an 
end-user for those technologies. While a recent GAO report has 
indicated that OST has improved in this area, it has been inconsistent.
    OST should make sure that the technologies that they choose to fund 
are useful and that the end-users are involved so that we are not 
spending money on something that will not used.
    Mr. Chairman, these are just a few of the issues that we should 
raise in this hearing today. I look forward to hearing the testimony of 
the witnesses and I hope that we can continue to work towards cleaning 
up our legacy of hazardous and radioactive materials.

    Mr. Upton. Mr. Hastings, under the rules of our 
subcommittee, we would like to limit your remarks to 5 minutes, 
and I have got this fancy-shmancy egg timer to let us know when 
5 minutes is up.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman. I appreciate you 
inviting me to testify before your subcommittee, and I want to 
say that I appreciate the courtesy this subcommittee has given 
me in the past under your tenure and under Mr. Barton's tenure, 
because the issues surrounding this are very important to me in 
my congressional district.
    As you are aware, the Hanford Nuclear Reservation is 
located within my congressional district in central Washington. 
With a majority of the Nation's volume of nuclear wastes 
located at Hanford, the work of the DOE to clean up the legacy 
of the World War II and the cold war is very important to the 
health and safety of the surrounding communities in my 
district.
    In addition, as taxpayers, my constituents and I are 
equally concerned about the efficiency of this program, and I 
would like to say that in the future that the wastes are 
``contained'' at Hanford, and they were ``previously'' at 
Hanford. That is the goal when we talk about cleanup.
    Since I came to Congress in 1995, the budget for DOE's 
cleanup work has been under enormous pressure to reduce costs 
and to get results. I am proud to say that at Hanford the 
workers have taken this message to heart, and we really have 
seen real progress made at the site. It goes without saying 
that the development of new technologies has made much of this 
advancement possible. A great example--this is only one 
example--is the reactor cocooning called interim safe storage. 
You will hear more about this from Bechtel-Hanford, because 
they were the contractor in charge of finishing the C Reactor 
at Hanford. In my view, this project has been a resounding 
success for two primary reasons. First, the decision was made 
that Hanford was going to be an industrial area and not a 
children's playground, and, therefore, the standards didn't 
need to be cleaned up to the standards of a playground. If you 
have ever been to Hanford, you immediately know that this 
decision was really just plain common sense. This decision 
meant that we could focus on stabilizing the existing 
facilities, including the nine reactors, and then to work to 
minimize the surveillance and maintenance costs for the 
foreseeable future. In other words, we could cocoon the 
reactors for interim storage so we could better focus our 
limited resources on other pressing needs.
    Second, the deployment of several new technologies insured 
that the project came in on schedule and on budget. The 
cocooning of the C Reactor was really a test of how efficiently 
such a project could be accomplished, and that is good news 
considering that we have seven more reactors scheduled to be 
cocooned in the next few years.
    We demonstrated the use of 20 different technologies and 
deployed 13 of those on the C Reactor. In the long run, this 
will result in a savings to taxpayers when we do all the 
cocooning around $23 million. Now, that this technology is 
proven, it can be transferred to other sites around the complex 
and the world.
    While I believe that the work on the C Reactor represents 
how things ought to be done with DOE working with contractors 
and vendors to keep costs down and projects on schedule, I 
realize that this is not always the case. You will hear from 
many people today with a variety of perspectives on how the DOE 
can improve its deployment rate and development schedules or 
how companies can better use the technology that has already 
been developed with the help of taxpayer funds.
    I am sure you will hear a number of good ideas that we 
should consider. However, I would like to offer one thought, 
and this is probably more important than anything else as you 
listen to this testimony. We must structure our cleanup effort 
to ensure that profit-oriented businesses perform as 
efficiently and as effectively as possible. Mr. Chairman, I 
know this sounds easy; it sounds like common sense, but it is 
very difficult to actually achieve. Let us look forward to ways 
to enhance the cleanup effort without micromanaging companies 
that we are relying on to achieve the results. Let us look for 
ways to be a better partner instead of a big brother for our 
major contractors. Let us look for ways to encourage small 
businesses to add efficiency and innovation to the process 
instead of looking for ways to force them into an established 
process. If we are to be successful, we will save money----
    At that, I just want to say, Mr. Chairman, the last is to 
thank you very much for allowing me to testify in front of you. 
I think there are innovations out there that can be used. I 
think what you need to do as you proceed with this process is 
to allow the free market and the innovations to be done with 
little Government oversight.
    And, with that, I would be more than happy to respond to 
any questions you may have.
    [The prepared statement of Hon. Doc Hastings follows:]
 Prepared Statement of Hon. Doc Hastings, a Representative in Congress 
                      from the State of Washington
    Mr. Chairman: Thank you for inviting me to testify before your 
subcommittee today. As you and I have previously discussed, issues 
surrounding the cleanup work of the Department of Energy are 
particularly important to me and my Congressional District.
    As you are aware, the Hanford Nuclear Reservation is located within 
my Congressional District in Central Washington state. With a majority 
of the nation's volume of nuclear waste located at Hanford, the work by 
the DOE to cleanup the legacy of World War II and the Cold War is very 
important to the health and safety of the surrounding communities. In 
addition, as taxpayers, my constituents and I are equally concerned 
about the efficiency of this program.
    Since I came to Congress in 1995, the budget for DOE's cleanup work 
has been under enormous pressure to reduce costs and get results. I am 
proud to say that at Hanford, the workers have taken this message to 
heart and we have seen real progress made at the site. And it goes 
without saying that the development of new technologies has made much 
of this advancement possible. A great example of this is the reactor 
cocooning project, also called Interim Safe Storage.
    As you will hear more about later, Bechtel-Hanford Inc. finished 
cocooning the C Reactor at Hanford this past year. In my view, this 
project has been a resounding success for two primary reasons. First, 
the decision was made that Hanford was not going to be a children's 
playground anytime soon, and therefore didn't need to be cleaned to 
those standards. If you've ever been to Hanford, you'd immediately know 
that this decision was really just common sense. This decision meant 
that we could focus on stabilizing the existing facilities, including 
the nine reactors, and then work to minimize the surveillance and 
maintenance costs for the foreseeable future. In other words, we could 
``cocoon'' the reactors for interim storage so that we could better 
focus our limited resources on other pressing needs.
    Second, the deployment of several new technologies ensured that the 
project came in on schedule and on budget. The cocooning of the C 
Reactor was really a test of how efficiently such a project could be 
accomplished, and that's good news considering we have seven more 
reactors scheduled to be cocooned in the next few years. Demonstrating 
the use of 20 different technologies, with full deployment of 13, the 
successful completion of the C Reactor project will enable the 
remaining reactors to be cocooned more efficiently and more 
effectively, saving the taxpayers an estimated $23 million. And now 
that this technology is proven, it can be transferred to other sites 
around the complex and around the world.
    While I believe that the work on the C Reactor represents how 
things ought to be done, with DOE working with contractors and vendors 
to keep costs down and projects on schedule, I realize this is not 
always the case. You will hear from many people today with a variety of 
perspectives on how the DOE can improve its deployment rate and 
development schedules, or how companies can better use the technology 
that has already been developed with the help of taxpayer funds. I'm 
sure you'll hear good ideas that we should consider during this funding 
cycle for the Department's cleanup effort. However, I would offer one 
thought as you listen to the testimony to follow: we must structure our 
cleanup effort to ensure profit-oriented businesses perform as 
efficiently and effectively as possible.
    Mr. Chairman, this sounds easy, almost like common-sense. But it is 
very difficult to actually achieve. Let's look for ways to enhance the 
cleanup effort without micromanaging the companies we are relying upon 
to achieve the results. Let's look for ways to be a better partner, 
instead of a bigger brother, for our major contractors. And let's look 
for ways to encourage small businesses to add efficiency and innovation 
to the process, instead of looking for ways to force them into an 
established process. If we are successful, we will have saved money for 
years to come, sped up our cleanup work, and protected the health and 
safety of our communities.
    Thank you again for inviting me to be here today. I look forward to 
working with this committee to make the changes that will ensure the 
best use of our limited cleanup and research dollars.

    Mr. Upton. Thank you, Mr. Hastings, and we have spent a lot 
of time talking specifically about this project.
    I guess I just have one basic question. My sense is that 
the community is fairly pleased with the work that has been 
done, at least, recently there, and I don't suspect that there 
is any real problems that have been--that have arisen since the 
work has continued. Is my perception correct?
    Mr. Hastings. I think your assessment is correct, and I 
think there is a couple of reasons for that. No. 1, we changed 
from the old M&O contract, that I loosely call Cost Plus, to 
M&I, which is based on performance. That change came roughly 4 
years ago, 4 years ago this summer, and I think that that has 
been a reason why there has been some efficiencies, because 
those efficiencies are based on performance, and you are 
rewarded for performance. So, I think that is one of the major 
changes why we have had some success out at Hanford.
    Mr. Upton. What is the timetable for the cleanup? How many 
years remain?
    Mr. Hastings. Well, there are two huge projects going on. 
The ``K Basin'' projects, and I will just briefly say that we 
are moving the ``K Basins'' from right on the Columbia River, 
essentially, to dry storage, and that problem was created 
because of a change in the rules, if you will. ``K Basins'' was 
supposed to have been a storage for a very short period of 
time; in fact, it lasted for some 25 years. Now, one of the 
basins has had some unanticipated leakage that we didn't 
anticipate before. So, those costs need to be--and I am sure 
somebody will talk about what those costs are.
    The other is the 177 underground tanks, and then we don't 
know, we haven't characterized everything in all of the tanks. 
That is a separate project that is moving, and there are some 
structural changes out at Hanford that I think were very 
important structural changes that will enhance the success of 
this project. But I can't say when the end is, because in both 
of those cases, they are unanticipated problems, and you are 
dealing, in both cases, with highly contagious--not contagious, 
but hazardous materials, including radioactive material. But I 
think that we have some structure now in place to see that this 
can be done in a very quick manner, but, obviously, it is going 
to take oversight on all of us.
    Mr. Upton. Thank you. Mr. Klink?
    Mr. Klink. I have no questions, but I commend the gentleman 
for his knowledge and his dedication to solving this problem. 
It is obvious that you have put a great deal of time in on this 
issue and that you bring a great amount of expertise to this 
issue, and I thank you for giving us your time.
    Mr. Hastings. Thank you.
    Mr. Upton. Mr. Bryant?
    Mr. Bryant. I have no questions.
    Mr. Upton. Ms. McCarthy?
    Ms. McCarthy. Mr. Chairman, I don't have any questions, but 
I thank the member for presenting this information to us; it is 
very important. Thank you.
    Mr. Hastings. Thank you very much.
    Mr. Upton. Okay. Thank you very much, Doc.
    Mr. Hastings. Thank you.
    Mr. Upton. The second panel includes Ms. Gary Jones, 
Associate Director of the Energy, Resources, and Sciences 
Issues at GAO as well as the Honorable Ernest Moniz, Under 
Secretary, Department of Energy, who will be accompanied by Mr. 
James Owendoff, Acting Assistant Secretary for Environmental 
Management and Mr. Gerald Boyd, Acting Deputy Assistant 
Secretary for the Office of Science and Technology.
    As I think all of you know, we have a standing rule in this 
subcommittee that all of our witnesses, outside of the members, 
testify under oath. Do you have any objection to that? Seeing 
none, we also allow you to have counsel if you wish to have 
that under the House rules. Do you wish to have that?
    If not, if you would rise, raise your right hand.
    [Witnesses sworn.]
    Mr. Upton. Thank you very much. You are now under oath, and 
we will start with Ms. Jones. Your whole testimony will be 
included as part of the record, and we would like you to limit 
your remarks, if you can, to 5 minutes.

    TESTIMONY OF GARY L. JONES, ASSOCIATE DIRECTOR, ENERGY, 
RESOURCES, AND SCIENCES ISSUES, GENERAL ACCOUNTING OFFICE; AND 
 ERNEST J. MONIZ, UNDER SECRETARY; ACCOMPANIED BY GERALD BOYD, 
 ACTING DEPUTY ASSISTANT SECRETARY FOR SCIENCE AND TECHNOLOGY; 
 AND JIM OWENDOFF, ACTING ASSISTANT SECRETARY OF ENVIRONMENTAL 
                MANAGEMENT, DEPARTMENT OF ENERGY

    Ms. Jones. Thank you, Mr. Chairman.
    I am pleased to be here today to follow up on our September 
1998 report to this committee. That report made several 
recommendations to address DOE management problems that were 
obstacles to deployment of innovative cleanup technologies. 
Addressing these problems would help ensure that we get the 
biggest payoff for the Federal Government's investment in these 
technologies.
    Our report noted that one key obstacle has been the lack of 
coordination between the technology developers and DOE's Office 
of Science and Technology and the technology users responsible 
for cleaning up the DOE sites. As a result, there have been no 
identified customers for some of the technologies that OST has 
sponsored. For example, 30 percent of the 171 technologies that 
OST has completed have not been used by DOE cleanup sites. Of 
the technologies used, about one-half have been used only once.
    OST has taken several actions to improve coordination. For 
example, OST used a new ranking system that set funding 
priorities according to users' needs for the fiscal year 2000 
budget request. However, OST is still not using the 
decisionmaking system it developed, called the Gate System, as 
we recommended. The gates are decision points preceding each 
stage of development and include criteria, such as defining 
users' performance requirements and, before investing in 
demonstration, obtaining user commitment to deploy the 
technology. The gates dictate user involvement and establish 
several go/no-go decision points during a project's 
development. Our report pointed out that one reason the Gate 
System had not been extensively used was that it would lead to 
the termination of some projects, an outcome that was resisted 
by OST's focus areas as well as the National Laboratories.
    DOE told us that they did not implement our recommendation 
on the Gate System, because they need to determine how best to 
implement the system and who to involve in the Gate System 
reviews. However, OST is using elements of this system in 
annual project reviews. Although these reviews have benefits, 
they are being implemented inconsistently, and it is unclear 
whether they will ensure user commitment before substantial 
investment is made.
    Our 1998 report also noted that some OST developed 
technologies were too generic to be readily implemented at 
sites and that responsibility for funding technology 
modifications to meet site-specific needs was unclear. For 
example, Hanford was interested in using an OST technology to 
help detect leaks in their high level radioactive waste tanks. 
However, Hanford officials said that the technology needed 
substantial fine-tuning for it to work on the tanks, and no 
funding was available.
    DOE says their Accelerated Site Technology Deployment 
Program is addressing this concern. This program provides 
funding to DOE sites for their first use of an innovative 
technology. However, the program funds only a limited number of 
projects, and the funding does not necessarily have to be used 
for modifications. While this program has facilitated some 
deployments, more proactively marketing technologies that OST 
has already completed could provide a greater return on past 
investments in technology development. This is particularly 
important given that about two-thirds of the completed 
technologies have never been used or were used only once.
    Our report also noted that the technical expertise of OST's 
focus areas varied, and site officials were sometimes reluctant 
to consult with them. As a result, sites were not consistently 
getting technical assistance to identify alternative solutions 
to cleanup problems. OST is currently establishing a lead 
national laboratory for each of its focus areas to increase 
their level of expertise. Since OST is still defining the role 
of the labs, it is too early to assess the impact of this 
change on improving expertise.
    There is also a question of the lab's ability and 
willingness to support technologies developed by others, 
because each lead lab is involved in developing technologies. 
Further, without requiring that an OST representative 
participate in technology selection, as we recommended, it is 
unclear whether improving focus area expertise alone will 
result in more consultations with sites.
    Data on deployments was another issue we covered in our 
1998 report. We found that OST's data were of poor quality. For 
deployments claimed from the start of the program through 
January 1998, 38 percent should not have been counted. OST has 
since conducted a study that verified deployments reported for 
fiscal years 1997 and 1998 and taken several steps to improve 
the quality of data input, such as issuing a definition of 
deployment. However, the data continues to have a high degree 
of errors, with only about half being correct before data 
verification. OST plans to hire consultants to help identify 
the causes of poor data quality and recommend improvements. If 
OST implements a systematic approach for ensuring data 
accuracy, the quality of deployment data needed to manage the 
program may improve.
    Thank you, Mr. Chairman.
    [The prepared statement of Gary L. Jones follows:]
 Prepared Statement of Ms. Gary L. Jones, Associate Director, Energy, 
   Resources, and Science Issues, Resources, Community, and Economic 
            Development Division, General Accounting Office
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss the Department of Energy's (DOE) progress in 
using the innovative technologies it has developed for cleaning up the 
hazardous and radioactive contaminants at its sites. These sites 
present environmental and human health concerns as a result of 50 years 
of nuclear weapons research, testing, and production activities. Since 
1990, DOE has received about $2.7 billion for developing innovative 
cleanup technologies and has initiated over 800 projects. According to 
DOE's data, 179 of the technologies have been deployed at DOE's sites, 
100 of which have been used only once.\1\ Our September 1998 report to 
this Committee made several recommendations to address DOE management 
problems that presented obstacles to selecting and using innovative 
technologies.\2\ The potential benefits of innovative technologies to 
reduce costs or speed cleanups cannot be realized unless these 
obstacles are overcome.
---------------------------------------------------------------------------
    \1\ Figures are from DOE's data as of May 1999, some of which has 
not been verified.
    \2\ Nuclear Waste: Further Actions Needed to Increase the Use of 
Innovative Cleanup Technologies (GAO/RCED-98-249, Sept. 25, 1998).
---------------------------------------------------------------------------
    Our testimony is primarily based on our 1998 report and on DOE's 
actions in response to our recommendations. For this hearing, you asked 
us to follow up on DOE's responses to our 1998findings and 
recommendations on (1) coordination between technology developers and 
users, (2) modifying completed technologies to meet site-specific 
needs, (3) technical assistance to sites concerning innovative 
technologies, and (4) the quality of data on deployment. In addition, 
you asked us to determine what information is maintained and made 
available to sites on the vendor companies for the cleanup technologies 
that DOE has developed. In summary, we found the following:
    As we reported in 1998, a key obstacle to deploying innovative 
technologies has been the lack of coordination between the technology 
developers in DOE's Office of Science and Technology (OST) and the end 
users of technologies at DOE's cleanup sites. As a result, some 
technologies have not met users' requirements. Since our report, OST 
has begun several actions to improve coordination between technology 
developers and users, such as setting its priorities according to the 
users' stated technology needs. However, OST is still not using the 
decision-making system it developed that requires user involvement 
during development and user commitment before investing in 
demonstrating a technology. Rather, OST is using elements of this 
system in its annual project reviews. Although these reviews have 
benefits, they are being implemented inconsistently and they may not 
provide enough management attention to developer and user cooperation 
as a technology progresses though development phases. More assurance 
may be needed that users will ultimately deploy the technologies being 
pursued and that a specific ``go/no-go'' decision is made before 
substantial investments are made.
    Our 1998 report noted that some OST-developed technologies were too 
generic to be readily implemented at sites and that responsibilities 
and funding sources for modifying technologies to meet site-specific 
needs were unclear. DOE cites its Accelerated Site Technology 
Deployment program as addressing these concerns. This program provides 
funding to DOE sites for their first use of an innovative technology 
developed by OST or other organizations. However, the program funds 
only a limited number of projects and funding does not necessarily have 
to be used for modifications. More could be done to proactively promote 
OST's technologies by identifying potential applications and 
alternative DOE funding for modifications, if needed.
    We found that the technical expertise of OST's focus areas varied 
and that site officials were sometimes reluctant to consult with 
them.\3\ As a result, cleanup sites were not consistently getting 
technical assistance to identify alternative solutions to cleanup 
problems. OST is currently establishing lead national laboratories for 
each of its focus areas to increase its level of expertise. Since OST 
is still defining the role of the lead laboratories, it is too early to 
assess the impact of this change on improving expertise. Furthermore, 
without requiring that an OST representative participate in technology 
selection, as we recommended, it is unclear whether improving focus 
areas' expertise alone will result in more consultations with sites.
---------------------------------------------------------------------------
    \3\ OST has five focus areas that manage technology development 
projects for the major cleanup problems that DOE faces, such as 
radioactive tank waste remediation.
---------------------------------------------------------------------------
    In our 1998 report, we found that OST's data on the deployment of 
its technologies were of poor quality. Specifically, we found that, in 
deployment instances claimed from the start of the program through 
January 1998, 38 percent should not have been counted as deployments. 
The most common type of error we found was counting technology 
demonstrations that did not result in cleanup progress as deployments. 
OST has since conducted a study that verified the deployments reported 
for fiscal years 1997 and 1998 and has taken several steps to improve 
the quality of data input such as issuing a definition of deployment. 
However, the data being entered into OST's database continue to have a 
high degree of errors with only about half of the deployments being 
correct as listed in the database. OST plans to hire consultants to 
help identify the causes of poor data quality and recommend improved 
approaches. If, as a result of its study, OST develops and 
systematically implements an approach for ensuring the accuracy of its 
data, the quality of deployment data needed to manage the program may 
improve.
    Finally, OST's database, which is available to end users at sites, 
generally contains information to allow sites to identify and contact 
vendors. However, these data can become out of date because companies 
move, merge, sell their patents, or make other changes. OST plans to 
improve the information on vendors in its database by, for example, 
linking information in the database with credit for deployment.
Background
    The Office of Science and Technology, which is within DOE's Office 
of Environmental Management (EM), develops new technologies that could 
accelerate cleanup, reduce costs, reduce risks to cleanup workers, or 
enable cleanup activities for which no cost-effective technologies 
exist. For fiscal years 1990 through 1999, the Congress provided a 
total of approximately $2.7 billion for the development of innovative 
cleanup technologies, and OST has initiated over 800 development 
projects.
    OST is currently organized into five focus areas for specific 
remediation activities: mixed waste characterization, treatment, and 
disposal; radioactive tank waste remediation; subsurface contaminants; 
deactivation and decommissioning; and nuclear materials. The focus 
areas were established in 1994 to concentrate OST's resources on each 
of the major cleanup problems that DOE faces. A field office that is 
responsible for the day-to-day management of technology development 
projects leads each focus area. For example, the Savannah River 
Operations Office manages the subsurface contaminants focus area, and 
the Richland Operations Office manages the radioactive tank waste 
remediation focus area. The focus areas use DOE's national 
laboratories, private companies under contract to OST, and universities 
to conduct technology research and development projects.
    Although OST is responsible for technology development, DOE's waste 
sites are responsible for selecting the technologies they will use, 
with the review and approval of the U.S. Environmental Protection 
Agency and state agencies that regulate DOE's cleanups and with input 
from the public involved with the site.\4\ Each DOE field office has 
established site technology coordination groups to identify sites' 
technology needs, provide OST and its focus areas with information, and 
communicate information about OST's technology development projects to 
the cleanup sites.
---------------------------------------------------------------------------
    \4\ Remediation activities at DOE's facilities are governed by the 
Comprehensive Environmental Response, Compensation, and Liability Act 
of 1980, as amended, and the Resource Conservation and Recovery Act of 
1976, as amended. These acts lay out the requirements for identifying 
waste sites, studying the extent of their contamination and identifying 
possible remedies, and involving the public in making decisions about 
the sites.
---------------------------------------------------------------------------
Actions Needed to Increase Coordination Between Technology Developers 
        and End Users
    In our 1998 report, we found that OST was not sufficiently 
involving end users during the development of new technologies. As a 
result, no customers have been identified for some of the technologies 
that OST has sponsored. Of the 171 technologies that OST had completed 
as of March 1999, 59 technologies, costing about $76 million to 
develop, have not been used by DOE cleanup sites.\5\ Although OST 
developed a decision-making system in 1997 that would provide for 
users' involvement in projects during the development process, the 
agency was not consistently using this system, known as the gates 
system. The gates system identifies seven stages of the technology 
development process: basic research, applied research, exploratory 
development, advanced development, engineering development, 
demonstration, and implementation. The gates are decision points 
preceding each stage. The gates system includes requirements such as 
identifying specific user needs, defining users' performance 
requirements, and before investing in a demonstration, obtaining users' 
commitments to deploy the technology if it meets the performance 
requirements. OST designed the gates system to provide its focus areas 
with a process and criteria for making ``go/no-go'' decisions at 
various points during a project's development. One reason why the gates 
system has not been extensively used was that it would lead to the 
termination of some technology projects, an outcome resisted by the 
focus areas and national laboratories. We recommended that OST 
rigorously and consistently use its gates system as a decision-making 
tool for managing its projects and as a vehicle for increasing 
cooperation between developers and users.
---------------------------------------------------------------------------
    \5\ Figures are from OST data as of March 1999.
---------------------------------------------------------------------------
    OST did not implement our recommendation. The Acting Deputy 
Assistant Secretary for OST told us that the office needed to determine 
how best to implement the gates system and whom to involve in the gates 
system reviews. However, OST has incorporated elements of the gates 
system in its existing project reviews. Specifically, in March 1999, 
the Acting Deputy Assistant Secretary issued a memorandum directing the 
focus areas to use the major criteria from the gates system in annual 
assessments of their projects, known as midyear reviews. The midyear 
reviews address the progress of each project, the importance and 
feasibility of the technologies under development, the development 
stage of the project, and whether it has met the requirements in the 
gates system for that stage of development. The memo states that end 
users should be involved in the reviews and that focus areas should 
address the question, Has an end user made a commitment to implement 
the technology? The requirements in the gates system, however, are more 
specific. For instance, end users' performance requirements must be 
incorporated before the project enters the advanced development stage. 
The Acting Deputy Assistant Secretary told us that he considers the 
midyear review guidance to be a first step in fully implementing the 
gates system.
    We have some initial concerns about what has been implemented to 
date. We reviewed criteria that four of the focus areas had developed 
for their midyear review panels to use.\6\ Only one of the focus 
areas--deactivation and decommissioning--linked the review criteria to 
the development stage of the project, as the gates system does. This 
focus area provided reviewers with different sets of questions for 
projects in basic science research, applied development, demonstration, 
and deployment stages. We also note that, unlike the other three focus 
areas, the radioactive tank waste remediation focus area did not review 
all of its projects, but only those that were about to be demonstrated 
or deployed, or that had concerns identified at previous reviews.
---------------------------------------------------------------------------
    \6\ Three focus areas have held their reviews, but as of May 10, 
1999, review reports were not yet available. A fourth focus area plans 
to hold its midyear review during the last week of May 1999, while the 
fifth focus area does not plan a midyear review this year.
---------------------------------------------------------------------------
    While using some of the gates system criteria in the midyear 
reviews may be beneficial, we do not believe that the midyear reviews 
provide enough management attention to help ensure developer and user 
interaction and cooperation as a technology progresses though 
development phases. A fully implemented gates system could provide more 
assurance that the technologies being pursued are needed and will 
ultimately be deployed by users and that a specific ``go/no-go'' 
decision is made before substantial investments are made.
    DOE has taken some other actions to better integrate the needs and 
technical requirements of end users into its technology development 
projects. For example, EM has set up user steering committees to advise 
each of OST's focus areas, which carry out the development and 
demonstration of technologies. The user steering committees help focus 
areas develop their program plans. In addition, beginning with its 
fiscal year 2000 budget submission, OST used a new priority-ranking 
system for its program that analyzed sites' data on their specific 
cleanup projects and needs. The new priority-ranking system used 
information that sites generated for DOE's AcceleratingCleanup: Paths 
to Closure strategy \7\ rather than information generated by OST 
personnel. Priorities for OST's fiscal year 2000 funding decisions were 
based on factors such as the number and costs of DOE's cleanup projects 
that could benefit from the proposed technology development work, the 
degree to which the proposed work addresses the technology needs of the 
sites, and whether sites plan to deploy the resulting technologies. OST 
plans to continue using this user-based priority system. According to 
OST officials, the system encourages the focus areas to work more 
closely with end users at sites to identify work that will meet their 
needs. These initiatives move the program in the right direction. 
However, these initiatives, like the midyear reviews, also do not 
substitute for the full implementation of the gates system. Continued 
attention by OST management and focus areas will be needed to fully 
implement these initiatives and make developer-user cooperation a 
routine part of doing business.
---------------------------------------------------------------------------
    \7\ Accelerating Cleanup: Paths to Closure is an annual report on 
EM's strategy and progress in cleaning up the remaining 53 contaminated 
sites. Its development requires sites to identify the scope of work, 
timeframes, and costs for each of the more than 350 projects at the 
cleanup sites.
---------------------------------------------------------------------------
Identification of Responsibilities for Modifying Technologies Is Needed
    During our 1998 review, DOE field staff and contractor personnel 
responsible for cleanup told us that, in many cases, OST had developed 
generic solutions that either do not meet specific site needs or must 
be modified before they could be used. Site officials told us that it 
was unclear who was responsible for paying for the modifications to 
those technologies that could prove useful. For example, Hanford 
officials were interested in using OST's Electrical Resistance 
Tomography to help detect leaks in their high-level radioactive waste 
tanks. However, a Hanford official said that the technology needed 
substantial fine-tuning to make it work on the Hanford tanks and that 
no funding was available at the time. In some cases, technology vendors 
have been willing to fund the necessary modifications, but for some 
needs unique to a DOE site, the market may be too small to elicit such 
an investment from vendors. We recommended that OST identify the 
technologies that could be cost-effectively used to meet sites' needs 
and that EM identify funds for modification if needed.
    DOE has not addressed this recommendation. In its written response 
to our report, DOE cited OST's Accelerated Site Technology Deployment 
(ASTD) program as addressing sites' concerns about using new 
technologies. ASTD provides DOE sites with funding for their first use 
of an innovative technology developed by OST or other organizations. 
The program is intended to increase the use of technologies that could 
speed cleanup or reduce costs. OST competitively evaluates sites' 
proposals for ASTD projects to select projects to fund. Of the 46 ASTD 
projects that OST has funded to date, 36 are using technologies 
developed by OST.\8\ The sites receiving ASTD funds must also provide 
funding for implementing the technologies, and ASTD funds are not 
targeted to specific purposes within the project, such as paying for 
modifications to technologies.
---------------------------------------------------------------------------
    \8\ In fiscal year 1998, OST provided $27 million in funding for 
the 14 ASTD projects selected from its first call for proposals. In 
fiscal year 1999, OST is providing $16.8 million for 32 additional ASTD 
projects selected from its second call for proposals, as well as $14.7 
million for nine of the first projects that continue into a second 
year. Another eight ASTD projects selected from the second call for 
proposals are expected to begin in fiscal year 2000.
---------------------------------------------------------------------------
    While ASTD may have facilitated some deployments, OST could be more 
proactive in identifying potential uses for its technologies and 
providing sites with assistance in such cases. This is particularly 
important, given that, of the 171 technologies that OST had completed 
by March 1999, 59 technologies--or more than 30 percent--have never 
been used by the sites. Of the 112 completed technologies used by the 
sites, about half have been used only once. Such proactive assistance 
might involve providing information on OST's technologies and technical 
advice or working with the sites to arrange and share the costs of 
technology modifications, if needed and cost-effective. These actions 
could identify additional cost-effective uses for technologies that OST 
has already completed and provide a greater return on past investments 
in the development of technology.
Some Actions Have Been Taken to Provide Sites With Technical 
        Assistance, But Requirement Is Still Lacking
    In our 1998 review, we found that OST was not fulfilling its role 
of providing users with the technical advice and assistance that they 
need to identify solutions to cleanup problems and to help implement 
those solutions. Focus areas' abilities to provide technical assistance 
varied, and some site officials told us that they were reluctant to 
consult with the focus areas because they were not convinced of the 
focus areas' technical expertise. We recommended that OST increase the 
expertise available for providing technical assistance on innovative 
technologies. We also recommended that EM require that an expert from 
OST participate in technology selection processes for site cleanup 
projects.
    DOE has taken some actions to implement our recommendation for 
increasing technical expertise. Specifically, OST recently selected a 
lead national laboratory for each of its focus areas. The purpose of 
establishing the lead laboratories is to im-

prove the technical expertise available to the focus areas for 
assessing their technology development projects, identifying promising 
basic research for further development, and providing sites with 
technical assistance. With the exception of the radioactive tank waste 
focus area, which has worked with a national laboratory for several 
years, OST is currently in the process of defining the roles and 
responsibilities for their lead laboratories.
    It is too soon to tell whether establishing lead laboratories will 
result in sites requesting technical assistance from OST more 
frequently. We note that multiple objectives exist for the lead 
laboratories and it is unclear whether technical assistance will 
receive adequate attention. In addition, since each lead laboratory is 
involved in developing some OST technologies, there is some question 
regarding their ability and willingness to support and assist 
technologies developed by other laboratories or organizations.
    EM has not implemented our recommendation that experts from OST be 
required to participate in sites' technology selection processes. OST's 
focus areas have provided technical assistance for some technology 
decisions at DOE's sites but have not been routinely involved in all 
such decisions. For example, the subsurface contaminants focus area 
participates with the Office of Environmental Restoration in providing 
some DOE sites with consultations on groundwater and soil cleanups, and 
the deactivation and decommissioning focus area is participating in 
several value engineering studies with sites. According to an OST 
official, the radioactive tank waste focus area, assisted by the 
Pacific Northwest National Laboratory, has given beneficial technical 
assistance and advice to several key decisions for privatization 
projects at Hanford and Oak Ridge. In privatization projects, DOE uses 
fixed-price contracts, and vendors are responsible for identifying the 
technologies that they plan to use. Technical assistance can help sites 
develop performance specifications for the contracts, according to the 
Acting Deputy Assistant Secretary for OST.
    The Acting Assistant Secretary for EM told us that he believes a 
policy on requiring OST's involvement in technical decisions for sites 
would not be as useful as other efforts, such as the ASTD program and 
integration teams that are studying waste problems common to several 
sites and trying to develop integrated responses to the problems. We 
believe that while technical assistance to sites may be increased by 
these activities and by additional expertise in the focus areas, 
technical assistance is not consistently being used to ensure that 
sites' decisions are based on well-informed consideration of the full 
range of available technology alternatives. During our 1998 review, we 
found that sites infrequently sought technical assistance from OST and 
its focus areas. In addition, ASTD and the integration teams have dealt 
only with a relatively small number of innovative technologies. As a 
result, DOE needs to do more to ensure that OST's technical assistance 
role is reinforced and made more routine.
Process Is Needed to Ensure the Quality of Deployment Data
    Our 1998 report found that OST's deployment data were of poor 
quality. Specifically, we found that, for deployment instances claimed 
from the start of the program through January 1998, 38 percent should 
not have been counted as deployments. The most common type of error we 
found was counting technology demonstrations that did not result in 
cleanup progress as deployments. OST's focus areas are responsible for 
obtaining information about the use of OST-developed technologies at 
field sites and for inputting the data into a central database. While 
our review was under way, OST began to verify its deployment data for 
fiscal year 1997. We recommended that OST verify the accuracy of future 
deployment data and label the earlier data that had not been verified 
as an estimate.
    Since our review, OST has completed a verification effort for 
deployments that occurred in fiscal years 1997 and 1998, and DOE's 
February 1999 report on the deployment of innovative technology 
indicated that data from earlier years had not been verified. OST 
verified its data through a Technology Achievements Study, which used 
structured interviews with DOE field sites and technology vendors to 
identify and obtain information about the deployments at cleanup sites. 
OST corrected the errors found by the Technology Achievements Study 
prior to publishing the deployment report.
    OST's verification of fiscal year 1998 data found that only about 
half of the deployments were correct as listed in the database. 
Specifically, 18 percent of the deployments claimed should not have 
been counted as deployments (compared with the 38 percent that we 
found), and 43 deployments had been omitted from the database. Other 
errors included deployments that were recorded in the wrong year or 
that required major changes to the information provided.
    Several actions were taken during 1998 to improve the quality of 
the data. In August 1998, OST issued a definition of deployment for its 
focus areas to use in gather-

ing and inputting deployment data. The definition emphasizes that a 
deployment occurs only if the use of the technology furthers site 
cleanup goals. OST also has site officials check deployment information 
that focus areas have entered into OST's database. This step occurs 
prior to verification through the Technology Achievements Study. In 
addition, beginning in 1998, focus areas have been required to fill out 
deployment fact sheets about each claimed deployment. This requirement 
may help focus areas to improve their knowledge about deployments and 
avoid such errors as the reporting of deployments in the wrong year or 
wrong location because the fact sheets require specific information 
about the site and project where the technology was used and the 
identification of end users.
    OST officials told us that they plan to continue the Technology 
Achievements Study in fiscal year 1999 but have not decided if this 
approach will be followed in the future. OST is hiring consultants to 
conduct a one-time independent check of deployment data for fiscal year 
1998, study reasons for the poor quality of the data, and provide 
advice on ways of improving data quality. If, as a result of this 
study, OST develops and systematically implements an approach for 
ensuring the accuracy of its data, the quality of deployment data may 
improve.
Vendor Information Is Generally Available for OST-Developed 
        Technologies
    Private vendor companies generally provide the innovative 
technologies that are selected for use at DOE sites. Therefore, it is 
important that DOE's field and contractor personnel have access to 
information about the vendors for OST-developed technologies. OST's 
database, accessible to DOE site personnel and the public, includes 
information on vendors. We reviewed vendor information in the database 
for the 171 technologies that OST had completed as of March 1999. 
Thirty-three of the completed technologies were not commercially 
available, leaving 138 technologies that should have information for 
contacting vendors. For 122 of the 138 completed, commercially-
available technologies (88 percent), OST's database included the basic 
information that site personnel would need to contact a vendor namely, 
the company's name, a contact name, and a phone number.\9\ According to 
OST officials, if the necessary information is not in the database, 
site personnel can contact staff in OST's focus areas to obtain vendor 
information. We called focus area staff about 3 of the 16 completed 
technologies that lacked information for contacting vendors in the 
database. The focus area staff provided three vendor contacts for two 
of these technologies and told us that the third technology is not 
currently commercially available. We then attempted to contact the 
three vendors with the information that the focus areas provided for 
the other two technologies. For one of the vendor contacts, the area 
code provided by the focus area was out-of-date. However, we were able 
to contact the three companies and confirmed that they are current 
vendors of the technologies.
---------------------------------------------------------------------------
    \9\ Some of the listings lacked other information, such as the 
company's street address or fax number.
---------------------------------------------------------------------------
    OST officials told us that they plan to improve the vendor 
information in the database. First, OST plans to change its database so 
that the field for vendor information must be completed by focus area 
staff when they are preparing deployment fact sheets. If the vendor 
information is not complete, the focus area will not receive credit for 
the deployment. Second, the Technology Achievements Study obtains 
vendor information during its surveys that OST plans to put into its 
database. According to OST officials, vendor information changes 
frequently because companies may sell their patents, go out of 
business, relocate, or change the trade name of the technology. The 
manager of the Technology Achievements Study estimates that each year, 
10 to 20 percent of the vendors may have some type of information 
change including new addresses or area codes and new contact points due 
to staff turnover or company mergers. If OST implements these two 
planned actions, it will have greater confidence that its information 
on vendors is complete and current.
    Mr. Chairman, this concludes my statement, and I would be pleased 
to respond to any questions the Subcommittee may have.

    Mr. Upton. I think you are the first witness this year that 
hasn't used the full 5 minutes.
    Ms. Jones. Do I get an award?
    Mr. Upton. You do.
    This egg timer can be it.
    Mr. Moniz.

                  TESTIMONY OF ERNEST J. MONIZ

    Mr. Moniz. Thank you, Mr. Chairman. Do I get the remaining 
time?
    Mr. Upton. It is now gone.
    Ms. Jones. I yield.
    Mr. Moniz. Thank you, Mr. Chairman and other members of the 
subcommittee.
    Mr. Upton. We will give you an extra 30 seconds. Go ahead.
    Mr. Moniz. I am here to today to update you on the progress 
the Department has made in managing the Science and Technology 
Program in EM since the hearing on this topic before you 2 
years ago. That hearing, we certainly acknowledge, galvanized 
the Department into action to solve the technology development 
and deployment problems that you pointed out.
    Today, I am pleased to report to you we feel real results, 
both on the on-the-ground results and new ways of doing 
business, and real challenges that still lie ahead. We do feel 
we are on the way toward a system that responds to our site 
cleanup responsibilities, while, hopefully, getting the best 
use of the American taxpayers' dollars.
    The environmental safety and health problems in the weapons 
complex, as you know, are often larger and more intractable 
than those in most conventional commercial cleanup programs. In 
many cases, no effective technologies have existed, and our 
goal is to develop and deploy those technologies that can help 
us achieve cleanup faster, cheaper, better, and safer.
    We are investing only about 4 percent of the EM Program's 
annual budget in the Science and Technology Program, about half 
of the R&D investment made by large companies that depend upon 
innovative technologies for success. The potential payoff is 
substantial. Based on evaluations including independent 
evaluations by the Corps of Engineers and the EMAB, we expect 
that our science and technology investments will produce $10 
million to $20 million in life-cycle savings for the program.
    To achieve these results, we have done the following: 
first, we have shifted our science and technology investments 
in this 2-year period from developing technology that can be 
used to technology that will be used. Site cleanup project 
managers, as opposed to headquarters, are driving the 
investment decisionmaking to address on-the-ground needs. The 
technology needs have been mapped from major projects to 
identify the technology chokepoints and ensure that what is 
being developed will address the need.
    I would just add that I have been with the Department now 
for 1\1/2\ years, very heavily involved in portfolio 
development and road mapping and technology across the board. 
Frankly, no group has been more aggressive in pursuing those 
approaches to planning than the Office of Science and 
Technology in the EM.
    Second, we have significantly strengthened our peer merit 
review of technology development. We are using peer review both 
at the outset of a project as well as to help us make go/no go 
decisions at key points in an ongoing project. The National 
Academy of Sciences favorably reviewed the system.
    Third, in fiscal year 2000, we are putting into place a 
significantly improved set of performance measures to help 
drive the pro-

gram to success, including tracking number of technologies 
deployed. We need good data to back up these performance 
measures, and we are working to improve this. We are using the 
results of the independent review of the fiscal year 1998 
deployment data to develop and implement a system to validate 
the fiscal year 1999 deployments as they occur. And to improve 
cost savings data, we will begin using a standard calculation 
methodology in fiscal year 2000.
    We also continue to work on increasing deployment levels. 
Today's hearing also raises questions about whether we are 
managing our contractors in a way that maximizes new technology 
benefits. Key to this are the incentives we provide to our 
contractors to use new technologies. However, current contract 
incentives, to complete as much work as quickly as possible or 
within a fixed price, may occasionally conflict with trying to 
accomplish that goal. Therefore, I have initiated an assessment 
of existing contract incentives in our M&O and M&I contracts to 
develop the contract incentive options for enhancing and better 
aligning toward the use of new technologies. I expect an 
initial report in September.
    Technologies need to be available commercially to enable 
deployment at multiple sites--another issue you have raised. 
That is why we are focusing on developing the industry 
partnerships needed to increase multi-site deployments. To 
date, over 120 companies have told us that technologies we help 
them develop are now commercially available. This is 
significant progress, but we still need to do more with the 
vendors to ensure even greater use.
    Regulatory and stakeholder acceptance of new technologies 
is also paramount to deployment. We have been working with the 
States and the EPA to gain an acceptance of new technologies 
and reduce regulatory barriers to deployment. But more needs to 
be done, and we are going to expand our work, through the EPA 
and the States, through the Federal Remediation Roundtable to 
improve permitting processes for new technologies.
    While more needs to be done, we are achieving on-the-ground 
results. Over 50 percent of the OST developed technologies have 
been deployed in the past 2 years. In fiscal year 1998, alone, 
we had 108 first-time deployments of new technologies at DOE 
sites, a sharp increase from previous years--That is indicated 
on that slide over there.
    Some of these first-time deployments came from the 13 new 
projects under the Technology Deployment Initiative. 
Ultimately, these projects, using a much better system than was 
being used 2 years ago, are now expected, to result in over 70 
deployments and $700 million in projected life-cycle cost 
savings.
    Mr. Upton. Go ahead.
    Mr. Moniz. If I may just take another minute or 2, I 
appreciate it. I will shorten the rest.
    I do want to emphasize that technology development and 
deployment are more complex than merely decreeing that ``thou 
shalt use new technologies'' and counting deployments. The 
goal, after all, again, is not simply more technology 
deployment but making cleanup faster, cheaper, safer, and 
better. As Albert Einstein said--now I am a physicist--``Not 
everything that can be counted counts, and not everything that 
counts can be counted.''
    Our technology investments are diverse. They may be very 
complex, such as the project that Congressman Hastings referred 
to at Hanford--actually, a different one than he referred to--
an enhanced sludge washing approach being developed for $10 
million has now reduced the projected life-cycle baseline cost 
by $6 billion, which would be, obviously, roughly equal to the 
entire lifetime investment in OST technologies.
    On the other hand, the technology may be simple and cheap, 
such as this device, the band ball, developed by Savannah River 
Technology Center. This technology in its simplest terms is a 
low-resistance check valve with a ping pong ball inside. What 
it does is greatly improves the removal of subsurface 
contaminants. It basically works on the differential in 
barometric pressure from day to day. This is now doing a job 
for less than half the cost of conventional approaches, and it 
is being used by more 15 Government, commercial, and 
international organizations, and as best we know this ping pong 
ball was not manufactured in China.
    But no matter whether it is cheap or expensive, technology 
is helping us to do the job better. We are addressing some 
previously intractable problems, such as the highly radioactive 
waste in the gunite tanks at Oak Ridge--and, again, we have a 
slide to indicate that. Technology is helping us do the job 
cheaper. For example, the Department made the cleanup at Oak 
Ridge $40 million cheaper with the out-of-tank evaporator. 
Technology is helping us work faster. Livermore developed the 
technology, and we are now ready for widespread use inside and 
the outside the complex that removes subsurface contaminants, 
orders of magnitude more quickly than conventional pump and 
treat. Technology is helping us work more safely. For example, 
the oxy-gasoline torch eliminates fire hazards for our workers.
    So, we are looking to continuously improve how we do 
business, as if we make progress, we still have more to 
implement, as you well know, in the next 2 years--we do ask for 
your support to continue our progress in this vital program. 
And the last plea I would make is that in evaluating any RD&D 
portfolio, that you assess the overall portfolio and not focus 
just on individual projects.
    Thank you, Mr. Chairman.
    [The prepared statement of Ernest J. Moniz follows:]
  Prepared Statement of Hon. Ernest Moniz, Under Secretary of Energy, 
                          Department of Energy
    Mr. Chairman and other Members of the Subcommittee: I am pleased to 
be here to discuss with you the improvements we have made over the past 
two years in the Environmental Management (EM) Office of Science and 
Technology (OST) program's development and effective deployment of 
innovative technologies to support the cleanup of the Department's 
nuclear weapons complex.
                              introduction
    The Office of Environmental Management's (EM) mission is to clean 
up the environmental legacy of U.S. nuclear weapons production and 
nuclear research. EM's goal is to complete as much of the cleanup as 
possible by the year 2006. But considerable cleanup will remain after 
2006 focused on the most complicated and difficult problems. The EM 
cleanup effort is expensive, technologically complex, closely 
regulated, and relatively unique in the world. Achieving the goal of 
accelerated cleanup requires targeted investments in science and 
technology to respond to hundreds of needs identified by cleanup 
project managers at the affected sites.
    EM's science and technology investments (a total of $243M in fiscal 
year 1999) have the potential to provide more effective, less 
expensive, more timely, and safer environmental remedies, including 
technologies where no effective remedies currently exist. These 
investments can also provide the data or alternative approaches to 
reduce the risk that cleanup will be delayed or will exceed current 
cost estimates. Science and technology efforts within EM span the full 
spectrum from basic research to direct deployment assistance for 
cleanup projects and lead to fully integrated, technically defensible 
solutions for cleanup and long-term environmental stewardship at DOE 
sites. In order to maximize the value to the cleanup effort, EM's 
investments in science and technology must be effectively implemented 
across the DOE complex.
    Approximately two years ago, your subcommittee held a hearing on 
the effectiveness of the OST program. At that time there was limited 
evidence that OST developed technologies were being deployed across the 
EM complex. During that hearing, your subcommittee also identified a 
number of concerns with the OST program: little or no involvement of 
the actual cleanup project managers with the selection, development, 
and implementation of new technologies; lack of a clear priority 
setting process for technology selection; lack of robust peer and merit 
review of science and technology investments; lack of effective 
measures to assess overall program performance; and lack of evidence 
that significant numbers of new technologies were being deployed in 
support of the Department's cleanup mission. We are here today to 
report that the Department took these criticisms very seriously, and as 
a result, EM has made a number of significant improvements in the 
management and integration of the OST program.
    Over the last two years, OST and EM have substantially improved 
their technical and strategic planning processes. First, we developed 
policy and implemented new processes such as needs validation to assure 
that science and technology investments are driven by cleanup project 
managers. Second, we developed and are using a transparent, 
quantitative prioritization system for determining our science and 
technology investments; this system is wholly based on cleanup project 
data. Third, we instituted uniform and systematic peer and merit review 
systems; both are in place and working. Fourth, we established 
meaningful and challenging performance measures to assure that 
programmatic success can be demonstrated to regulators, state partners, 
and other stakeholders.
    The net result of these changes has been a significant improvement 
in the way OST is managing our science and technology investments, 
which is evidenced in part by increasing deployment rates for 
innovative technologies across the DOE complex. With over 75 percent of 
the EM cleanup still ahead of us (in terms of estimated cost), the 
increasing deployment of innovative technologies should provide 
considerable opportunities for significant cost savings (i.e., billions 
of dollars) and schedule acceleration over baseline estimates. We are 
achieving results from our science and technology investments.
Achieving Results
    In the past, the OST program has been criticized for the relative 
lack of deployments of new technologies across the DOE complex. I am 
pleased to report that we have turned the corner and are beginning to 
see the results of the investments we have made in science and 
technology. As with any science and technology initiative, substantial 
results cannot be expected overnight. We know that it takes at least 
several years to develop technology, gather needed supporting cost and 
performance data to demonstrate its utility and cost effectiveness 
under actual field conditions, and to make it ready for actual 
implementation. To accelerate the use of new technology in the EM 
cleanup effort, EM management of science and technology investments has 
evolved from a focus primarily on technology development prior to 
fiscal year 1996 to the more recent thrust toward deployment. The 
success of that strategy is now apparent.
    OST-developed technologies, implemented by commercial vendors, are 
being used to clean up DOE sites across the country. From fiscal year 
1991 through fiscal year 1998, almost 300 deployments of OST 
technologies took place at 30 DOE sites. While many of EM's cleanup 
issues are unique to DOE, there are some common problems shared with 
other federal agencies and organizations. To date, 32 deployments of 
OST-developed technologies have occurred at 28 non-DOE sites across the 
country and abroad. These sites include numerous military 
installations, Superfund sites, nuclear reactors, and various 
industrial sites.
    For fiscal year 1998, EM committed to 49 first-time deployments of 
innovative technologies at DOE sites. This goal has been far exceeded 
and OST has played a major role in that success. DOE's Field Offices 
have reported 122 first-time deployments of innovative technologies in 
fiscal year 1998: 53 of non-OST technologies and 69 of OST-developed 
technologies. OST has conducted an intensive review of claims regarding 
its 69 technologies. To date, OST has verified that 55 of these first-
time deployments utilized OST funded technologies at DOE sites. These 
55 deployments, taken together with the 53 non-OST technology 
deployments, makes a total of at least 108 first-time DOE site 
deployments in fiscal year 1998. Considering only OST-developed 
technologies, in addition to the 55 first-time DOE site deployments, 
OST has also verified 49 subsequent technology deployments at DOE sites 
and 9 non-DOE site deployments, for a total of 113 deployments of OST 
sponsored technologies in fiscal year 1998. These 49 subsequent 
technology deployments reflect multiple usage of 18 OST sponsored 
technologies. Attachment 1 provides a list of OST developed 
technologies that contributed to meeting performance measures in fiscal 
year 1998.
    More OST supported technologies are being deployed each year, and 
an increasing number of technologies are being deployed multiple times. 
Figure 1 below illustrates the increasing deployment trend for OST 
technologies. From fiscal year 1991 through fiscal year 1998, over 40 
percent of OST's deployed technologies have been used more than once. 
Of the technologies with multiple deployments, 52 percent have been 
deployed 3 or more times. This increase in deployment of innovative 
technologies is contributing to schedule acceleration at many sites.

[GRAPHIC] [TIFF OMITTED] T7444.033

  Figure 1. Cumulative Totals of OST Technology Deployments by Fiscal 
                                  Year
    In fiscal year 1998, OST initiated the Technology Deployment 
Initiative (TDI), now known as the Accelerated Site Technology 
Deployment (ASTD) initiative, to provide a means and incentive to 
promote the deployment of innovative technologies at multiple DOE 
sites. During fiscal year 1998, 14 projects, encompassing some 36 
technologies, were started. By the end of fiscal year 1998, 13 
deployments at 9 DOE sites occurred under 5 of these projects, with as 
many as 70 deployments projected over the next several years. Although 
the number of deployments for fiscal year 1998 was originally 
identified as 11 during testimony before the House Science Committee in 
March 1999, a final data review increased this by 2 deployments, to a 
total of 13. One particularly notable success under this program is the 
Segmented Gate System (SGS). The SGS, which reduces the volume of 
radioactively contaminated soils that requires disposal, was deployed 
at four DOE sites in one year under ASTD. For the original fourteen 
projects, over 60 private entities are providing products and services, 
of which approximately two-thirds are small businesses.
    In fiscal year 1999, a total of 40 projects have been selected for 
initiation under the second round of the ASTD program. Technologies 
stemming from these projects are scheduled to be deployed at fifteen 
DOE sites, within one to two years of project start-up. Of particular 
note, the Hydrous Pyrolysis/Dynamic Underground Stripping (HP/DUS) 
technology will be used to clean up dense non-aqueous phase liquids 
(DNAPLs) in the subsurface at DOE's Portsmouth, Ohio facility, the 
Savannah River Site, and Lawrence Livermore National Laboratory in 
place of pump and treat technology.
    In 1998, the General Accounting Office (GAO) reviewed EM's efforts 
to deploy innovative technologies. GAO found that OST's overall 
deployment rate is comparable to deployment rates at both the 
Environmental Protection Agency's Superfund Innovative Technology 
Evaluation Program and the Department of Defense's Environmental 
Security Technology Certification Program.
    Although the results of our science and technology investments are 
beginning to payoff, there remain areas in which improvements are still 
needed. For example, the Office of the Inspector General (OIG) has 
recently released an audit report critical of several aspects of OST's 
efforts to deploy decontamination and decommissioning technologies. We 
have reviewed this report. We have determined what corrective action is 
needed to address the report's major findings and are beginning to 
implement those actions.
Strategic Planning
    To ensure that we are working to achieve common science and 
technology goals, we developed the EM Strategic Plan for Science and 
Technology and the EM Research and Development Program Plan. These 
documents articulate a set of common goals and objectives, shared by 
the EM complex, for the science and technology programs within EM. They 
describe the relationship between the Department's missions, EM's 
specific missions, the programs established to accomplish these 
missions, the technical opportunities and barriers within these 
programs, and the science and technology investments needed to directly 
support EM's missions. But setting policy and having a plan are not 
sufficient; we must also be able to successfully execute our program as 
well. The OST Management Plan is one primary document that we use to 
help execute the program. And one major requirement pervasive in all of 
these plans is that EM's science and technology investments must be 
driven by cleanup project managers, i.e., site managers responsible for 
on and under the ground cleanup, in order to have the maximum impact. 
At this point I want to elaborate on our major policy and programmatic 
changes.
Cleanup Project Managers Drive Science and Technology Investments
    The first key policy decision we made was that cleanup project 
managers must drive science and technology investments for the OST 
program to be successful. Identification of cleanup project manager 
needs is the first step in the development of solutions to EM cleanup 
problems. Input from cleanup project managers is essential to 
accurately define and validate the needs to be addressed by EM's 
science and technology investments. Science and technology program 
needs are currently derived from needs developed by cleanup project 
managers and documented in ``need statements,'' disposition map 
technology risk levels, critical pathway technology risk levels, and 
information contained in EM Project Baseline Summaries (PBS), i.e., 
relatively high-level project descriptions. Preliminary information for 
fiscal year 2000, for example, indicates that one-third of EM's cleanup 
projects and about 15 percent of the waste streams have technology 
needs associated with them. The majority, but not all, of these needs 
are currently being addressed by the OST program. The information also 
indicates the size (cost and extent) and complexity of the technical 
needs facing EM's science and technology program. They also identify 
the individual cleanup project manager, the schedule within which the 
solution must be available, and the impacts if these needs are not met.
    Based on the cleanup project managers' input, OST's technical Focus 
Areas--essentially, teams of Federal and contractor experts that 
concentrate on a major area of technical need, e.g. high-level waste 
tanks or deactivation and decommissioning of facilities--begin an 
iterative process to develop fully integrated, multi-year technical 
responses to the site needs. The Focus Areas work closely with cleanup 
project managers to identify and document the specific science and 
technology requirements a solution must meet. The Focus Areas establish 
problem area roadmaps, also known as multi-year program plans, to 
document the life-cycle planning for the solutions they are providing. 
In addition, the Focus Areas ensure that their technical responses are 
fully and completely integrated into the cleanup project manager's 
activities.
    This process of integrated, joint planning is intended to ensure 
that budgets are adequate to support the technology development 
efforts; delivery schedules align with technology insertion points; and 
the cleanup programs have the financial and technical resources to 
support deployment of the new technology. Finally, ongoing science and 
technology projects are evaluated at key decision points to determine 
if an effort should be continued or if an alternate strategy should be 
adopted. Clean-

up project managers are fully involved in these evaluations to ensure 
continued commitment to successful implementation of the solution.
Transparent, Quantitative Prioritization System for Proiect Selection
    The second key policy decision we made was to use a transparent and 
quantitative system for establishing OST's workscope priorities based 
on data provided by our Field Offices. The complexity and duration of 
the EM cleanup effort requires OST to carefully prioritize and sequence 
science and technology projects. Our science and technology activities 
are now planned and managed in an interactive, coordinated and 
participatory relationship with EM's cleanup project managers and 
stakeholders. OST's prioritization process is iterative and 
integrative, beginning at the site problem level. EM's science and 
technology activities are pursued if and only if they:

<bullet> meet the highest priority cleanup project needs;
<bullet> reduce the cost of EM's costliest cleanup projects;
<bullet> reduce technology risk; and/or
<bullet> accelerate and increase technology deployment by bridging the 
        gap between development and use.
    Prioritization is first performed by the cleanup project managers, 
in the sense that only those OST technical responses that are endorsed 
by a cleanup project manager will be considered for integration and 
prioritization into each Focus Area's portfolio. Prioritization of 
technical activities is performed by each Focus Area, and then 
reviewed, revised if necessary, and approved by the Focus Area's User 
Steering Group, an oversight group charged with providing managerial 
oversight of the Focus Area's investment portfolio. Following this, the 
technical responses are compiled into work packages, which represent a 
set of related technical responses to site problems. A national, OST 
level prioritization process is then applied using a multi-attribute 
analysis, that includes the following factors: cost savings, technology 
deployment, site needs, and technical risk. The results of this process 
are then reviewed by the Department's Field Office Managers and EM's 
Deputy Assistant Secretaries to determine the final integrated priority 
list. This entire process has recently been reviewed and endorsed 
earlier this year by the Environmental Management Advisory Board 
(EMAB), an independent advisory group to EM. The EMAB concluded that 
OST's prioritization system was a transparent, robust quantitative 
prioritization system that is rooted in technology needs data supplied 
by project cleanup managers. We are committed to using this 
prioritization system to determine our portfolio of science and 
technology investments.
Peer and Merit Review Systems
    The third key policy decision was to implement robust peer and 
merit review systems. Continuous internal and external review by peers 
and sponsors is generally recognized in the science and technology 
community as a necessary element of sound program evaluation and 
decision making. OST has put in place the review mechanisms and groups 
needed to assure the technical or scientific merit and programmatic 
relevance (potential to meet a cleanup project manager's needs) of its 
activities. Scientific merit review is performed by independent peer 
reviewers from universities and national laboratories, selected by the 
Department's Office of Science on the basis of their professional 
qualifications and expertise. OST's Environmental Management Science 
Program has been recognized for the quality of its scientific peer 
review through receipt of a Vice-Presidential Hammer Award.
    Technical merit reviews of specific technologies are conducted for 
OST by the American Society of Mechanical Engineers (ASME). ASME review 
panels provide independent, external evaluation of the technical merits 
of a technology. Through fiscal year 1998, ASME has conducted over 58 
technology merit reviews for OST, with another 40 reviews planned to be 
completed by the end of fiscal year 1999. Programmatic relevance 
reviews are conducted by each Focus Area to evaluate research projects 
for programmatic relevance and technical, schedule, and cost 
performance. Programmatic relevance review panels include OST program 
managers, cleanup project managers, subject matter experts, stakeholder 
representatives, and technology developers, as appropriate. Finally, ad 
hoc reviews are conducted of the OST Program by the National Research 
Council/National Academy of Sciences (NRC/NAS) and the EMAB. These ad 
hoc reviews generally address broad program issues and help guide OST 
and EM in addressing problems of greatest significance to the 
Department.
Performance Measures
    The fourth key policy decision was to use an effective set of 
performance measures at the corporate EM level to guide and evaluate 
our science and technology invest-

ments. Performance measures and the appropriate associated metrics are 
critical to the evaluation and ultimate success of any program. They 
can effectively drive the direction of any program and ultimately help 
it succeed. EM's performance measures associated with science and 
technology investments have evolved with the EM program and 
improvements in our understanding of how to most effectively use 
performance measures to achieve program goals.
    Two years ago, at the time of our first hearing, EM was not 
measuring numbers of technology deployments or associated cost savings. 
That hearing catalyzed a number of changes to our performance 
measurement system. Over the past two years, we have developed a set of 
four corporate science and technology measures that are sound, 
balanced, complement each other, and are reported by our customers at 
our Field Offices through the Paths to Closure, EM's corporate strategy 
document. The first of these measures--the number and impact of 
technology deployments--was initiated in fiscal year 1998. Starting in 
fiscal year 2000, the following three measures will also be used:

<bullet> number of high priority site needs being addressed by science 
        and technology activities
<bullet> reduction in programmatic risk resulting from science and 
        technology activities
<bullet> life cycle cost savings resulting from science and technology 
        activities.
    These four measures are designed to assess both how well we are 
managing our investments in, and how effective we are in using the 
results from, our science and technology activities. These measures 
will enable us to:

<bullet> measure the impact of our science and technology investments 
        in terms of deployment by tracking both the number of 
        technology deployments and, more importantly, a quantitative or 
        qualitative discussion of the value of the deployment in 
        helping to meet site and state regulator objectives;
<bullet> use site needs to better target science and technology 
        investments; to evaluate and track high priority site needs 
        being addressed; and the science and technology solution to 
        those needs that meet site schedule requirements;
<bullet> make the reduction of programmatic risk a priority for science 
        and technology investments by tracking the reduction in 
        programmatic risk (technological risk in particular) associated 
        with the site critical closure paths and the management of 
        contaminated media, waste streams, and materials; and
<bullet> improve our focus on the highest cost projects, set metrics 
        and document the resulting life-cycle cost savings from EM's 
        science and technology investments as part of our Project 
        Baseline Summary life-cycle cost variance analysis.
    These four measures are a balanced and logical approach to 
determining science and technology based contributions to accelerated 
cleanup goals. These four performance measures are so integral to the 
way we are managing our science and technology investments that I want 
to discuss each of them in more detail.
Measure the effectiveness of our science and technology investments
    EM started to track both the deployment of new technologies and the 
value of those deployments in 1997. EM established technology 
deployment as a corporate performance measure in 1998, asked the sites 
to review and comment on the data, and is currently improving the 
process for collecting, analyzing, and validating this data. EM is also 
working on better ways to capture the value and/or impact of 
deployments through qualitative descriptions rather than relying on 
simply the number of deployments. The number of deployments is a simple 
output measure. It implies that all deployments are of equal value and 
that the value is something worth measuring. In fact, deployments vary 
greatly in terms of impact on EM cleanup. For example, the Large Scale 
Demonstration Project at the Hanford 105-C-Reactor involved the 
demonstration of 20 innovative technologies, of which 15 were 
ultimately deployed, to provide for the safe storage of the C Reactor's 
core for up to 75 years until complete decontamination and 
decommissioning can be performed. While this project nets a count of 15 
technology deployments (including a laser tracking and data system, the 
STREAM data management and integration system, and anti-contamination 
clothing for workers with a personal heat stress monitoring system to 
prevent overheating), the real impact of this project will stem from 
the benefits that can be applied to another 12 full-scale production 
reactors throughout the Department's nuclear weapons complex. As a 
second example, the deployment of the Out of Tank Evaporator, Light 
Duty Utility Arm, Fluidic Pulse Jet Mixer, Confined Sluicing End 
Effector, and Crossflow Filtration technologies at Oak Ridge net a 
simple count of 5 technology deployments, while masking the important 
baseline enabling and schedule accelerating effects of these tank waste 
cleanup technologies at Oak Ridge and potentially at Hanford and 
Savannah River.
Use site needs to target science and technology investments
    In fiscal year 1999, the site science and technology needs are 
built directly into the cleanup projects. For the first time, we will 
have comprehensively integrated the cleanup projects and site needs and 
acquired direct user approval of OST's work packages at the project 
level. That is, we will have a solid understanding of the relationship 
between the approximately 400 cleanup projects, the 500 site needs, and 
the 40 Focus Area work packages or investments. This relationship 
serves as the baseline from which to measure progress. Focus Area 
efforts to meet or address EM's highest priority needs will be 
evaluated starting in 1999. Progress toward elimination of those needs 
will be measured starting in 2000. This data is reported by the cleanup 
project managers through the Project Baseline Summary structure 
established in the Paths to Closure, EM's corporate strategy document.
Make the reduction of programmatic risk a priority for science and 
        technology investments
    EM conducted an initial baseline of programmatic risk in 1998. This 
was done through two methods: the pathways and events associated with 
the site critical closure paths and the contaminated media, waste 
streams, and materials identified in the disposition maps. In 1999, we 
are baselining how EM's investments in science and technology correlate 
to those risk levels. In a manner similar to the site needs, as 
described above, we are mapping specific Focus Area work packages or 
investments, to specific critical pathways and events and particular 
streams on the disposition maps. The relationship between those 
elements and the risks associated with the elements provide us with our 
starting point or baseline from which to measure the effectiveness of 
the science and technology investments. That is, we must measure 
whether our investments are reducing programmatic risk and whether the 
programmatic risk is being reduced in those areas that are most 
important to the cleanup effort. This measure is also extremely 
effective in helping OST to target the investments; we now know the 
critical path and how we relate to it and by waste stream which 
problems we are trying to solve. In 2000, we will be able to start to 
measure changes in the risk levels, for pathways, events, and 
disposition maps that are due to science and technology investments.
Improve our focus on the highest cost projects and document resulting 
        cost savings
    In 1998 EM's cleanup projects were baselined and accelerated 
cleanup goals were established. However, systematic tracking of science 
and technology based cost savings relies on EM's ability to document 
detailed, project-level progress towards accelerated cleanup goals. The 
1999 Paths to Closure guidance starts to do exactly that. This year 
through a Project Baseline Summary Cost Variance Analysis Report we are 
requesting each of the projects to identify changes in projected life 
cycle cost. This analysis looks at the life-cycle cost from the 
previous year and provides an explanation of whether the life-cycle 
cost for the project has gone up or down and why. One of the reasons 
for the decrease in life-cycle cost is the application of science and 
technology to change or improve the technical approach to the cleanup 
activity. Using this data, we will be able to set metrics for cost 
savings targets starting in 2000. This data will be reported annually 
through the Project Baseline Summary structure.
    The four complementary performance measures that we are 
implementing are user-owned and determined, are outcome-oriented, can 
be tracked over time, and relate directly to cleanup. Ensuring that the 
measures are user-owned was a key element in their development and will 
be key in their implementation and reporting. To meet this key element, 
we needed a set of corporate measures, not OST measures, which were 
reported by the Field Offices, through the project structure EM is 
currently using to manage and plan cleanup activities. The performance 
measures are outcome oriented and relate directly to the cleanup. That 
is, they report the solution to needs, the reduction in risk, and the 
achievement of cost savings that EM needs to meet site closure goals. 
These measures will be tracked on an annual basis using site 
information.
    Although we believe we have the right performance measures in terms 
of driving the program to achieve certain goals, we have had difficulty 
in establishing the right metrics. When implementing a new set of 
measures the availability of solid baseline data is critical to setting 
realistic but challenging metrics. The corporate measures we are 
implementing are based on data that was first available, in any form, 
in January 1998. The data will be available in a more useable form late 
in fiscal year 1999. Metrics development is a challenging task as is 
evident from our early efforts to pick a corporate level metric for 
deployment. We are considering the following factors in the development 
of metrics:

<bullet> numerical goals versus percentage goals to drive and evaluate 
        performance;
<bullet> use of complete data sets or subsets of the data, e.g., 
        technological risk of all the waste streams or just the high 
        risk waste streams;
<bullet> annual goals versus life-cycle goals, e.g., should we analyze 
        historical cost savings only or life-cycle cost savings; and,
<bullet> data collection methods available through Paths to Closure.
    We believe these corporate measures are sound in terms of focusing 
the program and as tools for improved management. However, to allow 
proper analysis, that is, to successfully acquire the data for the 
measures and to evaluate performance, the metrics must be correctly 
crafted. This is a challenging task that we are still working on and 
each of these factors must be taken into consideration as we develop 
the specific metrics.
Other Concerns
    During the last hearing before this committee, OST was criticized 
for the quality of its deployment and cost savings data. As a result, 
verifying technology deployments has been a key issue for us and we 
have been actively working to improve the quality of our deployment 
data. In fiscal year 1998, OST constructed Deployment Fact Sheets for 
every technology deployment that occurred from fiscal year 1995 through 
fiscal year 1998. These sheets were designed to both verify technology 
deployments and to disseminate information about the deployments (they 
are available on the internet at http://ost.em.doe.gov/tms). Our 
highest priority has been placed on validating those deployments that 
occurred in fiscal year 1998.
    We have conducted a validation effort, known as the Technology 
Achievement Study (TAS), on the fiscal year 1998 Deployment Fact 
Sheets. The TAS is conducted by an independent contractor under the 
direction of an OST Federal employee, who is not aligned 
organizationally with any of OST's technical Focus Areas. This assures 
that the TAS will remain free of conflict of interest. The TAS works 
directly with technology vendors and their DOE and non-DOE customers to 
verify the technology deployments reported on the Deployment Fact 
Sheets. Any discrepancies that are revealed by TAS are then resolved 
with the Focus Areas and the Field Offices, and any necessary changes 
are then made to the final Deployment Fact Sheets. As a result of the 
application of the TAS to the fiscal year 1998 deployment data, we have 
a high degree of confidence (>90%) in the quality of that data.
    For the fiscal year 1998 deployments, we are also performing a one-
time additional level of validation and verification. We have requested 
the Center for Acquisition and Business Excellence at the Federal 
Energy Technology Center to commission an independent audit of the 
fiscal year 1998 Deployment Fact Sheets. The draft results of this 
audit are anticipated by June 15, 1999.
    OST continues to seek ways to improve the quality of deployment 
data and to verify the accuracy and completeness of current and future 
deployment information. Frankly, this is a difficult and expensive 
task, but one to which we are committed. During its 1998 review of the 
OST program, GAO contacted ten research and development organizations; 
not one of these organizations routinely tracked deployments. OST 
recognizes the importance of this data as an effective, albeit limited, 
performance measure and will continue to track deployments.
Cost Savings
    Since we testified in May 1997, EM has taken a number of steps to 
improve the collection of cost savings data. In 1998, EM developed and 
distributed a standardized cost savings methodology for use in 
calculating technology-based cost savings. In 1999, as part of EM's 
planning efforts, we established a data collection system for obtaining 
life-cycle cost savings data from the Field Offices on a project-by-
project basis. Using this improved system will enable EM to identify, 
by project, where technology is being used to reduce the life-cycle 
cost of the cleanup, as well as where it isn't but needs to be. The 
standardized methodology and the data collection system support the 
implementation of technology-based cost savings as a corporate 
performance measure in fiscal year 2000.
    Over the last two years EM has taken several steps to increase the 
amount of cost savings that result from our investments in science and 
technology. We have taken aggressive measures to accelerate the 
widespread use of new technologies. We are moving towards full 
integration of our efforts with the cleanup projects, and we are using 
the Field reported, and estimated, potential cost savings to prioritize 
work. Having said that, there are many factors that affect the actual 
cost savings that will result from these investments. These factors, 
including changes in regulatory requirements, the schedules and 
validity of existing baselines, and innovative approaches to 
contracting, make it difficult to either calculate or separate out what 
part of the cost savings was due specifically to a change in 
technology.
    As noted in the Paths to Closure strategy document, remaining life-
cycle cost of the EM cleanup is approximately $147 billion. While we 
are continuing to review our life-cycle cost estimates, we know that a 
major portion (>60%) of those costs will occur after 2006. In the 
intervening two years since our last hearing before this committee, we 
can confidently report to you an additional $300 million in projected 
life-cycle cost savings resulting from the deployment of some of our 
innovative technologies. Note that this figure represents the estimated 
savings from the use of twelve technologies and is not intended to 
reflect an exhaustive cost savings estimate of all our deployments 
since 1997. This figure of $300 million in projected life-cycle cost 
savings was developed by OST's Focus Areas working in conjunction with 
field office personnel; site concurrence has already been obtained for 
the majority of the estimated savings. Further, this figure of $300 
million is in addition to the $400 million in cost savings that 
resulted from the deployment of OST developed technologies from the 
inception of the program through fiscal year 1996, as previously 
reported to this subcommittee. Although this latter figure is difficult 
to validate precisely, it suggests that the rate of cost savings is 
increasing as new technologies achieve widespread deployment.
    We continue to believe that science and technology investments are 
needed and estimate that the life-cycle cost savings at the end of the 
cleanup will be in the range of $10-20 billion. This range is based on 
projected life-cycle cost savings from innovative technologies 
identified in the fiscal year 1998 Paths to Closure strategy document 
and includes both technologies already incorporated into site baselines 
and technologies identified as potential substitutes for current 
baselines. These cost savings estimates were obtained from information 
provided by each field office for sites under its jurisdiction. It 
should also be noted that this range of $10-20 billion is in accord 
with other assessments of the potential life-cycle cost savings 
resulting from the use of innovative technologies; for example, EMAB 
estimated a potential life-cycle cost savings of approximately $10 
billion; a study by the Los Alamos National Laboratory identified a 
potential life-cycle cost savings of $10-17 billion from the 
application of OST-developed technologies; in another assessment, OST 
estimated $24-34 billion; and the Army Corps of Engineers, in a review 
of the OST assessment, estimated a potential life-cycle cost savings of 
approximately $20 billion. In addition, the standardized cost savings 
methodology and the collection of cost savings data on a project by 
project basis will enable us to improve our understanding of the impact 
of these investments and help us to manage them better as well.
Moving Forward
    This subcommittee's hearing two years ago catalyzed the Department 
to improve the management of the OST program. We have made substantial 
progress in this area and are beginning to see the results. But much 
remains to be done. We have started, for example, to make better use of 
the Department's laboratories in this arena. A ``lead laboratory''--a 
collection of subject matter experts coordinated by a specific national 
laboratory--is now providing direct deployment assistance as a part of 
OST's Focus Area support to site cleanup managers. The goal of this is 
to enhance the technical and scientific knowledge of each Focus Area 
such that they become true ``Centers of Expertise.'' These centers will 
provide valuable insight from basic research through deployment 
assistance. This process must be institutionalized within each of OST's 
Focus Areas.
    In addition, we must also realize that the value of any science and 
technology program rests not merely with the hardware that it produces, 
but also with the value of the knowledge that it imparts. That is, 
science and technology investments do not always result in pieces of 
hardware that can be counted. Often the scientific data or the 
demonstration results allow the project manager to make a better and 
more informed decision. For example, the cleanup action level for 
mercury in the East Fork Poplar Creek in Tennessee was initially 
established at 5 parts per million (ppm). Research studies sponsored by 
OST, the Environmental Protection Agency (EPA), and the Electric Power 
Research Institute demonstrated that the risk from mercury 
contamination was low. As a direct result of this research finding, the 
cleanup action level for mercury was raised to 400 ppm. This increase 
was agreed to by the DOE, EPA, the State of Tennessee, and interested 
stakeholders. The net result of this change to the cleanup action level 
was a cost savings of at least $150 million and significantly reduced 
(75%) the amount of floodplain ecosystem destruction. A second example 
concerns the reduction of high-level waste glass volume at the Defense 
Waste Processing Facility (DWPF) at Savannah River. OST is currently 
funding research work that is directed towards understanding the 
fundamental properties of waste loading of high level waste glass. The 
aim of this research work is to enable an increase in waste loading of 
high level waste glass. For each 1 percent increase in waste loading 
that can be achieved, a total estimated cost savings of $250 million, 
due to schedule acceleration, can be realized over the life cycle of 
DWPF operations. The value and use of such scientific knowledge must 
come to be institutionalized.
    Further, we must be vigilant in addressing the recommendations for 
improvement of the OST program provided by independent, external 
organizations. The recent OIG audit report, which was critical of OST's 
efforts to deploy decontamination and decommissioning (D&D) 
technologies through large-scale demonstration projects, is a good 
example. That audit report documented four recommendations to improve 
deployment of D&D technologies: 1) require multi-site Federal and 
contractor representation on large-scale demonstration project teams; 
2) require timely publication of the results of the large-scale 
demonstration project; 3) require that project management cost 
information be consistently collected and analyzed; and 4) centralize 
procurement for all contractor services on large-scale demonstration 
projects. We agree with these recommendations and the D&D Focus Area 
has provided formal guidance to the field sites to implement these 
recommendations.
    Larger structural issues must also continue to be addressed and 
continuous program improvement achieved through, for example: rigorous 
application of our new performance measures; re-examination of our 
incentivization provisions for our site contractors with an eye toward 
stimulating further technological innovation; and further streamlining 
and improving the permitting processes for new technology. In an effort 
to deal with these larger structural issues, I believe that the 
following actions are necessary to continue and accelerate our improved 
performance:

<bullet> Our four new corporate performance measures--increase in the 
        number and value of technology deployments; number of high 
        priority needs met; reduction of technological risk levels; and 
        achievement of life cycle cost savings--must be rigorously 
        applied to continue to drive our science and technology 
        investments in the right direction. Although we believe these 
        are the right performance measures, we want the subcommittee's 
        input, as well as GAO's, relative to the viability of these 
        measures, and the actual metrics that are assigned to them, as 
        effective tools for managing our science and technology 
        investments. With your help, we will drive the OST program in 
        the right direction through the application of the right 
        performance metrics.
<bullet> The Department has already begun an integrated review of what 
        is required to get to the next level of efficiency in the 
        deployment of appropriate technologies at our sites. At the 
        core, this entails having sufficient operational and cost data 
        to allow for the development of performance incentives that 
        will encourage and reward successful integration and deployment 
        of appropriate technologies. Joint development of the metrics 
        accompanying our new performance measures is intended to 
        generate this data. This is a complex problem requiring the 
        input of many programs, agencies and stakeholders. Thus, 
        special care must be taken to identify and allocate the risks 
        and rewards appropriately between the vendors and the 
        Department. Better incentive alignment is required. This 
        applies to both the vendor and contractor community as well as 
        our people, the project and site managers involved. This effort 
        will be a joint undertaking by EM, Procurement and the Contract 
        Reform/Privatization Office, and we expect an initial report by 
        September 1999.
<bullet> An expansion of our current work with the Environmental 
        Protection Agency through the Federal Remediation Technology 
        Roundtable (FRTR), State regulatory groups, and other 
        stakeholder groups. The FRTR is an interagency forum devoted to 
        exploring policy and other issues related to environmental 
        technologies and cleanup. Activities with the FRTR will be 
        expanded to include consideration of improved permitting 
        processes for innovative technologies. Ongoing efforts within 
        the Interstate Technology Regulatory Cooperation (ITRC) program 
        related to this issue will be continued and expanded, as will 
        similar efforts with other groups.
Conclusion
    In closing, we have turned the corner in our efforts to make the 
deployment of new technologies widespread through the DOE complex, but 
now we must institutionalize our gains and redouble our efforts; the 
deployment of new technologies must become routine and unfettered by 
other than non-technical issues. We will be continuing our efforts to 
expand the use of innovative environmental technologies in EM projects 
to reduce costs, reduce technical and safety risks, and accelerate the 
schedule of EM's cleanup program. We will continue to work with this 
subcommittee and advise you periodically of our efforts.

[GRAPHIC] [TIFF OMITTED] T7444.034

[GRAPHIC] [TIFF OMITTED] T7444.035

    Mr. Upton. Well, thank you. I appreciate that.
    I heard Ms. Jones, in her testimony, she said that two-
thirds of the technologies have never been used or only once.
    Mr. Moniz. Only once.
    Mr. Upton. I am glad to hear that the ping pong ball 
approach has been used 15 different times, I guess, in addition 
to Savannah River, but I note in the review of decontamination 
and decommissioning technology development programs at the 
Department of Energy reviewed by the National Research Council 
on page 2, it says, ``The committee found that the DDFA 
generally has failed to meet its objective to promote DOE's 
sitewide deployment of new technologies. The LSDP, the main 
deployment approach used by the DDFA, lacked planning and did 
not meet its schedules or goals during the committee's 
review.'' How does what GAO said and from this publication 
which was put out, I think, in December 1998, how does that 
comport with where we are in terms of spreading those 
technologies around that you have developed.
    I note just one other little comment: when Mr. Hastings was 
here and he was very glad about the approaches that were used, 
particularly the cocoon effort. There has been some concern 
that, perhaps, it is only being used there and no place else.
    Mr. Moniz. It still needs to be spread to the other 
reactors. That is absolutely correct in that case.
    With regard to the NRC recommendations, Mr. Chairman, first 
of all, we certainly have accepted and agreed and are in the 
process of implementing most of the recommendations. For 
example, one of the very important recommendations was 
improving overall strategic planning. In fact, we have 
developed a strategic plan for science and technology and an EM 
R&D program plan that, in fact, maps investments in science and 
technology, including those of D&D where we do have a problem, 
to site program manager needs.
    The NRC recommended that top management at OST needed to be 
involved in evaluation and prioritization of technology needs, 
and that is happening with a multi-attribute decision analysis 
scoring methodology using the Paths to Closure data. They 
talked about linking all actions and funding to the prioritized 
needs, and we need to respond to that in future solicitations.
    Mr. Upton. Do you see us moving toward using some of these 
technologies that have been developed more and more at these 
sites?
    Mr. Moniz. Yes. We believe we are making substantial 
progress. For example, in 1998 there were 55 OST-funded 
technologies that were first-time deployments, and there were 
another 49 that were subsequent deployments. So, that curve 
going up and obviously we hope to be able to maintain that 
trend, but since the hearing, there has been a noticeable 
uptick in those first-time deployments and multiple 
deployments.
    Mr. Upton. Well, I have another chart. I note that that 
rise in your statement that you would like to continue that 
trend the last couple years. I want to share this chart with 
you here. As we understand it, the Department actually plans to 
decrease the rate of technology deployments from 104, which 
were done in 1998, to only 60 deployments in 1999 and again in 
2000.
    Mr. Moniz. Mr. Chairman, I believe the situation is that 
those were the benchmarks----
    Mr. Upton. These came out of the DOE budget, as I 
understand it.
    Mr. Moniz. Yes, and set as the benchmarks going forward. 
The comparable benchmark in fiscal year 1998, was 49, and we 
have significantly exceeded the 1998 benchmark. We hope to 
exceed those benchmarks comparably.
    Mr. Upton. So, you are hoping that those last 2 years will 
continue to be on the incline?
    Mr. Moniz. Exactly. Again, the baseline for 1998 was 49, 
and we have substantially exceeded our baseline there.
    Mr. Owendoff. Dr. Moniz, if I can----
    Mr. Moniz. Please.
    Mr. Owendoff. [continuing] just also on the----
    Mr. Upton. Use the microphone, just a little closer.
    Mr. Owendoff. Okay. As far, Mr. Chairman, as you have 
mentioned specifically about Hanford and the reactors, in fact, 
a team has already gone from Hanford to Brookhaven for the 
graphite reactor at Brookhaven, and is now working with the 
Brookhaven folks on how to implement those. The reactor at 
Brookhaven was the next one, so we are pulling that team 
across.
    Mr. Upton. Thank you. Mr. Klink.
    Mr. Klink. Mr. Chairman, I didn't want to interrupt you 
during your line of questioning, but the report that you cited 
in your questioning----
    Mr. Upton. We will share that with you.
    Mr. Klink. Is that going to be submitted for the record?
    Mr. Upton. Yes, put that in the record, without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7444.036
    
    Mr. Klink. Thank you.
    Mr. Upton. We can give you a copy of it now, actually.
    Mr. Klink. That would be great.
    Mr. Moniz, it has been 2 years since OST established the 
Gate System to evaluate the technology projects that it was 
funding. The idea, as I understood it, was that each project 
was going to be rigorously evaluated, not only for its 
technical progress but for its relationship to end users and to 
their needs. No end user, no project.
    The Gate System has not been implemented, and you are here 
today to tell us about new systems and new committees that are 
going to solve these problems. It seems to me that the DOE 
continue to avoid the problem by constantly changing the review 
process. To be honest with you, I don't know how anyone gets 
anything done. I would like you to explain to us why you gave 
up on the Gate System before it was implemented?
    Mr. Moniz. Mr. Klink, my understanding, first of all--and I 
will defer to my colleagues in a minute, if I may--we really 
have not abandoned the Gate System established in 1997, which 
had seven stages of development and six gates for go/no go 
decisions. The criteria are still being used by the focus 
areas, the teams that address each of the major problem areas, 
to move a technology from one phase to another. Typically, EM 
uses independent panels arranged by ASME, the American Society 
of Mechanical Engineers, to provide technical merit review at 
key decision points. However, there currently are over 250 
technologies in various stages of development, and, frankly, 
conducting peer reviews at each of the six gates for every 
project----
    Mr. Klink. I have only got 5 minutes, Mr. Moniz, and I 
don't think you are being responsive to the questions I ask 
you. Everybody told us that this Gate System was the greatest 
thing going, and now it seems to me that we are in some kind of 
either a modification of the Gate System or it has been 
scrapped altogether. And you are saying now it has not?
    Mr. Moniz. I think the core of the Gate System is being 
employed. May I defer to Mr. Boyd?
    Mr. Klink. Yes, that would be fine.
    Mr. Boyd. Yes, we have not abandoned the Gate System at 
all. We used to the do the gate review process on a centralized 
basis, which was fairly expensive, and it was cumbersome. What 
we have done now is to ask each of our five technology focus 
teams to implement the gate review process as it was designed. 
We have given them direction in writing and guidance on how to 
do that. They have completed an analysis of all the 
technologies that are in their portfolios, within each one of 
those five focus teams and identified at which gate all those 
technologies currently sit and are identifying those that need 
a gate review. You don't necessarily need to do a review at 
every gate; you need to do a review at a gate where there is 
going to be a major investment. So, we have not abandoned that 
at all. We believe it is a very effective process, and we are 
continuing to use it but in a different way.
    Mr. Klink. Again, I don't think you have answered the 
question.
    Ms. Jones, what do you think about this modification of the 
Gate Program? Where are they headed with this?
    Ms. Jones. Our understanding, Mr. Klink, is that they are 
basically using what they call mid-year reviews, which is an 
annual project review, and if you look at the documentation 
that has been provided to the focus areas, it basically says 
the mid-year review--and I am quoting from the document--``will 
address the abbreviated gate deliverables in certain areas.'' 
Our review of this mid-year review process is that the Gate 
System was very definitive in terms of there were specific 
questions focused on each and every gate; there were specific 
deliverables for each and every gate. This annual review 
addresses these things in a very general way, but there is a 
set of very general gate questions that are being used. So, we 
don't see the Gate System being used as it was designed.
    Mr. Klink. Mr. Boyd, I would like you to respond to that. 
That was my understanding also, that this Gate System was very 
definitive, and it does not appear to me, the testimony that we 
are hearing here today, that DOE is using the Gate System as it 
was defined. It looks like you have gone off into some 
variation that is real nebulous, and we don't understand what 
your are doing.
    Mr. Boyd. Well, we certainly did not intend for it to be 
nebulous. We went through a significant budget reduction since 
we used the centralized approach and used a lot of money doing 
that review. What we are attempting to do now is do the same 
Gate Review in a more efficient way. We have published guidance 
for that to be followed in the same structured fashion that it 
was on a centralized basis but have each one of the focus teams 
do that on a decentralized basis as they do their annual mid-
year reviews.
    Mr. Klink. Ms. Jones, is it fair to blame budget cuts for 
the fact that they have moved away from this very definitive 
Gate System?
    Ms. Jones. In my mind, we would have to have a better 
understanding about why they moved away from it other than 
budget problems. The other thing that I would want to point out 
is that in our preparation for this hearing in looking at their 
system of mid-year reviews, the reports are not out from them 
yet, but what we found was that they were being applied 
inconsistently across the focus areas. For example, one focus 
area was not doing annual reviews on all their projects; others 
were doing reviews on all their projects. One focus area was 
using questions more like the Gate System; other focus areas 
were using very general questions. So, even in terms of their 
annual reviews, it is not being done consistently across the 
focus areas.
    Mr. Klink. Thank you.
    Mr. Moniz. May I just comment, Congressman Klink? If you 
would permit, I would like to suggest----
    Mr. Klink. I don't control the clock.
    Mr. Upton. Go ahead.
    Mr. Moniz. I think it is a very important question and I 
propose that we, GAO, committee staff get together, examine in 
detail what we are doing. If we are not meeting the essential 
goals of the Gate System, then we will come back to you and 
talk about the situation.
    Mr. Klink. That would help us a great deal, and we 
certainly do want GAO involved.
    Ms. Jones. We would be happy to.
    Mr. Upton. Thank you. Mr. Burr.
    Mr. Burr. Thank you, Mr. Chairman.
    Mr. Boyd, how many cleanup sites have you visited?
    Mr. Boyd. Practically all of them. I have not been to 
Fernald; and I have never been to the Mound facility, but I 
have been everywhere else.
    Mr. Burr. How about you, Mr. Owendoff?
    Mr. Owendoff. I have been to all except Livermore.
    Mr. Burr. So, both of you are fairly familiar with the 
cleanup sites, feel fairly comfortable?
    Let me ask you--I am going to go back and ask some 
questions that are a direct result of testimony 2 years ago. 
Mr. Moniz, what is our total cleanup cost of DOE sites? What is 
the current DOE estimates?
    Mr. Moniz. The current baseline going forward from today is 
approximately $150 billion in current year dollars; roughly, 
$250 billion plus in----
    Mr. Burr. So, it hasn't done anything but go up since 2 
years ago. Two years ago, it was $227 billion to $229 billion, 
and I take for granted that was in forward dollars.
    Mr. Moniz. There has been something like a 10 percent 
increase in the projected lifetime cost.
    Mr. Burr. And what would you say has contributed to the 10 
percent increase in your projections now?
    Mr. Moniz. There are a variety of issues. In some cases, 
for example, Congressman Hastings mentioned the ``K Basins''. 
There have been unforeseen technical problems, which have 
increased some major project costs. Other cases, there have 
been schedule delays not associated with technology. Sometimes 
there are other drivers, externalities, involving regulatory 
issues, for example, which have changed schedules. May I 
suggest that also Jim may want to----
    Mr. Burr. Let me suggest to you that as it relates to the 
regulatory hurdles, that this committee volunteered 2 years ago 
to address any of the regulatory hurdles that DOE thought 
caused the taxpayers an increase in their funding. To my 
knowledge, there were no requests from the Department of 
Energy. Mr. Owendoff?
    Mr. Owendoff. That is correct, Congressman Burr. But on the 
question on the increases, as you can appreciate, as we move 
with the Paths to Closure, certainly in the near term between 
now and 2006, and then from 2006 to 2070, which is a long ways 
out, we are gaining better definition of those costs.
    Mr. Burr. The real answer is we don't know the degree of 
contamination; therefore, we can't project today the total 
needs of cleanup, isn't it?
    Mr. Owendoff. Some of that is fair, certainly, considering 
the kinds of material that we are looking at, it is not normal 
petroleum products contamination and normal chemicals. So, this 
stuff is very difficult.
    Mr. Moniz. Congressman Burr, I agree.
    Mr. Burr. Well, let me ask you: wasn't that why OST was one 
of its primary functions was to try to get ahead of the curve; 
to try to create technologies that could meet these unexpected 
things? Do you agree?
    Mr. Owendoff. Correct, I agree.
    Mr. Burr. Do you think we have done it?
    Mr. Owendoff. I think that we have demonstrated. Yes, is 
the answer, and I think that we are continuing. If you look at 
some of the technologies that we have in the gunite tanks at 
Oak Ridge to solve the problem down there on removing the waste 
that was in a very concentrated area next to a cafeteria where, 
over the years, we had kicked the can on how to solve that 
problem. We did the same thing on high level waste at Hanford 
on how to solve that. So, yes, Congressman Burr, I believe we 
are.
    Mr. Burr. I realize that you are Acting Director, but at 
DOE that is a career, in some cases.
    Do you believe that the technologies--and I have never 
disputed that the OST has financed some innovative 
technologies. The disconnect has always been contractors that 
were using it. Whether we created stuff that contractors 
couldn't use, wouldn't use, there wasn't the correct incentive 
to use--I think Mr. Alm was very specific in his three things, 
one of which we still use today, which is regulatory burdens, 
and I would implore you to please get with us on that. Let me 
ask you: Do you feel that the $12 billion to $27 billion in 
savings--now that we have 8 years left on the 10-year plan--is 
that still a realistic savings for the American taxpayer or has 
it been adjusted, as well?
    Mr. Owendoff. I can give example after example of savings 
through new technology. What we are doing is we are making it 
so that we don't foreclose the technology that is going to be 
utilized for a particular activity. We say that with this 
cleanup problem, we have multiple technologies--some of them 
are innovative, some of them are baseline--that meet the 
regulatory requirements. What we try not to do is to lock in 
the technology, but rather let the marketplace work through 
competitive bidding. And what we are doing there, also, is 
ahead of time giving an added confidence to the regulators that 
these technologies will work. So, we are trying to remove that 
concern and that uncertainty from the equation before we bid 
those projects.
    Mr. Burr. Your predecessor, Mr. Alm, said 2 years ago that 
one of his areas that he planned to find savings was to reduce 
all support costs in the field offices from an average of 45 
percent to 35 percent. Has that been done?
    Mr. Owendoff. The most recent report that we prepared 
indicated that, no, we have not been able to make significant 
reductions in those support costs, and that is an area where we 
are incentivizing contractors to get those support costs down. 
But by the same token, we are also looking at what that means? 
You need contracting support, public affairs and you need RAD--
radiation protection--specialists. So, we are trying to 
understand what are the indirects, and, frankly, how many does 
it take? We have had some good inroads at some places on 
reducing those, but we are trying to understand, also, the 
definition.
    Mr. Burr. I realize that my time has run out, but I look 
forward to another round.
    Mr. Upton. I have got--thank you, Mr. Burr--I have got one, 
really, last question to ask, as well.
    Ms. Jones, you stated that DOE's Office of Environmental 
Management could do more to promote OST-funded technologies by 
identifying potential deployment opportunities. Specifically, I 
am interested to know what should EM be doing, and, in 
commenting, I would like Mr. Moniz to comment particularly as 
it relates, perhaps, to--I know the Savannah River, I think, 
used some 40 different OST-funded technologies yet Rocky Flats 
and Hanford has used about 10, and I wondered why there is more 
success at--what would explain that disparity, and, maybe, Ms. 
Jones, I will let you go first.
    Ms. Jones. Mr. Upton, what we were talking about in terms 
of increasing deployments was for OST to be more proactive in 
working with the user community on technologies that have 
already been developed. Early on, in the OST development of 
some of these technologies, they weren't working with the 
sites. A number of technologies were developed without user 
input, and they are not going to be able to used by the sites 
unless they are modified. So, what we are looking for is really 
a proactive marketing of these technologies; find out who might 
be able to use them, and then work with the sites to identify 
the funding for those needing modifications. Right now, it is 
unclear whether it is OST's responsibility or the site 
responsibility.
    Mr. Upton. Mr. Moniz?
    Mr. Moniz. With respect to your question of the various 
sites, I think one of the lessons here is that we have 
something to learn by studying the different kinds of contract 
incentives that we have at the different sites, which I think 
is partly responsible for the disparity you mention. I would 
mention another example at Hanford, and this refers also to 
Congressman Burr's question in terms of the lifetime savings 
costs and for Savannah River--where some very big savings are 
looming out there. I mentioned sludge washing, which has 
resulted in a $6 billion baseline change in the TRUEX project 
at Hanford, but, similarly, some of the technology development 
going on right now in vitrification has an enormous, enormous 
potential impact that we just have to push, technically, and 
push it out if it works. If we can increase the loading of the 
glass, in terms of waste, a 1 percent increase from a 25 
percent base is worth $250 billion.
    Mr. Burr. Would the chairman yield for a second?
    Mr. Upton. I would be glad to yield.
    Mr. Burr. Could you just define ``pushing it out'' for us? 
I mean, this committee is having a difficult time determining 
exactly what Ms. Jones said. Is the responsibility Mr. Boyd's 
at OST? Is it Mr. Owendoff? Is it the Department of Energy? Is 
it the contractors? Who is responsible to push it out?
    Mr. Moniz. In my view, clearly, the principle line 
responsibility resides clearly with Mr. Owendoff. And that has, 
in fact, been amplified in the realignment initiative the 
Secretary announced in April in which, the field offices now, 
very explicitly, come under the lead PSO's responsibility.
    Mr. Burr. Before you jump in a hole, do I take from that 
answer that it is the site managers who have a responsibility 
to place this technology at these sites to encourage 
contractors?
    Mr. Moniz. In my view, it is the head of EM who has the 
principle point of responsibility. However, that only works in 
the context of a system. The core of that system, in my view, 
is the strate-

gic planning that we are doing, the disposition maps, the maps 
that identify technology chokepoints where big leverage is 
possible, not only in cost but also in things like in-State 
cleanup quality. And we have to--Jim and Gerald have to monitor 
those and work with the field managers who, in turn, must work 
with the contractors.
    In addition, the second thing is, we need to work carefully 
to do a better job of aligning incentives and that is part of 
the initiative report I mentioned earlier we will get in 
September. I mean, we are not there yet; that is a fact.
    Mr. Burr. With the chairman's indulgence, do I take the 
meat of his answer, as it relates to your responsibility, a 
reliance on the site managers to place this technology?
    Mr. Owendoff. Congressman Burr, I don't shuck 
responsibility. It is my responsibility, to work with the site 
managers to ensure that we have the appropriate contract 
incentives. At the beginning of each year, I work with the site 
managers on what are the appropriate incentives.
    I will use two quick examples. At Savannah River, they do 
have incentives for implementing innovative technologies. That 
is an approach they have sorted out in their whole incentive 
program, and they feel that piece of it is important.
    At Rocky Flats, the incentive is to put in stretch and 
superstretch goals, not necessarily technology specific, but in 
order to drag scope, to accelerate it. Clearly, things have to 
be done, and, in that case, what is being done is, in order for 
the contractor to earn fee, they have to go out and pull in 
innovative technologies. Standard technologies will not work. 
But what we are not trying to do is to tell them which ones are 
where.
    I don't have the answer of what works, as you can 
appreciate. Some incentives will, but if I would say, ``I want 
just a lot of money put on incentives for technologies,'' then 
the question is, ``Okay, are they cost effective?'' What we 
really want is cleanup; and we want accelerated cleanup; we 
want safe cleanup; and we want the in-State to achieve. So, it 
is the balance.
    Mr. Burr. Do you understand our frustration with the lack 
of it and then the inability to place some of the technology? 
As a matter of fact, I guess these are your projections for 
1999 and 2000--is that reflective of the change that we have 
made as to who we get technology in the field to have a 44-unit 
drop--I guess those are specific technologies--or is that a 
reflection of the lack of the pool of technology that we have 
at OST?
    Mr. Owendoff. I think what that reflects is where the field 
managers are wanting to say, ``This is what we know we can 
deliver,'' and what it doesn't reflect is what they believe the 
potential is for delivery. If you look at the 1998 chart, we 
had an expectation of 49, and then we accomplished 108.
    Mr. Burr. If you look at this chart, it would suggest that 
the best thing we could do for placing technology is to have an 
annual O&I hearing, because the bleep up certainly reflects a 
response, I think, to congressional pressure, and I imagine if 
we had one 2 years from now, we would see another bleep up in 
the 2000, 2001----
    Mr. Moniz. Sir, the hearing 2 years ago was absolutely a 
critical event in terms of galvanizing the processes that we 
have been working on it for the last 2 years. They are not 
fully mature, but I think you are already seeing the results of 
them.
    Mr. Burr. I appreciate that and realize that the chairman 
has been awfully kind to me.
    Mr. Upton. My time has expired.
    Mr. Burr. As the Department comes back and continues to 
raise that cleanup cost--I mean, we do have a fiduciary 
responsibility. At some point, the money runs out. The American 
people look at us, and then they look at you, and say, ``To 
what degree has the cleanup taken place?'' I agree with you, at 
some point it becomes outcome; it is no longer process. We are 
here talking about process today, and I hope that the premise 
that you use in developing that process is, in fact, outcome, 
which is not something that even charts yet.
    Mr. Owendoff. Congressman Burr, look at the sites that we 
are getting cleaned up, such as the Weldon Spring site in 
Charles County in Missouri, and what the projection was and now 
how we have accelerated that; at Fernald in Ohio, at Mound in 
Ohio and, certainly, at Rocky Flats. I am directly accountable 
for making those happen and accelerating those, and I think 
that you can see compared to those projections 2 years ago in 
cost and in time, they have been significantly reduced.
    Mr. Burr. But with a 10 percent increase, that means that 
others have exploded based upon our projected costs, and with 5 
sites comprising 80 percent of the total numbers--and I believe 
I am correct there--5 sites comprising 80 percent of the 
projected cleanup, one would suggest very strongly that our 
concentration should be very heavy on those 5 sites as the best 
way to control our costs.
    I appreciate the chairman's leniency.
    Mr. Upton. The time has long expired. Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman.
    Ms. Jones, you didn't join in that last set of questions 
from Mr. Burr, but let me ask you this question: the 
responsibility for implementation of these deployments and 
cleanups, is it a clearly defined line of authority as to who 
has the responsibility?
    Ms. Jones. Dr. Moniz has set up the line of 
responsibilities through EM, OST, the technology developers, as 
well as the users. I think there has not necessarily been 
ownership in pushing out those technologies and ensuring that 
they are deployed.
    Mr. Stupak. Okay. And who is responsibility is it to decide 
on the technology then?
    Ms. Jones. It is the user responsibility to decide on the 
technology; the one that will be cleaning up.
    Mr. Stupak. Okay. Is that the contractor?
    Ms. Jones. Usually, it is the contractor decision, yes.
    Mr. Stupak. And what oversight, then, do you have over that 
contractor to make sure they are doing it on the timeline and 
doing what they project are going to do or what they bargained 
to do, if you will?
    Ms. Jones. That is actually DOE's responsibility, the site 
manager's responsibility, but is also dependent on the 
contract. If a particular cleanup is being done under a fixed 
price contract, for example, really, the Department has no say 
in the technology; it is going to be totally the decision of 
the contractor, because they are taking all of the risks.
    Mr. Stupak. But it is the Department's responsibility to 
ride herdsman on the line.
    Ms. Jones. Absolutely; yes, sir.
    Mr. Stupak. Mr. Moniz, you state in your testimony that the 
Environmental Management Advisory Board concluded that OST's 
prioritization system was a ``transparent, robust, quantitative 
prioritization system that is rooted in technology-needs data 
supplied by project cleanup managers.'' Actually, the EMAB, 
after a 1-day review, said the following, ``It was an 
effective, defensible, and democratic system'' that should be 
continued. EMAB also stated that its value would need to be 
documented and warned DOE against sliding again into subjective 
decisionmaking. It would have been helpful to have EMAB here 
again. They had particularly valuable testimony in our 1997 
hearing. My question, Mr. Moniz, there is no way EMAB could 
bless your system when it hasn't even been implemented, 
correct?
    Mr. Moniz. I spoke with Mr. Berkey about 2 weeks ago, and, 
correct, the system is not fully implemented. But we have 
implemented a very large number of the tools that we are 
talking about.
    Mr. Stupak. How much has been implemented?
    Mr. Moniz. Well, I can't make a quantitative statement, 
but, certainly, the strategic planning part, for example, the 
road maps, which are very important, have been implemented. The 
Technology Deployment Initiative, which is focusing on getting 
the better data, better analysis, is being implemented. The 
focus area groups are there that work with the site managers. I 
will let, also, Jim and Gerald add to that--but I think the 
areas where we need to get more done, certainly, are going 
through the performance measures to more specific metric 
development and looking at the contract incentive alignment. 
Those are two very important parts that we still need to fully 
implement.
    Do you want to add something to that, Gerald?
    Mr. Boyd. The prioritization system that you addressed is a 
five-factor system, and we did use it to put our fiscal year 
2000 budget together. It was the first time it had ever been 
used, and we have used it again inside of the Department to do 
the 2001 budget formulation. So, we have used it, and the 
review was to look at how well it worked for putting the fiscal 
year 2000 budget together. The advisory board said it was their 
view that it was a defensible system. I think their comment was 
``Unless you continue to use something like that, you will fall 
back into a subjective process.''
    Mr. Stupak. Yes, but didn't they say you have to use it, 
implement it on your cleanups?
    Mr. Boyd. This particular attribute analysis, these five 
factors, are based upon deciding which technology projects you 
work on. It is not designed to prioritize cleanup sites, but it 
is designed to get the needs of cleanup sites into the 
technology prioritization system. So, it is only aimed at the 
Science and Technology Program.
    Mr. Stupak. But is that actually going to be carried out?
    Mr. Boyd. Yes, sir. Our budget on the hill for 2000, which 
is being marked up right now----
    Mr. Stupak. But it hasn't really been carried out yet? It 
hasn't been fully run through the system yet?
    Mr. Boyd. We built the budget for 2000 with it. We will 
implement that starting in October of this year, and we do plan 
to carry it out as we ask Congress for the funding.
    Mr. Stupak. We just want to make sure we don't go back to 
the subjective decisionmaking that has been evident in the 
past.
    Mr. Boyd. Right. We have no intentions of doing that.
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Burr?
    Mr. Burr. Mr. Boyd, are you familiar with Bio-Imaging 
Resources, Inc.?
    Mr. Boyd. Yes, sir; I am.
    Mr. Burr. A CAT scan technology to see inside of a drum of 
unknown substance? We have spent $14 million over the last 10 
years to develop a waste inspection tomography process here. 
Why has that not been used?
    Mr. Boyd. Well, it has been used, but on a very limited 
basis. Dr. Moniz asked me questions about this particular issue 
earlier today, and we are doing a review to try to determine 
why that particular technology is not being used at DOE's sites 
versus other competitive technologies of the same type. The 
response we get from the site----
    Mr. Burr. Of the same type, you are talking about a 
standard x-ray versus a imaging Cat----
    Mr. Boyd. Within the category of neutron-induced types of 
assay systems, there are several different ones that are 
available. They operate a little differently, and we have 
quizzed several sites where this has been an issue, and the 
response was that there was an open competition for this 
technology and that the ones that won, won on a fair and open 
basis. That is what we are looking into right now to see if we 
can really determine that that is the case but that is the 
response that we got when we queried the sites where this 
particular company and their technology were not successful at 
getting DOE work versus other companies.
    Mr. Burr. Is there a reason to believe that with this 
technology we were able to process more drums without opening 
them or to process more drums more efficiently and faster; 
consequently, we saved more time and money on the site?
    Mr. Boyd. There is no question that this technology allows 
you to assay drums without opening them, and it certainly saves 
you a lot of time. It certainly reduces risk to the workers who 
are doing the work. There is no question about that. There are 
other technologies that are comparable, though, that are being 
used instead of this one in at least a couple of cases where--
--
    Mr. Burr. Comparable from a standpoint of?
    Mr. Boyd. Non-intrusive; you don't have to open the drums.
    Mr. Burr. How about comparable from the standpoint of the 
speed with which contractors go through it?
    Mr. Boyd. Mr. Burr, I don't really know. That is something 
we have to look at. I am not certain if the contractors that 
won the bids can do the work as fast as BIR or not. I would 
have to look at that.
    Mr. Burr. Isn't that an important part of the bid process? 
Understand, I am not a scientist; I am not even a lawyer, so 
that really puts my credentials down as it relates to a Member 
of Congress, but one can look at the way that we pay for 
cleanup, which in most cases is cost based plus. Therefore, the 
longer you are there, the more revenues you have. In fact, this 
is one particular area where when you perform your job you 
become unemployed on that site, right? There is not a 
tremendous incentive to find a faster way to do it, and there 
may be incentives for employees to find safer ways to do it, 
and what we are trying to determine is--we talked about the 
correct incentives; I think Mr. Moniz mentioned that--was there 
an incentive on this technology that we spent $14 million to 
help develop?
    Mr. Owendoff. Congressman Burr, the direction that I give 
to the site managers is the criteria should be laid out, 
certainly when they have a competitive bid; worker protection; 
what is the economics of the throughput? how much can you 
process through, and what are the dollars? I don't know the 
history of this particular action, and I need to get back to 
you, but in a competitive sense, we try to ensure that we don't 
skew the evaluation so that it is only on one factor. For 
instance, how big the machine is shouldn't be a factor. So, I 
need, in this case, to look back and find out specifically. I 
trust that the site managers, in working with the contractors, 
did set it up appropriately, and we just need to evaluate it 
and get back to you on why they did not succeed.
    [The information referred to follows:]

    The WIT system, developed by Bio-Imaging Research, Inc. (BIR, Inc), 
uses high-energy computed tomography, emission tomography and emission 
spectroscopy for non-destructive assay of waste drums. Environmental 
Management's Office of Science and Technology (OST) has provided $9.8 
million for the development of this technology, including successful 
testing on both surrogate and real waste, primarily to enable DOE sites 
to meet the characterization requirement for shipment of waste to the 
Waste Isolation Pilot Plant (WIPP).
    The WIT system is now commercially available. BIR Inc. has recently 
formed a new division, the Waste Inspection Technology Company (WITCO) 
specifically to provide WIT services to DOE customers and is actively 
pursuing jobs. WITCO partnered with a team of mobile characterization 
service providers to supply DOE sites with all the required 
technologies to certify transuranic (TRU) waste for WIPP disposal, 
including WIT. The mobile vendors are certified by Carlsbad Area Office 
(CAO) to perform waste characterization of TRU wastes.
    Because the market for WIT is characterization of waste for 
shipment to WIPP, the facility's delayed opening and limits on waste 
acceptance pending NM's issuance of a RCRA permit have also lessened 
the urgency for the technology. The other major marketing factor for 
WIT is competition from other technologies currently available at DOE 
sites and other companies.
    In 1998, two contractor teams were awarded identical phased Task 
Order contracts for characterization services: TRUtech and Mobile 
Characterization Services (MCS). WITCO was part of the TRUtech team. In 
November 1998, both teams completed their commitments under the Base 
Period (Task Order No. 1) of the contract by providing characterization 
of 187 drums. The teams were evaluated against the Statement of Work 
requirements for acceptability and adequacy of submitted documentation. 
The TRUtech team, as a whole, scored six unacceptable performance 
ratings on the primary process sub-criteria versus the MCS team which, 
as a whole, scored only one unacceptable performance rating. The 
evaluation indicated that MCS was superior to the TRUtech in most 
areas. Deficiencies identified during the DOE/CAO audit indicated that 
TRUtech would not be able to demonstrate performance within a 
reasonable period to meet obligations for program requirements and 
other contract commitments. Therefore all of the additional 
characterization services (Task Order No.2) were awarded to MCS.

    Mr. Burr. I look forward to that.
    Mr. Upton. Mr. Klink.
    Mr. Klink. Thank you. Ms. Jones, I just wanted to pick on 
one answer that you gave a few moments ago. You talked about 
the choices of technology really belongs to the contractor when 
they have a fixed price contract. Yet we had a hearing about a 
year ago involving Pit-9 and Idaho--I don't want to revisit 
that whole issue, because we don't have the parties here--but, 
clearly, there was a huge disagreement between the Department 
of Energy and between the private contractor as to whether or 
not--who was at fault for the fact that all this money had been 
paid out and that literally nothing, not one scrap of material, 
had been cleaned up. Where do we stand there? I mean, whose 
responsibility--and I hope that we are still working to resolve 
that, and, again, I don't want to revisit that whole issue--
but, clearly, there are times when the contractor comes back 
and says, ``Yes, we do have a clear-cut, fixed price 
contract,'' but they are blaming DOE when they may have been 
the ones that chose the technology. What are the lines of 
delineation there?
    Ms. Jones. One comment I would make is that it is also 
DOE's responsibility to ensure that the technology that the 
contractor is putting forward as being ready is, in fact, ready 
to go and can work on the waste. I think what they found 
subsequently is that the technology that was proposed was 
really not robust enough to handle the waste in the Pit-9. So, 
there is responsibility on both sides, even with a fixed price 
contract.
    Mr. Klink. After reading through both the 1998 GAO report, 
your testimony and that of other witnesses, it appears there is 
a critical issue I think we need to address today. And it seems 
to be the failure of the Department to work with end users in 
the cleanup process so that the technologies developed can be 
used.
    Ms. Jones. That is correct.
    Mr. Klink. Is that how you see it? Do you agree with that?
    Ms. Jones. That is what we said in our 1998 report; that is 
correct.
    Mr. Klink. When I read your testimony today, your report 
and your testimony about the involvement or the lack of 
involvement of the end users in the technology development and 
the deployment process and then I read Mr. Moniz' testimony and 
hear what he has to say today, they don't seem to be coming to 
the same conclusion or, in fact, even talking about the same 
program. You seem to be saying the end users still are not part 
of the process; that, in fact, the technologies are still being 
developed with no end user in sight, and Mr. Moniz is saying, 
in short, that everything seems to be good; we are making great 
progress, and the world looks fine. Can you explain to me your 
perception as to why the message that I am getting from you is 
different from the message I am getting from Mr. Moniz?
    Ms. Jones. Mr. Klink, I think that DOE has made some 
strides in terms of getting the end users more involved; in 
particular, in the planning process, in the upfront budgeting 
process that Dr. Moniz was talking about earlier. They have 
gotten the end users involved in this kind of transparent 
prioritization system, and they have been working on that; 
also, in terms of their program plans.
    I think where they still need to some more work is in terms 
of trying to proactively market technologies that have already 
been developed and also in terms of using the Gate System to 
ensure that, as the technology is being developed, that the 
different requirements in terms of user commitment--
particularly at the demonstration phase where they are asking 
the user to put up some money to help fund the demonstration--
is actually happening. So, that when you get to the end, you 
will have somebody that can deploy that technology if it meets 
their performance specs.
    Mr. Klink. Are you satisfied that it appears that DOE is, 
in fact, going to be using that Gate System?
    Ms. Jones. No, sir.
    Mr. Klink. So, where are we going?
    Ms. Jones. Again, we still recommend that they continue to 
use the Gate System, because I think that is the most 
definitive way of ensuring that the user is involved and that 
the correct go/no go decisions are made at the appropriate 
stages.
    Mr. Klink. Dr. Moniz, response?
    Mr. Moniz. I fundamentally agree with what Ms. Jones has 
said. We have been making progress, as I said earlier. For 
example, establishing the focus area user steering committees 
for planning, budgeting, and tying technologies to the site 
needs. I agree that we need to do more in terms of the 
communication aspect in terms of making sure everyone knows 
what technologies are there, and, as I described earlier, we 
feel that we are implementing core elements of the Gate System. 
But as I committed earlier and, I will repeat: we will get 
together with GAO and with committee staff to evaluate exactly 
what we are doing, rack it up against the formal Gate System, 
and come back to you with either we are implementing it 
effectively, or if we are not, we will change it.
    Mr. Klink. Ms. Jones, Dr. Moniz testimony stated that the 
Department had a new process called a Needs Validation to 
assure that science and technology are driven by cleanup 
project managers. Let me ask your opinion on that. How does the 
Needs Validation work and how does this relate to the Gate 
System?
    Ms. Jones. There are so many different processes, Mr. 
Klink. To be quite honest with you, I am not quite sure which 
piece the needs assessment is. Maybe if Dr. Moniz could talk 
about that, I would be able to comment on it.
    Mr. Boyd. As part of the 10-year planning process, the 
Paths to Closure document that we referred to earlier, there is 
a new electronic data base that has been put in place by the 
Department to make sure that we can determine what the 
baselines are at the project level and build the budget each 
year and the program each year on the basis of that project. 
What we have been able to do in the Office of Science and 
Technology is to feed into that system science and technology 
needs that have been identified by the sites along with 
recommended solutions. The project manager, then, while in that 
data base building or formulating the program for the next 
year, is able to look at what our recommendations are and 
validate whether or not they believe that technological 
solution is the right solution and select from a whole array of 
things that could be solutions what they would like for us to 
implement. So, that is one way that we are trying to get very 
closely connected with them.
    The Gate System clearly needs to be revisited and to bring 
them in to the review of the technologies after the projects 
have been started so that we can continue to validate that that 
technology is still a good technology, it is meeting the mark, 
and that it is something that they still want to use.
    Mr. Klink. Ms. Jones, If I could just--I think you put your 
finger on it, with your response to my last question to you, 
the exact problem we have here, and from my perspective, as a 
layman, hearing Mr. Boyd's answer just now, it seems very clear 
to me, unless I am missing something, that DOE is putting too 
much effort in changing all of these systems rather than 
solving problems. Go with whatever your system is. If it is the 
Gate System, go with it, and then let us solve the problems of 
all this cleanup or let us solve the problem of having an end 
user for all this technology that is going to solve our 
problems. Instead, we seem to have a variation of all these 
different processes in place. I would just ask, with the 
chairman's blessing, Ms. Jones, to comment on what Mr. Boyd 
just said.
    Ms. Jones. We have just one other comment on the system 
that Mr. Boyd was talking about. The kind of exchange being 
done in terms of using these computer systems is one way in 
terms of linking the user and the technology developer, but we 
think even more importantly the focus area experts need to go 
out and talk and with the project managers. That is not 
happening in all of the focus areas. There is only so much that 
you can do looking at data on a computer. We understand that, 
for example, the tanks focus area does a very, very good job in 
that area and the subsurface contaminants focus area is doing a 
much better job, but the other focus areas need to get out and 
talk and make these contacts so that it is just not all done 
through this computer analysis.
    Mr. Upton. Thank you. Mr. Bilbray.
    Mr. Bilbray. Thank you. Mr. Chairman, I am sorry, I want to 
shift the focus from the micro to the macro, and, Ms. Jones, 
bigger than the specific implementation technologies or 
whatever, I would like to ask a question about--and I leave 
this open to the rest of panel--the determination of the 
technologies that will be directed toward the contracts, the 
assumptions that we make. And a good example--let me just throw 
it out--is the assumption that incineration was going to be 
totally abandoned in the mid-eighties, late eighties, and that 
incineration, the entire concept of the emissions problems, the 
dioxins problems, and everything else focused toward the 
Federal Government looking at non-incineration options. The 
transformation issue, that somehow there was major 
environmental reasons to avoid transformation using 
incineration and go to other technologies, was based on certain 
assumptions by--dioxin was one of them--and the issue that 
there were cleaner, better ways of handling the situation.
    What I am wondering about, as somebody with a background in 
air pollution, is that I think the dioxin issue was totally 
reversed, if not backed off by 10 points, and the issue of the 
non-point source emissions caused by transporting the use of 
diesel engines and everything else has gone up by megatimes 
than what we thought. My question is does anybody in the GAO or 
in the Department of Energy go back and check the assumptions 
of what technology should be followed or are we just, sort of, 
once we set the course, we move forward?
    And in layman's terms, the fact is there were assumptions 
in the eighties about transformation and incineration that were 
dead wrong. If you could consider the fact that rather than 
incinerate it onsite and maybe reducing dioxins, which are one-
tenth the emissions we thought, we are now trucking waste all 
over hell and creation emitting diesel fumes which are probably 
100 times more toxic than we thought. Has anybody gone back to 
basic assumptions and said, ``We need to review these 
periodically; see if present good science supports our 
assumptions and our contracts'' before we get to the fact of 
lighting the contract?
    Ms. Jones. Mr. Bilbray, I am going to defer to Dr. Moniz 
for that.
    Mr. Owendoff. Congressman Bilbray, I think what you have 
hit on is that we talk about end users as if it is some name 
and there are no faces that go with it. The role and 
responsibility, certainly, for environmental management overall 
rests with me. The site managers' responsibility is two-fold: 
one, what kind of cleanup problem sets do I have? And what is 
my current technology or technical approach to that? And what 
are some opportunities that if I had some innovations could I 
improve that? So, the good news is that the site managers own 
the problem set, and they also sit with their other managers in 
deciding how the money should be spent.
    Now, a good example on what you brought up is at the TRU 
Waste Treatment Facility at Idaho, Idaho National Engineering 
and Environmental Lab. What we put out was a competitive 
contract, and we said there is a level of expectation that you 
are not going to pollute the air or you are not going to 
pollute the ground or water or whatever. But, assuming that, 
here is what we want the material to look like when you are 
finished treating that TRU waste. We are not going to decide 
whether or not it should be vitrification, put into glass, some 
of it incinerated, or microencapsulate some of it. In fact, 
what the contractors come back with is a suite of those 
technologies and to say ``This is how I plan to use them, and 
this is, when I look at the waste, how I plan to use those.''
    What we have seen is, as far as incineration as a general 
concept, that when we are looking at the actual cleanup 
approach, we don't foreclose on any particular technology. 
Because, in essence, we say, ``Okay, what is available today,'' 
and we try very hard not to prejudice ourselves with something 
where there is an old wives tale that says, ``Oh, you should 
not use this or that.''
    Mr. Bilbray. Mr. Chairman, I ask for unanimous consent for 
1 more minute.
    Mr. Upton. I am sorry?
    Mr. Bilbray. I ask for unanimous consent for 1 more minute 
to follow up.
    Mr. Upton. Go ahead.
    Mr. Bilbray. And I appreciate that. My biggest concern is 
where we saw situations like working on the air base in Los 
Angeles that we couldn't allow them to burn or to even bury 
their trash in the L.A. air base to be able to fulfill the 
standards, but if we went to transport, we found that the no 
project option ended up in real world emissions as more than 
any onsite technology. The trouble is, I am wondering, is 
anybody looking at the big picture of not just how do you 
handle the waste here, but if you don't handle it this way, 
what is the related emissions, the non-point source emissions, 
and is anybody looking at the big picture world, the real world 
impact of these technologies?
    Mr. Owendoff. In fact, Congressman, we are. That is, in 
fact, what the life-cycle approach is, because what folks say 
is, ``Wait a minute, just because you are transferring from 
here to here, you are not giving a life-cycle cost if you, one, 
get it over there, and then what happens when it is in another 
location?'' So, indeed, we are looking at those.
    Mr. Bilbray. And I appreciate that, because I see the 
stationary source being disproportionately having to carry the 
weight and the transport problem, basically, not being 
integrated into our decisionmaking, and we have identified that 
is our big problem right now. Thank you very much.
    Mr. Moniz. If I may, I just have one comment; I will make 
it very brief. Your macro question is very interesting and an 
even more macro response is that the issue of aligning policies 
with environmental policies, with regulatory policies, with tax 
policies is something that goes across the entire Government 
and is certainly a major challenge to bring this together. We 
are trying to do that in the Department through our portfolio 
development, and, at some time, I would be happy to discuss 
this with you or other members any time.
    Mr. Upton. Thank you. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Ms. Jones, can you please describe what the Technology 
Acceleration Committee was?
    Ms. Jones. The Technology Acceleration Committee, if I 
remember correctly, was the head of Environmental Management 
along with the deputy assistant secretaries and site managers 
that worked to together on technology development issues.
    Ms. DeGette. Does that still meet, and, if you know--I have 
heard it doesn't--and if it doesn't, why not?
    Ms. Jones. My understanding is that was a committee that 
was formed under Mr. Alm, and since his departure from the 
Department, that committee no longer exists.
    Ms. DeGette. In your analysis, don't you find that to be a 
way of both delaying and reducing headquarters' attention to 
the technology deployment issues?
    Ms. Jones. We felt that that committee, if it had gone 
forward the way it was projected to go forward and the way it 
had been set up, could have helped with bringing some of the 
more policy-focused issues to the attention of headquarters 
management, yes.
    Ms. DeGette. Was it successful in doing that in just the 
small time it----
    Ms. Jones. There wasn't a lot of time to make that 
determination.
    Ms. DeGette. I see, okay. I am wondering if some of the 
rest of you can comment on your perspective on that committee, 
perhaps?
    Mr. Moniz. Jim, you would be the best one.
    Mr. Owendoff. Sure. That committee, consisted of, as was 
mentioned, myself, the DASs, and the site managers. We get 
together multiple times throughout the year and talk about a 
lot of things with that corporate group. Certainly, one of the 
things that we do talk about is the Science and Technology 
budget; what is appropriate and where are we spending the 
money. One of the things that I especially am pushing the site 
managers on regarding the accelerated deployment technologies 
is how do we get more technologies in place? And, in fact, that 
is why we have the commitments between them and myself on how 
many technologies they are you going to deploy? We are trying 
to not have a committee here, a committee here. My corporate 
folks, field managers, and I talk about a lot of issues, one of 
which is accelerating deployments. And we are talking about 
what type of incentives do they put in their contracts to 
accelerate it? Because we don't have a formal name for it 
anymore, maybe that is a shortcoming. I just try to get the 
work done and not put a label to it.
    Ms. DeGette. Well, I assume you have some other committees 
in DOE.
    Mr. Owendoff. Not within Environmental Management.
    Ms. DeGette. You don't have any committees?
    Mr. Owendoff. Not with the field managers. I mean, within 
the Department of Energy, yes, and Gerald has some within 
Science and Technology where he is working with focus areas, 
but we are talking about my senior managers, who are the site 
managers, my deputy assistant secretaries, and myself. Every 
time we get together now, we do not have to have a separate 
name for that meeting.
    Ms. DeGette. Well, but the Technology Acceleration 
Committee kind of worked across disciplines, which is why it 
was effective, and what you are saying is--well, it could have 
been effective--what you are saying is, you are just doing that 
without any formal name.
    Mr. Owendoff. It is those people--the site managers; they 
represent across.
    Ms. DeGette. Well, but just what you are saying is, you are 
doing that without any----
    Mr. Owendoff. Yes.
    Ms. DeGette. Okay. Ms. Jones, you wanted to comment on 
that?
    Ms. Jones. Yes. In preparing for this hearing, we asked the 
Department what had happened to that committee and if anything 
had replaced it, and what we were told was basically they had 
formed integration committees. There is an executive--I don't 
remember all the titles--but there is one executive committee 
that is Mr. Owendoff and, I believe, five site managers, but it 
does not include the head of OST; it does not include the other 
deputy secretaries, and there is another committee below that 
but, again, focusing on integration that are the deputy 
assistant secretaries and some contractor folks and other 
people from the site.
    Deployment is one issue that these integration committees 
focus on, but in our review of the minutes of their meetings, 
we didn't see a lot of discussion of deployment issues. It 
seemed to be focusing on other kinds of issues.
    Ms. DeGette. Thank you.
    Mr. Upton. Mr. Burr?
    Mr. Burr. Mr. Chairman, I would only take this opportunity 
to make a recommendation to the Chair as well as to the 
minority that, with the help of the Department of Energy, that 
we either have a hearing or an opportunity to formally meet 
with at least the five site managers who head up those sites 
that comprise 80 percent of our cleanup funds, and I hope that 
the Chair would pursue that as actively as he could.
    Mr. Upton. I think that is a very good idea, and I would be 
glad to pursue it, and we will make sure that it gets on the 
schedule.
    Mr. Moniz. We could be so responsive since they are 
actually here today.
    Mr. Upton. Are they all here today?
    Mr. Moniz. I believe they are all here.
    Mr. Owendoff. I have been meeting with them yesterday and 
on the 2001 budget.
    Mr. Burr. They are not physically in the room then?
    Mr. Owendoff. No.
    Mr. Upton. Well, I think we will look forward--maybe we 
will work a date to make them all part of this.
    Mr. Burr. I would also make a recommendation, Mr. Chairman, 
that with, again, the help of the Department of Energy, that we 
try to review the contracts on those five sites so that we 
know, really, the interconnection of the contracts the use of 
technology and the progress on cleanup.
    Mr. Moniz. Congressman, we would be happy to bring up, 
particularly, Walter Howes, who heads the Contract Reform 
Privatization Office, and he can describe his ideas and our 
efforts in terms of alignment in contracts.
    Mr. Burr. Very good; thank you.
    Mr. Upton. Panel, I want to thank you. I was not on this 
subcommittee 2 years ago when your predecessors were here. I 
look forward to continuing this oversight, and you are now 
formally excused. Thank you.
    Panel three includes Mr. John Schofield, president and CEO 
of Thermatrix, Inc.; Mr. Dick Bernardi, general manager of Bio-
Imaging Research; Dr. Payasada Kotrappa, president of Rad Elec, 
Inc., and Mr. Terry Rogers, president of Delphi Research, Inc., 
New Mexico.
    Thank you for your patience. As you heard me explain to our 
first panel, we have a long history of taking your testimony 
under oath. Do you have any objection to that? House rules also 
allow you to have a counsel in place if you would like. Is 
there some need for that?
    If not, if you would rise, and raise your right hand.
    [Witnesses sworn.]
    Thank you. You are now under oath, and as was indicated, 
your entire statement will be made part of the record. If you 
would like to summarize it or keep your comments to 5 minutes 
or less, it would be appreciated. And, Mr. Rogers, we will 
start with you. Thank you.

   TESTIMONY OF TERRY W. ROGERS, PRESIDENT, DELPHI RESEARCH, 
     INCORPORATED; PAYASADA KOTRAPPA, PRESIDENT, RAD ELEC, 
    INCORPORATED; RICHARD T. BERNARDI, GENERAL MANAGER, BIO-
IMAGING, INCORPORATED; AND JOHN T. SCHOFIELD, PRESIDENT AND CEO 
                  OF THERMATRIX, INCORPORATED

    Mr. Rogers. Very good. Mr. Chairman, committee members, 
Delphi Research has been involved in development and 
demonstration of its alternative waste treatment technology, 
DETOX, in the U.S. Department of Energy's Office of Science and 
Technology sponsored programs since 1991.
    Mr. Upton. If you could just move the mike a little closer, 
that would be----
    Mr. Rogers. Sure.
    Mr. Upton. Thank you.
    Mr. Rogers. Some $12 million in total investment has been 
expended on Delphi's process by three different DOE facilities. 
During the course of our $10 million development program with 
DOE FETC, we have prepared 13 proposals and have been the 
subject of 14 reviews and evaluations. Yet we have not 
completed demonstration objectives which are a prerequisite to 
deployment.
    Demonstrating waste treatment technologies on a DOE 
operations site poses formidable obstacles and complexities for 
the technology developer that requires intercession by DOE EM-
50 sponsor and the DOE EM management. Without advocacy and 
support by these organizations, the developer is left to deal 
with regulators, subcontractors, M&O contractors, and DOE field 
offices on their own, making progress on actual demonstration 
work incredibly difficult, if not impossible.
    Our experiences at the Savannah River site have identified 
three contributing factors to delays and cost growth. First, is 
the poor demonstrationsite support that is provided by EM-50; 
second, is critical decisionmaking process by DOE, which was 
slow and costly, and, third, the strategic project decisions 
were predicated on inconsistent marketing information.
    Based upon our experience in the EM-50 Program, we present 
the following five recommendations for the subcommittee's 
consideration on how EM-50 programs might be improved. First, 
the DOE office administering the project should be an advocate 
for the technology, not a bystander or an adversary. Advocacy 
can be obtained by, first, taking a proactive, solution-
oriented role in helping the technology developer resolve 
issues and obstacles encountered in the process of 
demonstration, and, second, being directly involved in the 
negotiations with potential DOE users, not only as stakeholders 
in the demonstration but as long-term customers.
    The second recommendation is that M&O organizations who 
sign on as partners or stakeholders in a demonstration project 
should be held accountable by DOE EM to uphold their agreements 
with the technology developers who are attempting to 
demonstrate or deploy new technologies at DOE installations. 
Relegation of the technology developer to subcontractor status 
by an M&O contractor does not constitute a partnership or 
stakeholder relationship.
    The third recommendation is that market data on DOE waste 
types is the basis for technology development needs; therefore, 
the data must be reliable. DOE should utilize the expertise of 
its resources from all the major sites, thus assuring that 
decisions on funding and surviving projects will be in the best 
interest of the complex rather than meeting the needs of a 
particular site's agenda.
    The fourth recommendation is that no demonstration of a 
technology should be permitted to proceed at a DOE site which 
does not have a vested interest in its success. That is to say 
that economic development and commercial application are not 
adequate incentives to ensure the demonstration partner will 
assist in meeting demonstration goals.
    And the last recommendation is that M&O contractors who are 
involved in the development of competing technologies and who 
declare or practice that they have no intent to deploy outside 
technologies should not be considered as demonstration partners 
by EM-50.
    Neither large allocation of Government funds nor the best 
laid plan for demonstration and deployment can be successful 
when there is no single advocate within the EM management to 
champion a project through the labyrinth of DOE directives and 
organizations. Under the present project management structure 
and using the existing programmatic requirements, the DETOX 
demonstration could be funded for twice the amount of money, 
and I believe that the problems and issues would rise to the 
level of funding so as to prevent success. Only when the EM-50 
Demonstration and Deployment Program incorporates a responsive 
and well defined decisionmaking and site selection process and 
an advocacy program offering guidance, assistance, and support 
for technology developers, will the development and 
commercialization of good, innovative technologies be 
maximized.
    Thank you.
    [The prepared statement of Terry W. Rogers follows:]
      Prepared Statement of Terry W. Rogers, Delphi Research, Inc.
    Dear Mr. Chairman and Committee Members, Delphi Research, Inc. has 
been involved in the development and demonstration of a waste treatment 
technology in the U.S. Department of Energy's Office of Science and 
Technology sponsored programs since 1991. Some $12 million total 
investment has been expended on Delphi's DETOXSM technology by three 
different DOE facilities. During the course of our $10 Million 
development program with DOE-FETC, we have prepared thirteen (13) 
proposals, and have been the subject of fourteen (14) Reviews and 
Evaluations.
    Demonstrating waste treatment technologies on a DOE operations site 
poses formidable obstacles and complexities to the technology developer 
that requires intercession by the DOE-EM50 sponsor and DOE-EM 
management. Without advocacy and support by these organizations, the 
developer is left to deal with regulators, subcontractors, M&O 
contractors, and DOE field offices on their own, making progress on 
actual demonstration work incredibly difficult, if not impossible.
    Our experiences at the Savannah River Site have identified three 
contributing factors to delays and cost growth (1.) Poor demonstration 
site support was provided by EM-50, (2.) Critical decision making 
process by DOE was slow and costly, and (3.) Strategic project 
decisions were predicated on inconsistent marketing information.
    Based upon our experience in the EM-50 program, we present the 
following recommendations for the Subcommittee's consideration on how 
EM-50 programs might be improved:

1. The DOE office administering the project should be an advocate for 
        the technology, not a by-stander or an adversary. Advocacy can 
        be attained by
    a) taking a proactive, solution-oriented role in helping the 
            technology developer resolve issues and obstacles 
            encountered in the process of demonstration, and
    b) being directly involved in the negotiations with potential DOE 
            users not only as stakeholders in the demonstration, but as 
            long-term customers.
2. M&O organizations who sign on as partners or stakeholders in a 
        demonstration project should be held accountable by DOE-EM to 
        uphold their agreements with the technology developers who are 
        attempting to demonstrate or deploy new technologies at DOE 
        installations. Relegation of the technology developer to 
        subcontractor status by an M&O contractor does not constitute a 
        ``partnership'' or ``stakeholder'' relationship.
3. Market data on DOE waste types is the basis for technology 
        development needs. Therefore, the data must be reliable. DOE 
        should utilize the expertise of it's resources from all of the 
        major sites; thus, assuring that decisions on funding and 
        surviving projects will be in the best interest of the complex, 
        rather than meeting the needs of a particular site's agenda.
4. No demonstration of a technology should be permitted to proceed at a 
        DOE site which does not have a vested interest in its success, 
        i.e., economic development and commercial application are not 
        adequate incentives to ensure that a demonstration partner will 
        assist in meeting demonstration goals.
5. M&O contractors, who are involved in the development of competing 
        technologies and who have declared, or practice that they have 
        no intent to deploy ``outside'' technologies, should not be 
        considered as demonstration partners by EM-50.
    Neither large allocations of government funds, nor the best laid 
plan for demonstration and deployment can be successful when there is 
no single advocate within EM management to champion a project through 
the labyrinth of DOE directives and organizations. Under the present 
project management structure, and using the existing programmatic 
requirements, the DETOX <SUP>SM</SUP> demonstration could be funded for 
twice the amount of money, and I believe that the problems and issues 
would rise to the level of funding, so as to prevent success. Only when 
the EM-50 demonstration and deployment program incorporates a 
responsive and well-defined decision-making and site selection process, 
and an advocacy program offering guidance, assistance and support for 
technology developers, will the development and commercialization of 
good, innovative technologies be maximized.

    Mr. Upton. Thank you. Dr. Kotrappa. Am I pronouncing your 
name correctly?

                 TESTIMONY OF PAYASADA KOTRAPPA

    Mr. Kotrappa. Correct. Mr. Chairman, thank you for this 
opportunity to testify today on the subject matter of great 
interest. We hope that this testimony will be useful as an 
example of the long and difficult path to get to any commercial 
business from the Department of Energy, however promising the 
technology may be.
    We are a small business with a unique radiation emission 
technology called Electrodyne Chambers, and these have been 
successfully used for measuring radon; in fact, nearly 20 
percent of the market share we have for radon. And how we got 
into the Department of Energy business was interesting. We were 
in the process of diversifying in order to go ahead and see 
other applications, and that is where, in 1994 or 1995, Oak 
Ridge National Laboratory identified the potential application 
of Rad Elec technology for use in measuring the low levels of 
uranium, plutonium, and alpha-emitting contamination in 
surfaces and in soil, and the technology was projected to 
provide better, cheaper, and faster method with a large 
commercial potential applicable to more waste sites. Nearly 80 
to 90 percent of all the sites have this problem of uranium and 
plutonium. Our technology is not cleanup; it is a 
characterization technology, which is important, as 
characterization has to be done first during the processing, 
decontamination and also after cleanup.
    This cooperative development agreement was signed between 
Oak Ridge National Lab and Rad Elec, and then it was--turned 
out to be a very successful product and with the testing and 
demonstration, and the ready was product in 1996. And the 
technology was jointly--and then, later on, that was the time 
when we found the separate division and started allocating some 
of our money to see how we can commercialize this product and 
how we spread the good news about this technology. And that is 
where we are now successful in putting this technology in the 
Marsin document and GETE/Dawnbreaker Program help does a lot in 
making a business plan and really projecting what is the market 
share and all that.
    In November 1997, we made a presentation to a small number 
of staff at Rocky Flats which we think is the highest potential 
for application for technology. There are hundreds of buildings 
which can make use of this technology adequately. And then 
after a full presentation, and, in fact, the staff members got 
so excited and they say they can immediately start using this 
technology throughout all buildings and equipment; immediate 
application is there. And we followed up within a month. We 
sent the whole set of instrumentation for them to proceed and 
start using it and see if any problems are there. And, then, 
from that time on, which now is about 16 or 18 months now, we 
heard very little except when anybody would inquire about it, 
we hear that, ``Oh, everything is okay.'' And though the tests 
have been done and has been demonstrated by a competent lab, by 
Oak Ridge National Lab, still it was on at about 18 months, I 
don't know how long we can survive.
    And, then, we furthered--we did not keep quite--the further 
commercialization process, we went ahead, and then did our own 
limited demonstration project at Oak Ridge National Lab in the 
high visibility area in K-25, and that report has come, and 
there are two original publications have come and one in a 
health physics journal and the other in DOE policy institute 
journal. So, we have done everything that we can to give wide 
publicity and recognition; everything we have done, and still 
we are waiting and waiting.
    I can summarize, possibly, three reasons why we had to wait 
this long, and one is of course not developed in-house is one 
of the catch words, and then one technology developed and 
protected by one side is simply--does not pass on the other 
side; that is because of mistrust or I don't know what it is. 
And the second reason is the soft attitude why to try anything 
new, and I am doing my job with the existing technology and why 
take risk attitude. And this is the reason why these new 
technologies are really falling behind. And any new technology, 
there is some risk involved, and unless somebody takes a risk, 
there is no benefit. Everybody knows, unless you take a risk, 
there is no benefit. It always easy to play safe and forget and 
carry on with whatever we are doing. So, that is what is going 
on. The third reason would be that the decisionmaking staff 
does not have the incentive nor the authority to implement 
large schedules of new technologies.
    Those are just my observations. I hope these points that I 
made will be of some use. Thank you.
    [The prepared statement of Payasada Kotrappa follows:]
   Prepared Statement of Payasada Kotrappa, President, Rad Elec, Inc.
    Mr. Chairman, Members of the Committee and Staff, on behalf of 
myself and other members of the staff of Rad Elec Inc., I thank you for 
the opportunity to testify today on the subject of the transfer of DOE-
funded environmental cleanup technologies to DOE sites. We hope that 
this testimony will be useful as an example of the process that many 
small businesses have experienced in the long and difficult path from 
concept to deployment.
                                summary
    Rad Elec, Inc. (REI) is a small business, that manufacturers a 
unique class radiation measuring instruments called E-PERM<SUP>'</SUP>s 
(Electret-Passive Environmental Radiation Monitor). Rad Elec.'s first 
product was an E-PERM<SUP>'</SUP> radon monitor. This was 
commercialized successfully and now commands nearly 20 % market share 
in USA and is being used in 20 other countries. In 1994-1995, Oak Ridge 
National Laboratory identified the potential application of this 
technology for use in measuring low levels of uranium, plutonium and 
other alpha emitting contamination on surfaces and in soils. A CRADA 
(Co-operative Research and Development Agreement) between Oak Ridge 
National Laboratory and Rad Elec Inc., developed and perfected the 
technology. During 1997-1999, further commercialization and 
demonstration efforts were put into place, through a partial funding by 
DOE (GETE/Dawnbreaker program). These efforts have resulted into many 
recognitions and publications in DOE and Scientific Journals. Limited 
demonstrations and application researches were carried out at Oak Ridge 
and at Rocky Flats. In spite of publications in DOE methods compendium 
and other publications, demonstrations and application researches, the 
use of this technology in DOE sites is painfully slow, putting Rad Elec 
into economic stress. There are hundreds of buildings at Rocky Flats 
and several large buildings at Oak Ridge and elsewhere, where this 
technology can be used beneficially. It should be recognized that new 
technologies provide an improved alternative to the base line 
technologies. These involve taking some well-informed risk that will 
eventually save money to DOE. There is no reason why such attitude 
should not be used by decision making staff at DOE, as done with 
private agencies. This will help innovators and for many DOE developed 
technologies to emerge as successful, eventually saving money to DOE.
                     rad elec inc. company profile
    Rad Elec, Inc. (REI) is a small business. It has less than 10 
employees and annual sales close to $1M. It is the sole manufacturer of 
a unique class radiation measuring instruments called E-
PERM<SUP>'</SUP>s (Electret-Passive Environmental Radiation Monitor). 
Our first product was an E-PERM<SUP>'</SUP> radon monitor. The annual 
performance of these electret radon monitors in the EPA's Radon 
Proficiency Measurement Program over the last six years has shown that 
they consistently out-performed any other radon-monitoring devices, 
either passive or electronic. The technology is established the name as 
one of the most rugged and accurate radon detectors. These are being 
used in 35 States in USA and in 20 other countries. Twenty percent of 
all radon measurement done in USA uses Rad Elec Radon Monitors.
             diversification of technolgy to meet doe needs
1994-1995
    In 1994-1995, Oak Ridge National Laboratory identified the 
potential application of this technology for use in measuring low 
levels of uranium, plutonium and other alpha emitting contamination on 
surfaces and in soils. A CRADA (Co-operative Research and Development 
Agreement) between Oak Ridge National Laboratory and Rad Elec Inc., was 
approved and the work was carried out for a period of two years. DOE 
(Office of Science and Technology, OST) funded this research to a tune 
of about 1M and Rad Elec contributed similar funding mainly in kind by 
providing technology, consulting and instrumentation. This resulted 
into several publications including two major ``DOE Methods Compendium 
Documents''. These documents provide scientific basis, the protocols 
for routine use in D and D Characterization of DOE sites.
1997-1998
    In 1997 three different paths were pursued in an effort enter the D 
and D market. First, EIC technology was included in the Multi-Agency 
Radiation Site Survey and Investigation Manual (MARSSIM) which was 
published in 1997. The MARSSIM not only provided the basis for the use 
of EIC by other U.S. Agencies including DOE but also provided the 
statistical basis for large-scale site surveys. During the year REI 
also participated in the DOE-funded Dawnbreaker/GETE program. This 
effort produced a comprehensive business plan for commercializing the 
technology and produced a business plan that had not previously 
existed. At its conclusion, REI had an opportunity to make a carefully 
prepared presentation of our company and its products to a number of 
key participants in the D & D community. The exposure was important and 
the follow up was intensive but our progress was slow. Finally, in 
November REI was asked to make a detailed presentation on EIC 
technology to a small group of staff members at Rocky Flats. The 
presentation was well received and in December a full set of EIC 
instruments and monitors was loaned to Rocky Flats for test and 
evaluation.
  demonstration at oak ridge (1998-1999) and application research at 
                              rocky flats
    REI began working closely with the OST-funded GETE program to 
develop a full-scale EIC deployment plan. During the year GETE staff in 
Oak Ridge, Rocky Flats and at the Savannah River Site also worked with 
REI staff as well as site management and staff to consider the 
deployment of alpha surface monitors. The preliminary results of the 
Rocky Flats laboratory tests of the alpha surface monitors were 
reported in the Denver meeting of Spectrum 98. The paper by Wilkes, et 
al entitled ``Measurement on Low Level Plutonium Sources using Rad Elec 
Electret Ion Chambers'' concluded that ``. . . The performance 
demonstrated with this work indicates the system should receive serious 
consideration for approval as a tool to confirm that unrestricted use 
property release levels are met.'' At that time the Rocky Flats 
Instrument Review Committee requested that additional EIC tests should 
be made and, as of the present time, approval of EICs for use at the 
site is still pending.
    With the active participation of Mr. S.A. Meacham, Strategic 
Analytical Management Services. LLC, the first large scale field 
demonstration of the E-PERM( alpha monitoring system was completed with 
REI funding in Building 1401, East Tennessee Technology Park in 
November of 1998. A copy of the Executive Summary of the report 
describing this field test has been included in the material 
accompanying this testimony. The summary includes the statement that 
``. . . Large area surveys can be conducted with an initial capital 
cost of less that $14,000. Based on the use of 175 monitoring points, 
the demonstrated costs is less than $2.00 per measurement (consumables 
and labor) and can be conveniently performed overnight without 
impacting daily operations.''
         recognition of the technolgy (1998-1999) (enclosures)
    The technology attracted the attention of DOE funded Waste Policy 
Institute and a feature article entitled ``Rad Elec prepares to enter 
the DOE market place'' was published in their official journal 
``Initiatives'', a copy of this is enclosed.
    Recently (May 1999), the technology attracted attention of the 
editors of Health Physics Journal, a premier radiation Journal devoted 
to radiation protection and published an article in their ``Technology 
Monitor'' column. Article concluded, ``Contrary to its inherent 
simplicity, the EIC system should receive due consideration for alpha 
contamination surveys''. Reprint of this article is enclosed.
    Rad Elec's commercial brochure and a list of all the relevant 
publications on the technology are also enclosed.
               comments, conclusions and recommendations
    1. In spite of the development and demonstration that the 
technology can perform the tasks (characterization surveys) better, 
cheaper and faster, it takes a painfully long period for taking a 
decision to use the technology at DOE sites. There are hundreds of 
buildings at Rocky Flats and several large buildings at Oak Ridge and 
elsewhere, where this technology can be used beneficially. Small 
businesses like Rad Elec that depend upon the sales to DOE market 
undergo economic stress during waiting period and may go out of 
business. In our efforts from 1995-1999, Rad Elec has only very minor 
sales to DOE less than $ 20,000 in 1998-1999 for small projects) and 
Rad Elec has yet to receive major sales. It is more than a year since 
we provided the instrumentation for test application and we do not 
understand why it should take this long for a proved technology to test 
use and recognize this as one of the method for their characterization 
projects. The reeducation of staff personnel, the local community as 
well as state and regulatory officials may be difficult. These issues 
and others clearly play an important part. If there is more that REI 
can do we will do it. However, it would seem that the critical 
information is available and that the deployment decision now rests 
with the M & I contractors and DOE site managers.
    2. Such problems are faced by most DOE funded technologies.
    3. It should be recognized that new technologies provide an 
improved alternative to the base line technologies. These involve 
taking some well-informed risk with the hope that there will be 
considerable saving on the long run. Innovative attitude involving the 
use of new innovation that has brought America to the forefront in the 
world. There is no reason why such attitude should not be used by 
decision making staff at DOE. This will help innovators and for many 
DOE developed technologies to emerge as useful technologies saving 
money to DOE.

    Mr. Upton. Thank you very much. Mr. Bernardi.

                TESTIMONY OF RICHARD T. BERNARDI

    Mr. Bernardi. Good morning, Mr. Chairman and subcommittee.
    For the past 10 years, I have been the DOE program manager 
at Bio-Imaging Research, a small Illinois business located near 
Chicago. BIR has developed new technologies for inspection of 
nuclear waste drums using high energy x-ray and gamma-ray 
computed tomography, CT. CT produces three-dimensional views of 
what is inside a drum similar to medical CAT scanning. We built 
these technologies into a mobile trailer called Waste 
Inspection Tomography, or WIT for short.
    The DOE investment in WIT, shared with BIR, has been about 
$15 million over 10 years. BIR and DOE's goal is to provide a 
CT service to DOE sites for the regulated inspection of nuclear 
waste drums. These drums are mostly destined for the Waste 
Isolation Pilot Plant, WIPP, in Carlsbad, New Mexico.
    X-ray CT identifies drum content, such as clothing, items 
buried in cement, and prohibitive items, such as free liquids. 
Gamma-ray assay CT identifies what radioactive elements are in 
the drum and determines the amount of radioactivity. CT is not 
invasive, meaning the drums don't have to be opened. Opening a 
drum costs more and is risky due to needed radiation 
protection. WIPP can CT x-ray and assay all drums, including 
those that cannot be inspected by older technologies currently 
deployed by larger DOE sites. We see through an assay that 
denser waste materials, like sludge and cement, which make up 
over half the waste drum inventory destined for WIPP.
    Between 1996 and 1998, WIT was successfully field tested at 
three DOE sites, including Livermore, Rocky Flats, and Idaho 
and participated in three DOE-sponsored blind test programs. 
WIT was the only system to pass on every drum tested. The test 
results and verification statement from DOE as well as Federal 
and State environmental regulators can be found on our BIR 
Website at www.bio-imaging.com. Last year, WIT successfully 
completed three quality assurance audits and inspected 187 
drums at the Nevada test site; that is our one deployment.
    The technology is ready and deployable today. Yet, today, 
WIT is not deployed at a DOE site. Why? I offer six reasons and 
solutions. First, WIPP has not yet fully opened. When it does, 
DOE site budgets will need to support drum inspections. Second, 
major DOE sites are currently deploying 30-year old x-ray and 
gamma-ray assay technologies that only work well on lightweight 
waste drums. Working side by side, WIT major sites can 
accurately meet State mandates to inspect all wastes--
lightweight and dense--in a timely manner. Third, regulation 
language must support both the already deployable technologies 
and new technologies, like WIT. Fourth, though DOE has 
identified a 159,000 drum market from small DOE sites for WIT, 
this market does not yet exist. We need quantity contracts now 
to foster private capital investment to reduce inspection 
costs. Fifth, competition between industry cost-shared projects 
and similar 100 percent DOE-funded projects should be 
minimized. And, finally, DOE should do more to carry through 
the path from development to deployment and cover the costs of 
small companies as it does with the M&Os.
    All of these reasons for delayed WIT deployment have now 
placed a financial burden on BIR to maintain a deployment ready 
WIT capability that cannot be sustained by a small business, 
like BIR, without compensation from DOE or its M&O contractors.
    In closing, the computed tomography revolutionized medical 
imaging in the 1970's by minimizing surgical intervention, 
resulting in improved health care. Computed tomography can, 
today, provide DOE with accurate nuclear waste drum 
examinations while minimizing costly drum openings for improved 
environmental cleanup. Please help to immediately deploy WIT 
within the DOE complex.
    Thank you for the opportunity to speak to you this morning.
    [The prepared statement of Richard T. Bernardi follows:]
   Prepared Statement of Richard T. Bernardi, General Manager, Waste 
                     Inspection Technology Company
Introduction
    My name is Dick Bernardi from Bio-Imaging Research (or BIR for 
short). I'm General Manager for BIR's Waste Inspection Technology 
Division. I've been with BIR since its founding 19 years ago. It's a 
small private business located 30 miles northwest of Chicago. BIR has 
been a DOE contractor since 1990 and I've been the DOE Program Manager 
since that time. I'd like to begin by thanking the House Subcommittee 
for the opportunity to present this testimony today. I am here to 
discuss BIR's continuing difficulties in deploying and commercializing 
services for the inspection of DOE nuclear waste drums.
Why New Technology is Needed
    The technology and equipment that BIR provides to the U.S. DOE can 
uniquely contribute to a timely national environmental problem: the 
disposal of nuclear waste drums from our nation's nuclear weapons 
factories. There are over 600,000 waste drums (that are 55-gallon drum 
equivalent) at nearly 22 DOE sites across the U.S. that require 
characterization before they can be disposed of at the DOE Waste 
Isolation Pilot Plant (WIPP) in Carlsbad, New Mexico. As you may 
already know, the WIPP site has just opened within the past month and 
has accepted about 100 of our nation's nuclear waste drums from DOE 
sites near Los Alamos and in Idaho. Originally, WIPP was scheduled to 
open in 1988. It has taken more than 10 years to achieve the first 
disposal of nuclear waste drums at WIPP. This is the big reason why 
deployment of our technology has been delayed.
    The U.S. regulations for nuclear waste drum transportation, 
treatment, and disposal, require inspection. We must identify materials 
such as clothing, cement, items buried in cement, and prohibited items 
like free liquids. This takes nondestructive x-ray examination. In 
addition, nondestructive gamma-ray assay is required to identify the 
type and determine the amount of radioactivity in the drum. 
Nondestructive means examination without opening the drum, where the 
opening of a radioactive waste drum is more expensive and risky because 
of the needed radiation protection. BIR is the only company that 
examines nuclear waste drums using x-ray computed tomography, (or CT) 
which provides three-dimensional imaging inside a drum, just like 
medical ``CAT'' scanning. These CT drum inspection methods are located 
on BIR's mobile trailer called Waste Inspection Tomography (or WIT). 
WIT can cost-effectively inspect these drums with better operating 
performance than any other drum inspection method in use today. BIR's 
extension of medical CT technology to the inspection of waste drums was 
sponsored by the DOE.
    CT revolutionized medical diagnostic imaging in the 1970s and '80s 
through cost-effective minimization of exploratory surgeries. Today, CT 
can provide DOE with safe and accurate nuclear waste drum inspection 
through cost-effective minimization of invasive and potentially 
hazardous ``glove box'' inspections of nuclear waste drums. However, 
WIT is currently not deployed and not being used by DOE. That is the 
situation I would like to rectify with the help of this House 
Subcommittee.
    Since 1990, BIR has contributed over $2.5M of its own resources 
into the development of WIT, and DOE has supplied the remainder. BIR's 
investments included providing our detectors, software, and 2 MV (two 
million volt) x-ray CT technology, as well as cost-sharing the DOE 
contracts. This represents a major investment from a company whose 
annual revenue has averaged $6.5M over the past eight years.
How the New Technology was Developed
    BIR's first contract with the DOE for WIT came from a Small 
Business Innovative Research (SBIR) grant back in 1990. We showed how 
to apply 2MV x-ray detectors and CT software that BIR developed 
previously, to solve the problem of inspecting drums of radioactive 
waste. Since then, about $8M in DOE funding has come directly to BIR 
for the development of WIT, mostly from DOE research and development 
contracts through competitive DOE solicitations from the EM-50 
Industries Program Office in Morgantown, West Virginia at the Federal 
Energy Technology Center (FETC). About $4.5M of DOE funding has been 
provided to LLNL (Lawrence Livermore National Laboratory) since 1993, 
mostly from the EM-50 Mixed Waste Focus Area for gamma-ray assay 
technology development. This LLNL CT gamma assay technology has been 
successfully transferred to BIR for use on WIT through BIR funds in a 
Work-for-Others agreement between LLNL and BIR, which has been an 
excellent example of successful national laboratory collaboration with 
and technology transfer to a small business.
    This 10-year, $15M investment from BIR and DOE has given rise to 
the mobile WIT technologies that have demonstrated unique and superior 
cost-effective solutions to our nation's nuclear waste drum inspection 
problems without the need for new, costlier, fixed DOE facilities for 
drum characterization. Based on three years of field experience at four 
DOE sites, WIT has demonstrated that it can noninvasively see through 
all DOE nuclear waste drums, more accurately identify their content, 
and measure their radioactivity better that any system currently in use 
at any DOE site. All of this is done without requiring riskier and more 
expensive invasive inspection of nuclear waste drums. There is 
substantial third party testing data demonstrating WIT performance, and 
there is a verification statement from Federal and State environmental 
regulators supporting these WIT performance claims.
WIT and Only WIT Passes Every Test
    I'd now like to briefly summarize the WIT experience with DOE and 
identify what I perceive are the numerous impediments to commercial WIT 
deployment within the DOE complex, based on our experiences.
    Since 1990, BIR has responded to numerous DOE need statements found 
in various DOE solicitations requiring the development of new, 
improved, and innovative nuclear waste drum inspection technologies. 
Between 1990 and 1993, with the DOE SBIR, BIR experimentally 
demonstrated the feasibility of using 2 MV high-energy x-ray CT to 
inspect nuclear waste drums. Under DOE contract, with the industry 
programs office (from FETC) between 1993 and 1995, BIR designed and 
built the WIT trailer for CT x-ray and gamma-ray inspection of nuclear 
waste drums. In 1996 under the same contract, WIT was field-tested at 
DOE Livermore, Rocky Flats, and Idaho, and successfully completed its 
first commercial nuclear waste drum scanning contract at Babcock and 
Wilcox in Lynchburg, Virginia. In 1997, WIT was involved in three DOE-
sponsored inter-comparison blind test programs called the CEP, RCI, and 
PDP tests. The WIT system is the only characterization system in the 
country to participate in and pass on all drums tested and scored in 
all three tests, based on DOE acceptance criteria. I will briefly 
explain these tests.
    During the Capability Evaluation Program (CEP) sponsored by DOE and 
Lockheed-Martin Idaho, WIT passed on every drum tested on the first 
scanning attempt. Other systems tested through the CEP were asked to 
repeat testing two and three times in order to achieve passing scores 
on some (but not all) drums.
    WIT is the only characterization technology to participate in the 
Rapid Commercialization Initiative (RCI), which resulted in a 
verification statement from Federal and State environmental regulators 
indicating that WIT complies with the DOE characterization requirements 
for all nuclear waste drums tested for x-ray and gamma assay 
inspections. This included drums filled with low-density materials like 
clothing, and higher density materials. During the RCI program, WIT's 
performance verification was overseen by three DOE offices with 
regulator interface from Headquarters, site interface from Idaho, and 
project management from FETC, as well as various Federal and State 
environmental regulators. The regulators included the U.S. EPA, the 
U.S. Army Corps of Engineers, the Southern States Energy Board, the 
Western Governors Association, and five states, which include 
California, South Carolina, Washington, Idaho, and Colorado.
    In the latest Performance Demonstration Program (PDP), which was a 
national test sponsored by DOE Carlsbad in October 1998, the WIT system 
had the best assay scores (the most accurate) of 16 systems tested 
nationwide for drums with sludge, which is one of the most difficult 
waste materials to inspect. Nine systems from DOE sites and other 
companies failed these tests. WIT identified 100% of the radioactivity 
in sludge, whereas the next closest system from a DOE site passed with 
only 80% identification. The closest commercial competitor to BIR only 
identified 40% of the radioactivity.
    WIT results from the PDP, RCI, and CEP can be found on BIR's web 
site at www.bio-imaging.com.
    In 1998, WIT participated in and successfully completed three 
quality assurance audits conducted by DOE Carlsbad at the Nevada Test 
Site. In parallel, WIT successfully completed its first DOE commercial 
contract for the characterization of 187 nuclear waste drums, also at 
the DOE Nevada Test Site as subcontractor to TRUtech, a Thermo-Electron 
company who was contracted with Bechtel-Nevada, the site M&O.
Why Isn't This Technology Deployed Yet?
    Unfortunately, WIT is not now providing characterization services 
under a DOE contract. Yet the WIT technology is deployable today. 
Another WIT quality assurance audit is now required by the U.S. EPA at 
the Nevada Test Site in June, 1999 and is currently being planned by 
Bechtel-Nevada, TRUtech, and BIR with no future DOE Nevada 
characterization revenue in sight. Cooperation between DOE and EPA with 
combined audits would assure quality inspections while providing 
effective and timely quality audits at a reduced cost. Throughout 1998, 
the three DOE audits at the Nevada Test Site have cost BIR in excess of 
$560,000, with only $111,000 in cost-shared compensation received from 
DOE. BIR was willing to participate in these DOE audits with cost-
sharing because Bechtel had a contract in place where up to 1,325 drums 
were to be characterized with mobile services such as WIT. However, 
Bechtel terminated our inspection services after 187 drums because of 
the continuing audit process and a redirection of budget. Nevertheless, 
DOE still required the three audits, which WIT successfully completed, 
and is now requiring us to participate in a new fourth EPA audit 
without any compensating contract for new characterization work at the 
Nevada Test Site. BIR believes that Bechtel, the Nevada site M&O, 
continues to be compensated by DOE for all its waste management 
activities, including the audits. We also believe that small 
contractors like BIR should be compensated for all their inspection-
related activities, including the DOE and EPA audits, just as Bechtel 
is.
    Why is WIT not now deployed at a DOE site or under contract with 
the DOE to provide inspection services for nuclear waste drums, 
especially with WIPP just opening? I believe the following six reasons 
are the root causes of this situation, which can lead to potential 
solutions:
    1. The WIPP Delay--WIPP has been delayed in opening for 10 years 
and it will take another four to eight months to completely open after 
achieving final approval from the State of New Mexico for the RCRA Part 
B permit. As a result of these continued delays, various DOE sites and 
M&O contractors have not provided budgets or procurement activities of 
significant quantities related to commercial mobile drum inspection 
services. They have indicated they want to deploy mobile technologies, 
and we believe this will most likely only occur after WIPP fully opens, 
though we are ready to begin characterization work today.
    2. Inertia Favors Outdated Technologies--Major DOE waste generator 
sites continue to use existing, in-place, 30-year-old drum inspection 
technologies for drum x-ray and gamma assay exams. The larger DOE sites 
have already invested in these existing facilities and staff, which use 
older x-ray and gamma assay instruments with limited capability for 
drum inspections. These older capabilities cannot see through or assay 
difficult and denser waste matrices like sludge and cement, which make 
up over half of the existing nuclear waste drum inventory destined for 
WIPP. But since these older technologies have demonstrated the ability 
to characterize lightweight matrices like clothing and other 
combustibles, which only make up less than half of the DOE waste 
materials, the solution is for us and them to work together. WIT's 
mobile trailers can work side-by-side with the M&Os from the major 
sites, thus supporting their existing infrastructure and jobs while 
nearly doubling the output, including the drums that the older 
technologies cannot see through or assay. Increasing output is needed 
at both DOE's Rocky Flats and Idaho to meet DOE mandated cleanup 
commitments to the states of Colorado, Idaho, and others.
    3. Regulations Need Updating--Existing regulations can favor the 
older technologies and need to be modified. The first draft of the 
language in New Mexico's RCRA Part B Permit only supported the older x-
ray technology and stated that dense drums that used the older x-ray 
technology would need to be opened for invasive inspections. It has 
taken BIR one year to modify the second RCRA permit draft application 
to include language that will now allow WIT. This new language is 
expected to be approved by New Mexico this coming August to allow CT 
scanning technology to be used in addition to or alongside the older x-
ray techniques. This will reduce the number of costlier and less safe 
invasive inspections by about half! As another example, the DOE 
auditors are continuously requesting to see the WIT calibration data 
for gamma assay. The older assay technologies do not measure absolute 
values of radioactivity, since they must be regularly calibrated 
against prior information about drum content (information that could be 
wrong!). But WIT gamma assay is an absolute measurement method and 
calibration is not required. So we have to continually teach DOE 
auditors and their regulators the advantages of our new innovative WIT 
technology.
    4. We Need the Promised Quantity Order for Financial Feasibility--
On Halloween 1996 at a public meeting in the Forrestal Building here in 
Washington, D.C., DOE Carlsbad and DOE Headquarters presented a plan 
for commercial mobile nuclear waste drum inspection. The market was 
identified as 159,000 drums from smaller DOE sites with the potential 
for an additional 319,000 more nuclear waste drums from the larger DOE 
sites. DOE also emphasized the need for new innovative characterization 
technologies throughout the 1990s through R&D and SBIR solicitations. 
In view of this and the imminent opening of WIPP in 1999, BIR continues 
to spend its own money to pursue this marketplace with WIT. That is why 
I am here today.
    A single DOE task order for 187 drums is a far cry from a potential 
market of 478,000 drums presented in 1996. DOE and its M&Os must put 
forth a significant market share of drums to mobile inspection vendors, 
who must invest millions of dollars in capital equipment to provide 
state-of-the-art inspection services for the difficult waste materials. 
Significant task orders of five years and 25,000 drums will permit 
small business capitalization to get the job done, and more 
importantly, can cut the cost per drum almost in half. Achieving 
significant drum quantity task orders requires coordinated efforts 
between many DOE sites and their M&Os, which DOE Carlsbad and 
Headquarters has thus far not been able to materialize. Making 
available significant drum quantities for commercial mobile inspection 
vendors like BIR in a timely manner from M&Os of both large and small 
DOE sites is required to achieve successful lower cost 
commercialization of WIT inspection services and meet the nation's 
schedule for nuclear waste drum cleanup.
    5. Competition Between Fully DOE-Funded and Industry Cost-Shared 
Projects Should be Minimized--There are two competitive groups within 
the DOE waste drum characterization business. First, BIR has few 
commercial service competitors, who use older technologies. But more 
significant, competition comes from the DOE sites themselves. It is 
difficult for BIR to directly compete in the waste drum 
characterization business in the DOE market when the major DOE site 
M&Os have already invested in technologies either developed by 
themselves or have deployed older technologies purchased from 
commercial competitors with 100% DOE funding. In addition,
    I believe conflicts of interest and unfair competition exists when 
DOE sites share technology they have developed and transfer this 
technology that has been 100% developed or purchased with DOE funds. At 
the same time, a small business like BIR has been required to cost 
share the WIT technology development with DOE since 1993. These 
conflicts can lead the larger sites to ignore WIT's innovative 
technical and cost benefits. This is because of a prevailing preference 
at the large sites to use in-place personnel and existing instruments. 
The reason that only the small DOE sites (e.g., Nevada) have offered 
drums to commercial service vendors like BIR is that the small sites 
have little in-house inspection capability, unlike the larger sites. 
Again, the solution is to have WIT work side-by-side with these 
existing systems at the large DOE sites, as well as at small sites to 
inspect all of the waste drum materials, both lightweight and dense, in 
an accurate, safe, and timely manner.
    6. Close Coordination is Nonexistent--Full DOE support for a 
planned transition (e.g., compensation for quality assurance audits) of 
innovative technologies from development to field deployment does not 
exist for projects like WIT. Delayed deployment, because of the above 
reasons, has now placed a financial burden on BIR that cannot be 
sustained by a small business for the maintenance of WIT and its staff 
in a deployment-ready condition. We should generate a general awareness 
within DOE and each M&O contractor that currently deployed drum 
inspection technologies have limitations and that WIT can provide cost-
effective solutions today. How many field operations people know that 
the current drum inspection technologies fielded at DOE sites have 
problems characterizing the dense waste drums? Conversely, how many DOE 
sites know that WIT can solve these problems? Who within DOE and its 
M&Os is responsible to see that innovative technologies that work like 
WIT are properly applied to DOE problems? BIR has continuously marketed 
to DOE and its M&Os at each site to develop and educate waste 
management regarding WIT and its capabilities and benefits. DOE support 
is needed for the transitioning of proven new innovative technologies 
like WIT that have achieved successful initial field deployments and 
have solved recognized DOE field problems, if sustainable 
commercialization and deployment in the DOE market is our final goal.
Conclusion
    In closing, medical computed tomography has successfully improved 
medical care worldwide by improving the accuracy of diagnosis, 
minimizing surgical intervention, and by keeping the cost of medicine 
down through capital investment for improved health care. This same 
logic applies to the application of computed tomography to nuclear 
waste drum inspection where noninvasive CT inspection can greatly 
improve the accuracy of identifying and measuring drum content, can 
minimize costly drum opening intervention and hazardous radioactive 
waste exposures, and can lower the overall costs of environmental 
remediation. Thank you for the opportunity to present this testimony. I 
hope this House Subcommittee will support the immediate deployment of 
new innovative technologies like WIT to effectively cleanup our 
nation's nuclear waste drum inventory.

    Mr. Upton. Another gold star; more than a minute left.
    Mr. Bernardi. Well, I can talk some more.
    Mr. Upton. Yes. Mr. Schofield.

                 TESTIMONY OF JOHN T. SCHOFIELD

    Mr. Schofield. My name is John Schofield. I am the chairman 
present and CEO of a company called Thermatrix, which I founded 
in 1992. Thermatrix was founded----
    Mr. Upton. If you could just pull that mike a little 
closer.
    Mr. Schofield. Thermatrix was founded to commercial a 
technology which was developed at London's Livermore Lab and 
was abandoned in 1985 of having no commercial significance. 
Today, Thermatrix, we expect this year our sales will be about 
$60 million. We employ over 400 people, and 55 percent of our 
business is overseas.
    In terms of the deployment of the technology with the DOE, 
we ran a test program at Savannah River with Westinghouse which 
came out with flying colors. We supplied three systems to INEL, 
and those systems are operating today. Thereafter, we were 
asked by the DOE to get involved with a company called 
ThermoChem, which had a steam reforming technology, to see if 
we could bring that technology in conjunction with our 
technology, and our technology, principally, is a unique 
technology. We are the only people in the world with this 
technology, and it is a flameless replacement for incineration. 
It is widely deployed throughout the world, and, particularly, 
it has been certified by the State of California, the State of 
Massachusetts, and has received the prestigious Dean 
Sensenbaugh Award from the Air Waste Management Association.
    We formed a joint venture with ThermoChem, and with our 
engineering resources and with our own money, we spent a 
considerable amount building a pilot facility. We put in 
roughly $1 million on top of the $4 million that the DOE put in 
to build a pilot facility in Baltimore. The facility passed all 
the tests. Six surrogate wastes were tested on this. We passed 
all the criteria; we passed all the reliability tests, and we 
even issued a brochure showing the pictures of the facility. In 
April 1997, the Idaho National Engineering Laboratory Mixed 
Waste Focus Group evaluated 23 technologies and picked out this 
particular technology as being the most successful and the most 
likely to be deployed.
    In May 1997, a proposal was submitted to deploy the 
technology at the Paul Smith Diffusion Plant at Piketon, Ohio. 
We held a lot of meetings there; we put the proposal together, 
and nothing ever happened. The reasons given were, one, there 
were no funds available to deploy the technology, and the 
question I would have is of all the technologies that are being 
deployed in the program, nobody ever talked how many of these 
technologies are actually invented by the contractors and 
within the DOE and how many are outside, because I know when we 
were told there were no funds available, 15 other technologies 
had just been selected that happened to have been developed by 
the contractors. And so they were able to deploy them 
internally.
    Second, we were told that it was impossible to 
competitively bid for our technology, because we were the only 
people in the world with this technology, and so how can they 
deploy a unique technology on a sole source basis?
    Mr. Upton. I hope you had it patented.
    Mr. Schofield. We have it well patented worldwide, and sole 
source selection does not seem to be a problem for the likes of 
Pfizer, Chevron, Warner-Lambert, Exxon, Mobil, PPG.
    At the site itself, when we talked to the people there, it 
was very revealing. They said, ``Why do we want to solve this 
problem? If we solve the problem, we don't have a job. It is 
far better that we keep looking and searching for other 
solutions and testing and looking around, because, on that 
basis, we have a job.'' We reward our people because they solve 
problems. It seems to me, the DOE rewards people for not 
solving problems, because, on that basis, they keep their job.
    Going forward, because of the amount of money we spent on 
this, we now do no business with the DOE. It is our policy not 
to do business with the DOE, and I am sorry to report that.
    Thank you.
    [The prepared statement of John T. Schofield follows:]
 Prepared Statement of John T. Schofield, Chairman, President and CEO, 
                            Thermatrix Inc.
    From 1980 to 1985 the DOE Laboratory at Lawrence Livermore invented 
a technology to improve the efficiency of energy conversion as part of 
the oil shale program. Approximately $25 million was spent during this 
period but in 1985 further work was suspended and the technology was 
abandoned as having no commercial application.
    In 1985 researchers from Lawrence Livermore, in conjunction with 
others, formed a company, In-Process Technology, to further the 
technology development. $12.5 million of venture capital funds were 
spent in the period from 1985 through 1991 without any product being 
developed and in early 1992, a decision was made to close down the 
company and abandon the technology. I, John T. Schofield, was brought 
in by one of the venture investors to look at the technology. This 
investigation during the first three months of 1992 resulted in the 
establishment of Thermatrix Inc. in July 1992, to commercialize the 
technology as an environmental technology to treat noxious emissions 
from a wide range of process plants in the refining, chemical and 
pharmaceutical industries.
    As the founder of Thermatrix Inc., I provided funds, recruited a 
team and by the end of 1992 had designed and received orders for the 
first two systems using the ``Thermatrix technology.'' The technology 
was successfully deployed and commercialized during the period 1993 to 
1996 by attracting approximately $22 million in venture capital funds. 
The technology was extremely successful and the product was sold not 
only to blue chip clients in the major process industries, but also 
three units were installed at INEL, and further installations took 
place at various USAF bases, including Brooks, Patterson, McClelland 
and the Naval Air Station, North Island.
    Thermatrix has become a leader in air pollution control and sales 
in 1999 are expected to exceed $50 million with over 50% being exported 
outside the United States.
    In 1994, ThermoChem, a small technology developer, was awarded a 
contract to a value of approximately $4 million to build a steam 
reforming system to treat low level mixed waste. The contract was 
awarded by the US Department of Energy's Morgantown Energy Technology 
Center under contract number DE-AR21-95MC32091. By early 1996, problems 
began to appear in the design of the system concerning the treatment of 
off gas from the steam reforming system and Thermatrix, which was known 
to the DOE, was brought together with ThermoChem in an endeavor to 
solve this problem. We were encouraged to believe that a solution to 
this problem would provide a unique system, which could be extensively 
deployed by the Department of Energy in dealing with a wide range of 
mixed waste including radioactive PCBs.
    Thermatrix, which went public in June 1996, contributed several 
hundred thousand dollars of its own funds to supplement the inadequate 
allocation of funds, under the original $4 million contract, set aside 
for dealing with the off gas, and engineered, in conjunction with 
ThermoChem, a highly reliable system combining the two technologies.
    Thermatrix published the first details of this system in its Annual 
Report for 1996 on pages 12 and 13. The system was built and tested in 
accordance with a very exacting regime under the auspices of a joint 
venture between Thermatrix and ThermoChem. The system which is shown in 
the attached brochure and appeared in the 1997 Annual Report of 
Thermatrix on pages 10 and 11, successfully treated six surrogate 
wastes and passed reliability standards which had been set.
    In April 1997 the Mixed Waste Focus Area of Lockheed Martin Idaho 
Technologies Company at INEL published a study entitled ``Evaluation of 
Alternative Nonflame Technologies for Destruction of Hazardous Organic 
Wastes,'' reference number INEL/EXT-97-00123. This report evaluated 23 
different technologies and ranked the steam reforming technology as 
number one based upon ratings of categories of performance, readiness 
for deployment, and environment, safety and health considerations. The 
steam reforming system was recommended as one of three technologies for 
continued development.
    In May 1997, Formatrix, the joint venture of ThermoChem and 
Thermatrix, joined with the US Department of Energy Oak Ridge 
Operations to submit a proposal under the Technology Deployment 
Initiative for ``Steam Reformation of TSCA and Low Level Mixed Waste at 
the Portsmouth Gaseous Diffusion Plant.'' Considerable time and 
expenditure was incurred in putting this proposal together, including 
meetings with responsible people at Piketon, Ohio, where detailed 
discussions were held concerning the deployment of the technology. The 
technology was never deployed and as a result in late 1997 the joint 
venture with ThermoChem was discontinued and Thermatrix wrote off its 
significant investment in this development.
    Subsequent investigations revealed the following reasons for the 
lack of continuation:

<bullet> No funds available,
<bullet> Inability to contract sole source for a unique technology,
<bullet> Allocation of funds from reduced budgets were being directed 
        internally to preserve jobs and were not available for the 
        purchase of ``outside'' solutions.
    The Thermatrix technology has been successfully deployed around the 
world on a commercial basis and has been awarded, world wide, the most 
prestigious awards granted to any air pollution control technology over 
the past decade. Thermatrix has expended a considerable sum of money in 
pursuing this development and has also offered proven commercial 
systems for destroying bottles of stored gases at numerous DOE 
facilities, and for replacing the PCB incinerator at Oak Ridge 
Tennessee with its technology which has been certified as being an 
alternative to incineration. Thermatrix has been encouraged in all 
these endeavors only to find that deployment does not occur for the 
above stated three reasons. It is now Thermatrix policy not to propose 
on any further consideration of the deployment of its technology with 
the Department of Energy.

    Mr. Upton. Well, I know we all appreciate your testimony 
this morning, and I will tell you, Mr. Schofield, as I listened 
to your testimony just now and as I look at this report that we 
will make sure is part of the record from the evaluation of 
alternative non-flame technologies for destruction of hazardous 
organic wastes in April 1997, and I see that your firm is No. 1 
in terms of capability for the cleanup work, and yet you do no 
business at all, this is why I think we need additional 
hearings, particularly with the five field managers that we 
referenced a little bit earlier with Mr. Burr.
    Mr. Bernardi, I had heard about your operation before you 
came, and looked at your testimony, and, again, as a--I didn't 
know much about this issue at all before I began to serve on 
this subcommittee in terms of the cleanup, and in my role, I 
have met with a number of folks. We heard from Mr. Hastings 
this morning. I remember sitting down with Mr. Hastings, my 
colleague, a month or so ago, 2 months ago, maybe, and I have 
never been to Hanford; really, never been to Washington State 
since I went to the World's Fair in 1964. But as he talked 
about the site and described it with all of these containers 
and did so again this morning, one of the concerns that he had 
or that the folks in the field have is that they have no idea 
what was in them, so they didn't know how to treat them; they 
didn't know how to get rid of it. They knew that they were 
leaking, but it seems as though in your description today that 
your technology that you developed is the perfect one to answer 
the questions, whether they be there or whether they be at a 
WIT site or anyplace else.
    Mr. Bernardi. For small packages, such as drums or small 
boxes, yes. For tanks that are very large, it is certainly 
difficult to build a CT scanner to a large tank. But, 
certainly, for the smaller packages----
    Mr. Upton. But is it possible to do that? Is it possible to 
build a CT scanner?
    Mr. Bernardi. Yes, it is, but that is not what we have been 
concentrating on, but it is possible.
    Mr. Upton. And do you have any Federal--I mean, we heard 
with Mr. Burr's questioning a little bit earlier this morning, 
I think they are going to go back and readdress and find out 
why--but do you have any Government contracts now in terms of 
the cleanup of this?
    Mr. Bernardi. We have a contract to move our technology 
back to the Nevada test site for an EPA audit; that is the only 
contract we have. We have a contract with EM-50, which is our 
R&D contract, which is closing out this last quarter of the 
year. Those are the two contracts in this area. We have other 
Government contracts in other areas but not cleanup.
    Mr. Upton. For the record, maybe I would like to know--
particularly as we embark on a future hearing--maybe some of 
the contacts or miscontacts that your company has had and, 
perhaps, the reasons given in terms of why you were not awarded 
something, particularly as we look at the promise of this.
    Mr. Bernardi. Yes, I would be happy to provide further 
testimony, if you wish.
    Mr. Upton. You know, the Department, in its written 
testimony, indicated that they ``we have taken aggressive 
measures to accelerate the widespread use of new 
technologies.'' It seems to me, as I listen to the comments 
with all of your firms, that that has really not been the case. 
Would anyone like to comment specifically on that?
    Mr. Schofield. I think it depends where the technology was 
invented, and it seems to me that the object of the exercise is 
with the budget that the contractors have, they intend just to 
spend that budget internally rather than spending external 
dollars, and they will spend that money internally developing 
their own technologies even if they are not successful, because 
it preserves jobs, and the solution may be outside, but they 
will not spend those dollars outside.
    Mr. Upton. Well, Mr. Schofield, you indicated in your 
testimony that one of the reasons you thought that you were 
denied was because you were a sole source; there was no other 
firm that had the comparable technology to compete with you in 
terms of making of a bid.
    Mr. Schofield. Correct.
    Mr. Upton. And, Mr. Bernardi, is there anyone else that has 
developed the technology that you have in terms of this CT 
scanner?
    Mr. Bernardi. No, there isn't. The problem, I think, lies 
with the definition of a competitive procurement. When you are 
comparing apples and oranges in a procurement, I don't view 
that as a competitive procurement. Our goal has been to develop 
leapfrog technology over what exists. We believe we have 
demonstrated that, but the procurements aren't designed to show 
the technical benefits of the technology, and that has been a 
continuing story in everything we have gotten involved in. The 
technologies that exist in the sites have a purpose, and they 
do well for what waste streams they can work on, but when you 
are competing with a technology that can work on other waste 
streams and the procurement doesn't define that, then it is a 
procurement that is waved toward the prior technology, and that 
is what we have faced.
    Mr. Upton. Thank you. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    The first thing I would like to ask is unanimous consent 
for members to submit questions to DOE maybe 7 days in response 
to this panel and I assume the testimony from the next panel. I 
was just commenting a minute ago how I would have liked to have 
heard some of the responses of the DOE folks to this disturbing 
testimony.
    Mr. Upton. Without objection.
    Ms. DeGette. Thank you.
    Mr. Burr. Would the gentlelady yield for 1 second?
    Ms. DeGette. Sure.
    Mr. Burr. Would anybody from the Department of Energy raise 
their hand that is here? Thank you for staying.
    Ms. DeGette. Yes, thank you for staying.
    My first question is if each of the four of you could 
estimate the potential sales you could have for your products 
to DOE sites and then the potential sale of your products 
outside of DOE. What I am trying to do is get a feel for the 
applicability for your products outside these specific DOE 
sites. Mr. Rogers, you want to----
    Mr. Rogers. Sure. I believe it was also mentioned here that 
we had gone through--a number of us, actually, have gone 
through what is known as the Dawnbreaker Program for 
development of our business planning, and my recollection out 
of that was that there was approximately $150 million to $200 
million market avail-

able for application of our technology within DOE in the 
treatment of low level mixed wastes, and outside of that, the 
nuclear power industry probably represented the biggest 
component; it was about $100 million market. And them you 
branch out into hazardous and a number of other applications, 
but if you are going to talk about low level mixed waste 
applications, which our technology is focused on, that would be 
the comparison. They are pretty equal.
    Ms. DeGette. Thank you. Dr. Kotrappa?
    Mr. Kotrappa. Yes, we went through the GETE/Dawnbreaker 
program, and that really helped us to put our business plan in 
place, and we do, I think, projected sales to use our 
instrumentation for characterizing sites. As I pointed out, 
nearly 80 percent of all the sites have this problem of uranium 
and plutonium contamination; very large number of sites, and 
this technology can do characterizations much cheaper and 
better and faster. Based on that, we have projected in next 5 
years we should have a business of $60 million to $70 million. 
Because of that projection, we have gratefully followed all of 
the commercialization steps that anybody can think of, and 
still we have waited.
    Ms. DeGette. Mr. Bernardi?
    Mr. Bernardi. Yes. I have also participated in the 
Dawnbreaker Program a number of years ago. Our projections, 
depending on which scenario you use, is between $20 million to 
over $40 million a year. The lifetime of the program would 
coincide with the lifetime of WIPP's disposal program, which is 
about 35 years.
    Mr. Schofield. We are a public company. We went public in 
1996, so some of our information is public information. In 
1998, our sales were up 94 percent over 1997. We expect our 
sales in 1999 to be around about $60 million, and we would 
expect in 3 to 5 years to be somewhere in the $300 million to 
$500 million range. In terms of deployment with the DOE, the 
facility that we designed for Portsmouth was a $24 million 
facility which would have cleaned up all the waste there in 3 
years. I would expect, in terms of its type of deployment, 
possibly that DOE represents about $100 million over about a 5-
year period.
    Ms. DeGette. Thank you. For any of you, during the course 
of your product development, did you prepare a cost-benefit 
analysis either with or for the DOE to compare the cost of your 
product or proposed product against the baseline product or 
process? And, if so, what was the result of the analysis?
    Mr. Schofield. I can answer that. Westinghouse produced an 
independent report on the work they did at Savannah River 
showing that this technology would product a cost benefit of 
not less than 25 percent compared to any of the technology now. 
McClellan Air Force Base did a similar evaluation and confirmed 
the Westinghouse numbers. And in deployment, the fact that we 
get these orders now from the big pharmaceutical companies, et 
cetera, and the fact that a lot of our business is in Europe is 
because energy costs in Europe are about three times what they 
are in the States. The savings in Europe are that much greater 
than they are in the States, and we get our business because we 
are cost effective and because we do what we say we are going 
to do.
    Ms. DeGette. Would any of the rest of you like to answer 
that question?
    Mr. Bernardi. Yes, there are three ways you can look at 
from our technology. First of all, on our Website, there is a 
what is called a Rapid Commercialization Initiative Final 
Report, and in there is a study that was done by the Army Corps 
of Engineers doing cost analysis. And, basically, our 
technology is competitive in sufficient quantity of drums, not 
a 187-drum contract; you need tens of thousands of drums to 
make it competitive.
    Ms. DeGette. Right.
    Mr. Bernardi. Also, it is certainly cheaper than building 
new facilities at each of these sites, because it is a mobil 
technology, and, third, compared to opening the drums, it could 
be cheaper by a factor of anywhere from four to eight times 
cheaper on a per drum basis compared to opening drums.
    Mr. Kotrappa. Yes, we have done this analysis, so also, Oak 
Ridge National Lab for promoting the product also did this, and 
then we--as a large-scale application, our method is much 
cheaper and better and faster with the analysis that we have 
done and especially this program related to 100 buildings in 
Rocky Flats. Each of that has to be parted out as contaminated 
or not contaminated, and that was one of the--we supplied the 
information to their request for information on the new 
technology to do this job, and that is what we did, and we did 
everything, and that what it is. Thank you.
    Mr. Rogers. To answer your question, Congresswoman, Delphi 
participated in a DOE-sponsored program to evaluate 
technologies--non-incineration and non-thermal treatment 
technologies with the Department of Energy and had life-cycle 
cost analysis performed on that to compare with other 
alternatives. It was done early in the program, and since we 
are still involved in demonstrating our technology, we really 
haven't concluded those economic factors, if you will. One 
humorous anecdote was that in one of the review meetings that 
we had, there was a citing of a Government statistic, a DOE 
statistic, that our technology would achieve these cost savings 
of $200 million when applied to all the wastes in inventory 
that is applicable to our technology. And, so we cited that 
reference in a presentation we did, and we were challenged by 
the ASME review committee on where that number came from, and I 
said, ``Well, the gentleman who generated that number is 
sitting right here in the back of the room. Would you care to 
tell them where that came from?'' And his comment was, ``That 
is a DOE-generated number and has no credibility whatsoever.'' 
So, I don't know where the answers are after that.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Upton. Thank you. Mr. Burr.
    Mr. Burr. Mr. Schofield, let me go to the statement you 
just made which was Westinghouse identified a significant 
savings--25 percent, is that what you said?
    Mr. Schofield. Yes.
    Mr. Burr. And that was specifically for what process or 
what process at what site?
    Mr. Schofield. Westinghouse ran a test program at Savannah 
River using our technology on a remediation of chlorinated 
hydrocarbons.
    Mr. Burr. Why are you not a subcontractor for them now, do 
you think?
    Mr. Schofield. As a result of that test work and the report 
that came out, we did receive and order from INEL to install 
three units for the remediation of radioactive chlorinated 
hydrocarbons, and those three units are in operation today.
    Mr. Burr. But no other sites?
    Mr. Schofield. No other sites. No, we have no other DOE 
sites. We have installations at Air Force Base at North Island, 
Naval Air Force Base in North Island, Patterson, McClellan.
    Mr. Burr. Is DOE aware of the savings that you brought to 
the Savannah River site for Westinghouse?
    Mr. Schofield. Yes.
    Mr. Burr. How many times have they contacted you in hopes 
that they could place your technology at another site?
    Mr. Schofield. We participated and we spent about $1 
million of our own money building a pilot facility to process 
radioactive wastes. The Portsmouth Diffusion Plant was the 
identified ultimate deployment. We built the pilot plant; we 
tested six surrogate wastes; we passed all the tests; we passed 
the reliability tests; everything was approved. We then went to 
Piketon; we drew up plans to build a facility at Piketon; we 
spent a considerable amount of money doing that, and we were 
told it will not be deployed, because the funds are not 
available, and the people at Piketon basically said, ``We don't 
want to solve this problem, because then we don't have a job 
left if we solve the problem.''
    Mr. Burr. How much money would you have saved in Piketon, 
do you know?
    Mr. Schofield. I don't know, because I don't know what the 
annual cost is to----
    Mr. Burr. What about the deployment funds?
    Mr. Schofield. The deployment funds were $22 million to 
build the facility.
    Mr. Burr. Could you have saved $22 million?
    Mr. Schofield. I would have thought we would have saved two 
or three times that.
    Mr. Burr. Okay. Let me ask you, you are doing business at 
Savannah River for Westinghouse----
    Mr. Schofield. Yes, we have an installation in your 
community in North Carolina also at Cheesebrough Ponds.
    Mr. Burr. And we welcome you. Let me ask you: any 
application for your technology at Hanford?
    Mr. Schofield. I have no idea. We have not pursued it, 
because we refuse to spend any more time or money on this----
    Mr. Burr. Oak Ridge?
    Mr. Schofield. Oak Ridge, certainly. We had a lot of 
meetings with Oak Ridge. We talked to Oak Ridge about a very 
simple system to----
    Mr. Burr. When you say you talked to Oak Ridge, did you 
talk to the site manager at Oak Ridge? Did you talk to Bechtel, 
which is the contractor? Who in that chain?
    Mr. Schofield. No, we were talking to people from Lockheed 
Martin, and there was a committee set up to look at our 
technology specifically to destroy 22,000 gas cylinders that 
were stored at Oak Ridge.
    Mr. Burr. And what type of help did you get from the 
Department of Energy relative to these conversations with 
Lockheed Martin?
    Mr. Schofield. The conclusion at the end of the day was 
that they were not ready to get rid of those gas cylinders.
    Mr. Burr. How much did DOE help you in your conversations 
with Lockheed Martin at that time?
    Mr. Schofield. Not at all.
    Mr. Burr. Mr. Bernardi, I asked some questions about your 
technology. They weren't too familiar with your technology. 
Should they be?
    Mr. Bernardi. Certainly in the field, they should be. I 
spent these past 10 years driving to most of the sites of 
flying to most of the sites.
    Mr. Burr. You have got a mobil unit, almost like the mobil 
mammography van, or something like that. You can go onsite 
where there are no bricks and mortar costs; you drive in; you 
are able to scan these containers, which eliminates the 
opening.
    Now, they led me to believe that there was a good process, 
and the technology that was comparable apparently won out. Is 
that how you see it as the manufacturer?
    Mr. Bernardi. The competing technologies, commercially, are 
the conventional technologies that have been around awhile, and 
the procurement was tied to these DOE audits, and the selection 
criteria was based on completing the DOE audits. The day we 
were told that our contract was terminated was the day we were 
ending our third audit, and we had successfully completed that 
audit, and the contract was terminated based on previous audit 
findings. Subsequently, we passed all the audits, but we are 
part of a team of companies, and these DOE audits are something 
that is an ongoing process, and it is ongoing for every site 
for all technologies, and we successfully completed the audit, 
and so we believe that we are just as legitimate a competitor 
in this arena as anyone else.
    Mr. Burr. But I think their comment was you were given the 
opportunity to bid, and you lost the bid. Is that accurate?
    Mr. Bernardi. The contract was terminated; at least the 
work was terminated based on audit findings, because the audit 
process was continuing.
    Mr. Burr. Somebody is currently inspecting those 
containers, right?
    Mr. Bernardi. Right.
    Mr. Burr. Conventional x-ray----
    Mr. Bernardi. But, actually, the other people's contract 
was also terminated, so we were both--our contracts were ended 
both----
    Mr. Burr. Are we not inspecting any of the barrels now?
    Mr. Bernardi. Not at that site, that is correct.
    Mr. Burr. It just stopped.
    Mr. Bernardi. It just stopped, because we are continuing 
the DOE audit process.
    Mr. Burr. And that site is which?
    Mr. Bernardi. That is the Nevada test site.
    Mr. Upton. Might I just ask, when was it that it stopped?
    Mr. Bernardi. We finished our work the fall of last year, 
and this third audit was the beginning of this year.
    Mr. Burr. Do you feel like that DOE knew the contracts had 
been terminated?
    Mr. Bernardi. I am sure people in DOE knew that, yes.
    Mr. Burr. Do you think that people at Bechtel, since they 
were the contractor, knew that contracts had been terminated?
    Mr. Bernardi. Yes, sir; they were involved in it.
    Mr. Burr. Certainly, I think they are going to be here on 
the next panel. I will be sure to ask them.
    Let me just ask as a last question to all of you: if you 
could pick one thing to identify for this subcommittee as the 
reason that new technology is not being integrated--I don't 
want you to limit it to your technology. Trust me, I don't 
think you would be here if you didn't think your technology was 
the best--but why new technology is not being incorporated in 
the cleanup process at sites around the country, if there was 
one reason, what would that be? And let me start with you, Mr. 
Schofield.
    Mr. Schofield. In my view, the people at the sites don't 
want to solve the problem. They want to prolong the problem in 
order to save jobs.
    Mr. Burr. Define people at the site for us. Contractors? 
Site managers?
    Mr. Schofield. Contract personnel.
    Mr. Burr. Mr. Bernardi?
    Mr. Bernardi. I have a number of reasons. I think I will 
mix two things, sir. One is, in my technology case, it is the 
combination of the opening of WIPP and the existence of older 
technology onsites; those two things have made it difficult for 
us.
    Mr. Burr. Doctor?
    Mr. Kotrappa. The delays are what really kill us, and they 
don't make any decisions for a long, long period, and we wait 
and wait and, you know, this new technology, we have put in so 
much money, and to small companies, that money is a lot of 
money, and delays is the way I would put it.
    Mr. Burr. Delays caused by contractors or DOE?
    Mr. Kotrappa. Unnecessary for that research where all of 
the research has been done, the product is ready. And to go on 
testing, testing, testing, I don't know why.
    Mr. Burr. That sounds like it is generated out of OST. 
Okay.
    Mr. Rogers?
    Mr. Rogers. If I had to distill everything down to one, I 
would still refer to the five recommendations that I gave you 
earlier, but probably the single most important of those would 
be the fact that there is no single advocate within DOE EM 
programs, and I am speaking as a demonstration technology 
developer; I haven't made it to deployment yet. But there is no 
single advocate to assist small business in overcoming the 
overwhelming communications required and inertia required to 
move a project forward.
    Mr. Burr. With contractors? Site managers? DOE?
    Mr. Rogers. Wrap a bow around all of them. I mean, it is 
DOE; it is M&O contractors. As a matter of fact, it is not just 
DOE, it is DOE--you have your Contract Administration Office to 
deal with and reporting and all of the requirements that go 
along with that. You have the site DOE office that you have to 
communicate with, and then you have the M&O contractors. You 
have your own team of subcontractors that, because a small 
business doesn't have all the expertise, we have to bring that 
on. So, it is an overwhelming management problem that is really 
laid in the lap of the technology developer to solve.
    Mr. Burr. I thank all four of you for your willingness to 
come and for your candidness with your testimony.
    I yield back.
    Mr. Upton. Thank you, panelists. We appreciate your 
testimony; it was very enlightening. You may look to see some 
questions coming, and we look forward to those additional 
responses, as well. You are excused. Thank you very much.
    Our next panel includes Mr. Ron Peterson, group president 
of Flora Corporation; Mr. Robert Card, president of Kaiser-
Hill; Mr. Lee McIntire, president of Bechtel National, and Mr. 
James Gallagher, president, Government Environmental Services 
of Westinghouse Electric.
    Thank you all for being patient. As you heard from the 
beginning, this morning, we have had a long tradition of having 
our witnesses swear under oath or testify under oath and do any 
of you have objection to that? And we also usually allow for 
the availability of counsel. Do you any of you desire an 
additional person to be with you? Mr. Gallagher, Dr. Wood might 
accompany you on this?
    Mr. Gallagher. Yes.
    Mr. Upton. Okay, good.
    If you would all stand and raise your hand, that would be 
terrific.
    [Witnesses sworn.]
    Thank you very much. You are now under oath, and, Dr. 
Gallagher, we will start with you. Thank you.

  TESTIMONY OF JAMES L. GALLAGHER, PRESIDENT, GOVERNMENT AND 
  ENVIRONMENTAL SERVICES, WESTINGHOUSE ELECTRIC CORPORATION; 
ACCOMPANIED BY SUSAN WOOD, DIRECTOR, SAVANNAH RIVER TECHNOLOGY 
 CENTER, VICE PRESIDENT, WESTINGHOUSE SAVANNAH RIVER COMPANY; 
  LEE A. MCINTIRE, PRESIDENT, BECHTEL NATIONAL, INCORPORATED; 
ROBERT G. CARD, PRESIDENT, KAISER-HILL; AND RONALD G. PETERSON, 
               GROUP PRESIDENT, FLUOR CORPORATION

    Mr. Gallagher. Thank you, Mr. Chairman.
    I am Jim Gallagher, president of the Westinghouse 
Government Services Group.
    Mr. Upton. If you could just put that mike just a little 
closer.
    Mr. Gallagher. I am pleased to discuss with you a 
contractor's perspective on the environmental management 
technology. As president of the Government Services Group, I am 
responsible for the overall direction of our government 
operations and can provide you a general background on our 
management philosophy and systems at these facilities.
    Accompanying me today is Dr. Susan Wood from our Savannah 
River Technology Center, our primary interface with DOE's 
Office of Science and Technology. She is available to help me 
or you if you raise questions in need of more detail.
    Simply put, technology deployment is important to us, 
because it allows us to meet our mission needs, our regulatory 
requirements as well as save money. Our experience shows that 
we can achieve significant reductions in life-cycle costs 
through technology, and we expand, scope, and deliver with the 
taxpayer dollar.
    Further, we have cast a wide net in search of these 
technologies that meet our specific needs. While we have some 
development success on our own, we also look to other DOE 
sites, universities, commercial industry, DOE's Technology 
Development Program or any other source to supply technology to 
meet our mission. We have a process in place to make sure this 
happens, and we believe we can demonstrate that it is working.
    The committee forwarded to us a list of 154 technologies. 
At our 3 locations, we have deployed 45 of them, and there are 
at least another 113 opportunities to deploy them at one or 
more of our sites. Because Savannah River is the home to most 
of our work in this area, I would like to focus specifically on 
technology development and deployment there, and I would like 
to express my appreciation, Mr. Chairman, to your recognition 
earlier of our success at Savannah River.
    Of the 154 technologies you asked about, we have deployed 
41 of them at Savannah River; 23, multiple times, ranging from 
2 to 25 deployments each. We believe there are 54 more that may 
have application there. I would not that Savannah River has 
also deployed or developed technology not included on your 
list.
    From fiscal year 1996 through fiscal year 1998, Savannah 
River received $45 million in EM-50 funding. In our 
Environmental Restoration Program, alone, the OST investment 
has yielded $62 million in savings. We believe innovative 
technologies from all sources will save more than $168 million 
in life-cycle costs beginning in fiscal year 1996 and beyond. 
That represents deployments in only one line program. We have 
others doing similar work.
    Cost savings is not the only measure of success. We can 
point to cases in which technology deployment has increased our 
margin of safety or has enabled us to perform mission tasks 
that are critical to program success, such as safe shipment of 
transuranic waste. We feel the key factor that contributes to 
our technology deployment success is the fact that we involve 
our end users in line throughout--from working with our 
laboratory personnel to accurately define needs, to working 
with our regulators and other public stakeholders to 
incorporate their requirements. We also promote those needs 
widely in the commercial marketplace.
    Let me cite two specific examples of successful technology 
deployment at Savannah River. There, we have closed two high 
level waste tanks. These are the first such closures in the 
Nation. As this process evolved, scientists developed a new 
type of non-bleeding grout. Without this technology, which was 
supported by EM-50, we could have not gotten regulatory 
certification to close those tanks. That tank closure saved us 
$150,000 per tank per year in surveillance and maintenance 
costs, and there are 49 additional tanks that must be closed at 
Savannah River.
    Second, SEAMIST/FLUTe technology. This is the technology 
that was part of the committee's inquiry to us and has been 
deployed more than 10 times at Savannah River. And, 
additionally, we have not only deployed it at Savannah River, 
but we have also worked with NASA on a successful deployment at 
Cape Kennedy.
    Finally, as these examples demonstrate, we believe we have 
a good record and are committed to working with DOE and with 
the committee to bring the best technology available to the DOE 
cleanup effort.
    [The prepared statement of James L. Gallagher follows:]
   Prepared Statement of James L. Gallagher, President, Westinghouse 
                       Government Services Group
    Good afternoon. I am James L. Gallagher, President of the 
Westinghouse Government Services Group, and I am pleased to discuss 
with you a contractor perspective on environmental management 
technology. Westinghouse operates the Savannah River Site, the Waste 
Isolation Pilot Plant and the West Valley Demonstration Project under 
contract to DOE, and we have a unique perspective as both developer and 
an end user of innovative technology.
    Simply put, technology deployment is important to us because it 
allows us to meet our mission needs and our regulatory requirements, as 
well as save money. Our experience is showing us that we can achieve 
significant reduction in lifecycle costs through technology, and we can 
expand scope and deliver more for the taxpayer dollar.
    Further, we have cast a wide net in search of those technologies 
that meet our specific needs. While we have had some development 
success on our own, we look to other DOE sites, universities, 
commercial industry, DOE's technology development program or any other 
source to supply technology to meet our mission. We have a process in 
place to see that this happens, and we believe we can demonstrate that 
our process is working.
    The committee forwarded to us a list of 154 technologies that are 
of interest to you. At the three locations I referred to earlier, 
Savannah River, WIPP and West Valley, we have deployed a total of 45 of 
those technologies. We believe that there are at least another 113 
opportunities to deploy these technologies at one or more of the three 
sites.
    Because the Savannah River site is home to the majority of our work 
scope in this area, I would like to focus specifically on technology 
development and deployment at the Westinghouse Savannah River Company.
    As I mentioned previously, the committee provided a list of 154 
technologies that are among those funded through DOE's Office of 
Science and Technology process. The Westinghouse Savannah River Company 
(WSRC) has deployed 41 of those technologies (27 percent). WSRC has 
deployed 23 of these technologies multiple times, ranging from two to 
25 deployments each. The successful deployments have included a range 
of applications--from the stabilization of fixed surface contamination 
to a process for expedited waste site characterization.
    We believe there are an additional 51 technologies that may have 
applications at SRS; in some cases there are technologies that have two 
distinctly different potential applications. Others may be added to the 
list of potentially deployable technologies, while others still may 
have applications at other sites, but not at SRS. I would note that 
WSRC has also deployed or developed technology not included on the list 
the Committee is focusing on today.
    From FY96 through FY98, WSRC received $45.0 million in EM-50 
funding. We used that money to support university research on truly 
innovative technologies, development of technology in-house, and 
application of technologies developed by others. In our environmental 
restoration program alone, we believe these innovative technologies 
will save more than $168 million in lifecycle cost savings beginning in 
FY96 and beyond. That represents deployments in only one of several 
line programs within WSRC. We have other line programs doing similar 
work.
    Furthermore, cost savings are not the only success measure. We can 
point to cases in which technology deployment has increased our margin 
of safety, or has enabled us to perform mission tasks that are critical 
to program success, such as the safe shipment of transuranic waste.
    We feel there are at least four key factors that contribute to 
WSRC's technology deployment success:
    Well defined needs--Our line programs and our laboratory personnel 
collaborate, and have continuously improved our ability to write 
accurate technical statements of technology needs. Those needs are 
advertised to potential vendors and other DOE sites via the Internet, 
and have been highlighted at Vendors' Forums that have been sponsored 
by WSRC and our DOE customer. At these forums, we have invited vendors 
in from all over the country to hear our needs.
    End-user involvement--The end users of technology are involved from 
the beginning, from the needs identification process through technology 
deployment. This is not a new practice at SRS. Our Savannah River 
Technology Center (SRTC), the site's research and development arm, has 
always had a primary focus on applied research, and on solving the 
specific problems associated with working facilities.
    Stakeholder and regulatory involvement--We keep our Citizens 
Advisory Board involved. At SRS, that board includes the Environmental 
Protection Agency and the South Carolina Department of Health and 
Environmental Control. That regulatory involvement can not be 
overlooked; technology has to enhance our ability to meet regulatory 
milestones. We are fortunate to have leadership at both EPA and the 
state level that is interested in working with us on technology 
solutions.
    Utilization of technical resources--The Savannah River Technology 
Center acts as a clearinghouse, and helps to ensure that the best 
resources from industry, universities and other national laboratories 
are utilized.
    In practical application, our line organizations all have 
technology panels that integrate technology specialists with end users. 
These panels include DOE and contractor end users as well as 
technologists from SRTC. The panels function in two ways: (1) to 
prioritize program needs, and (2) to assess the maturity of 
commercially available technologies. When cost effective solutions do 
not exist, the technology panel members develop plans for the ultimate 
solution to the problem. In some cases the research is performed by 
SRTC; in other cases, DOE funding is used to seek solutions from 
elsewhere.
    DOE encourages the promotion of technology deployment through a 
variety of incentives. These have included:

--Targeting performance based incentives that encourage Westinghouse 
        and its partners to utilize new technologies;
--Award fee evaluation that explicitly includes our performance in 
        technology management; and,
--Funding of large-scale demonstration projects that facilitate 
        deployment of innovative or improved technologies, including 
        items from industry and academia.
    Let me cite several specific examples of successful technology 
deployment at SRS.
    Tank Closure--At SRS, we have closed two high level waste tanks. 
This is groundbreaking work, the first two such closures in the nation.
    As this process evolved, scientists at SRTC developed a new type of 
``smart'' grout, a non-bleed grout technology. Without this technology, 
which was supported by EM-50 money, we could not have gotten regulatory 
certification that the tanks were closed. We estimate that tank closure 
saves us $150,000 per tank per year in surveillance and maintenance 
costs, and we have 49 additional tanks that we must ultimately close at 
SRS. There are many more tanks throughout the DOE complex.
    SEAMIST/FLUTe--SEAMIST/FLUTe, a technology that was part of the 
committee's inquiry to us, has been deployed more than ten times at 
SRS. The company (Flexible Liner Underground Technologies, Ltd.) is a 
small business spinoff from a national laboratory, and the technology 
is an inexpensive, reliable technology for locating a particular type 
of contaminant (Dense Non-Aqueous Phase Liquids). We have not only 
deployed the technology at SRS, we have also worked in conjunction with 
NASA on a successful deployment at Cape Kennedy.
    Drum Vent and Purge--NFT, a small Colorado company, developed a 
technology that removes hydrogen and volatile organic compound gases 
from transuranic waste drum headspace. The technology represents a 
significant safety enhancement, and allows us to meet the waste 
acceptance criteria for the Waste Isolation Pilot Plant. It is 
significant to note that this technology would likely not have been 
developed outside the DOE complex, because the DOE complex may 
represent its only unique application.
    GeoSiphon--The GeoSiphon is a successful combination of research by 
SRTC combined with research performed by the University of Waterloo. 
GeoSiphon is a passive, in situ approach to remediation that collects 
contaminated groundwater into geosiphon cells, passes the water through 
a reactive matrix of iron filings, and discharges it to the Savannah 
River. The lifecycle cost savings for installing and maintaining the 12 
cells is more than $19 million over conventional pump and treat units. 
GeoSiphon research and development was supported primarily by EM-40.
    We believe the above are some of the examples that clearly 
demonstrate the benefits and the cost savings associated with 
innovative technology that we have deployed.
    Our future success will depend on several factors. Many parties 
must continue to collaborate--end users, regulators, DOE and the 
research community. We must continue to document the success, both in 
cost savings and results, of our various programs. And, we must have an 
ongoing technology development mechanism that addresses those needs 
that are completely unique to the end users in the DOE complex.
    We believe we have a good record. We are committed to working with 
DOE and with you to bring the best technology available to the DOE 
cleanup effort, and to improve our performance into the 21st century.

    Mr. Upton. Thank you. Mr. McIntire.

                  TESTIMONY OF LEE A. MCINTIRE

    Mr. McIntire. Thank you. My name is Lee McIntire, and I am 
the president of Bechtel National, and we do the DOE work for 
Bechtel. And we are not big developers of technology, but we 
sure use a lot of them on all our projects in 88 countries 
around the world, so we are very comfortable working, 
screening, looking at all kinds of technologies.
    I just had four components that we thought was important 
for the success of environmental cleanup technology deployment. 
One is, it has to be needs driven, and I would be glad to talk 
about this more. It has to be, I think, be driven by the people 
that had the problems in the field, and Mr. Owendoff mentioned 
that before. I believe that it is where it needs to come from. 
The new technology must improve on the project baseline too. I 
think that it is a metric I would like to discuss in a minute, 
and the continuity of funding is also important, and I think 
you have heard remnants of that throughout the testimonies 
today, whether it be by the small businesses or by DOE, it is a 
factor in all of this. And then there has to be a partnership; 
overused word, but between the technology programs, the 
national labs, industries, small and large, and the 
universities is really key.
    The use of new technologies is improving project baselines 
in all of Bechtel's cleanup assignments for DOE. Since 1994, at 
the Hanford site, which is a pure cleanup for us, we have 
screened 450 technologies that have been identified by the EM-
50 and other sources. We deployed 25 of those technologies. And 
you might say, ``Why didn't you use 450?'' Well, we have 
screening, and that is what screening is all about, is to find 
ones that will solve our problems in the field. We incentivize 
to get these things done where we can say there are four 
important things. One is the safety of the people doing the 
work and health and safety also. We are also looking at cost 
savings; we are also looking at schedule savings, and we are 
looking at the quality of the work as our reputation depends on 
this holding up for decades after we do the work. So, we do 
screen through those technologies and find what we want. And we 
finally deployed 13 on the C Reactor that has probably been 
overmentioned today. The reason that is mentioned so much is 
because that is a project that is done, and that is very 
important.
    I think a key that we all ought to remember is that the 
real, actual, physical cleanup of all these sites just started 
recently. For many years, as you know, you have seen a stack of 
paper on one side, the performance on the other side; that is 
all reversed now. The percentage is different. So, the reason C 
Reactor is mentioned is because you can do all the metrics; you 
can study it; you can look at it; you can count it; you can 
measure it, and it is all done and successful, and that is why 
it is brought up. And it will say $23 million on the cleanup of 
the rest of the reactors along the river there, which is a 
really good idea. I also mention the original concept for the 
reactors was probably at a cost of over $1 billion. The 
original concept was to move all the reactors inland. So, it is 
not only technology but innovative ideas said let us get it 
down to what is in the low millions to do these.
    I do offer three recommendations, however, that I think 
could maybe help. I would continue to focus on needs drive 
process, and I do believe EM-50 and the Department of Energy is 
doing that. There is a vehicle for doing that, and we are very 
much working on that. It has improved. There was a time when it 
wasn't as needs driven, but I believe, my opinion is it is 
improving.
    Then, second, I would develop metrics that focus on the 
results and improvements of the project life-cycle baseline. I 
don't think you just want to use technology. What you want to 
do is have a life-cycle cost that is safe and on schedule, and 
so I think metrics ought to be--if I was this panel, I would 
push for that, and I would look at those metrics over a 2- or 
3-, 4-year period and see how we are doing, how DOE is doing.
    Third, I would continue to look at funding. It is a part of 
the whole success of this.
    I think that is it. That is all I would like to say. Thank 
you.
    [The prepared statement of Lee A. McIntire follows:]
  Prepared Statement of Lee A. McIntire, President, Bechtel National, 
                                  Inc.
    Mr. Chairman--Members of the Committee: I have been invited before 
you today to provide testimony on the deployment of environmental 
cleanup technologies at Department of Energy (DOE) sites where Bechtel 
has a contractual leadership responsibility for that mission.
    As I am sure you are aware, Bechtel is a contractor to the DOE at 
many of its installations across the country, including prime contracts 
at the Hanford Site in Washington State, the Nevada Test Site, the Oak 
Ridge Operations Sites in Tennessee; and we are part of the 
Westinghouse team at the Savannah River Site in South Carolina. 
Significant portions of our assigned contract work scopes are directly 
tied to environmental cleanup missions, particularly at Hanford, Oak 
Ridge, and Savannah River. As such, we are actively involved with the 
DOE in determining technological needs for environmental cleanup, 
identifying and assessing potential technical solutions to 
environmental problems, and selecting and deploying those technologies 
and approaches that effectively answer the specific needs, prove to be 
most practicable, and are efficient in terms of cost and schedule 
performance.
    Bechtel is a worldwide leader in managing complex projects and 
solving difficult technological challenges. To succeed in the extremely 
competitive business markets in which Bechtel is engaged, we must 
continuously develop, use, and improve upon ``best commercial 
practices''. We see technology as a pivotally essential area for the 
application of such practices. In fact, technology is an integral 
element of Bechtel's planning, project management, and work performance 
processes; it is not an accessory or afterthought. In a very purposeful 
and pragmatic sense, we seek to bring best technologies to the DOE's 
environmental cleanup programs.
    I intend to keep my comments short. First I will describe four key 
components for a successful technology deployment program; then provide 
an overview of some of our current activities; and end with a few 
recommendations.
                key components for a successful program
Technology activities must be driven by project technology needs.
    Technology use must be driven by the needs of the field projects; 
this is essential to a successful technology program. Technology must 
solve a problem and result in improved project performance. Simply 
deploying the latest concept or device is not sufficient and will not 
result in a successful program. The field project (or ``problem 
holder'') understands the objectives, requirements, and needs of the 
project, and is responsible for the resources to accomplish those 
objectives. Performance is then measured by how effectively those 
project objectives are accomplished.
    If use of new technologies or innovative approaches best fit a 
project's needs, then they will be effectively used and deployed. To 
have a set of technologies to draw from, there must be an effort to 
forecast these needs, then apply resources--either public or private--
to their development, such that they are available for the problem 
holder when needed. This clearly requires an integrated effort 
throughout the field of possible users.
    Currently the field projects identify, document, and communicate 
their requirements by preparing technology needs statements which are 
then formalized through the Site Technology Coordination Groups (STCG), 
and distributed to the DOE Office of Science and Technology (EM-50), 
and to industry. The technology needs statements provide a clear 
understanding of what type of technology is needed--and when--and 
allows EM-50, National Laboratories, industry, and universities to work 
towards providing solutions.
    Identified technologies are screened by the field projects to 
ensure that they are applicable to the priority needs as documented in 
the technology needs statements. Those technologies that are applicable 
are further evaluated with regard to technical adequacy, safety, cost, 
and schedule impacts. This disciplined process focuses the limited 
resources of the project.
New technology must improve on the baseline.
    Good project organizations develop baselines to guide their efforts 
and to gauge their performance over time. A project baseline is an 
estimate of the cost and schedule to complete the defined scope of work 
using best commercial practices. Project teams look to improve the 
baseline through whatever means possible, including the use of new 
technology or innovative approaches. If the new technology or 
innovative approach cannot improve the cost, schedule, safety, or 
quality of the project, then it should not be used. Likewise, the 
benefits from new technologies must exceed the costs invested for full 
deployment.
    New technologies require demonstration, testing, new procedures, 
and training before they can be fully implemented. It is our experience 
that the DOE EM-50 program is providing the vehicle for that effort. 
Without some means of demonstrating the anticipated effectiveness of 
new technology--meaning, providing some form of verification of the 
value of the technology--it becomes difficult, if not impossible to 
encourage its deployment and use. This is particularly so when those 
that are being encouraged to use the technology are being rewarded for 
successful performance.
Continuity of funding is needed that is consistent with project 
        schedules.
    Funding to support deployment of new technology must be provided 
consistent with the identified needs of the projects it supports. 
Delayed or inconsistent funding will hamper the time needed to develop, 
demonstrate, and deploy new technologies, and may result in failure to 
achieve anticipated cost savings forecast by technology roadmaps. 
Funding delays may even result in increased project costs.
    I understand the difficulty in doing this, as budgets are developed 
well in advance of when funding is provided to the field, but having 
the technology available for use at the right time is critical if we 
are to not only meet project schedules, but realize possible savings 
that would result from their use. Perhaps ``stability'' in funding for 
technology development is at least achievable; then allowing the 
planning that is necessary to help assure the right alignment between 
development and deployment.
Partnership between DOE technology programs, National Laboratories, 
        industry, and universities is key.
    To achieve maximum success in the technology arena, multiple 
sources of technology--that have progressed through a development phase 
and some level of demonstration or validation--are required. This is 
where the DOE Science and Technology (EM-50) program provides value. By 
further partnering with the National Laboratories, universities, and 
other industry sources, the potential sources of available technologies 
expand.
    As I mentioned earlier, new technologies often require some time 
before they are fully mature and ready for deployment. Where industry 
owns or develops those technologies, DOE can access them through their 
procurement process. Where such technologies do not exist or have 
limited application (not commercially viable) the DOE Science and 
Technology program, in cooperation with the National Laboratories and 
others, can provide needed support to technology development and 
demonstration.
    This partnership is successfully working at Hanford and Oak Ridge, 
where DOE and Bechtel partner with Pacific Northwest National 
Laboratory (PNNL) and Oak Ridge National Laboratory (ORNL) to help 
identify, evaluate, and develop technologies. Other DOE sites use 
similar approaches.
     overview--progress is being made; baselines are being improved
    Now let me back that up with some examples:
Hanford Technology Deployments.
    Over the past several years at Hanford, the Bechtel team has 
screened over 450 technologies identified from EM-50 and others for 
applicability to its environmental restoration (ER) scope.
    Since 1994, the Hanford ER program has deployed 25 new 
technologies. In addition to vendors responding directly to the 
published technology needs statements, the Bechtel team proactively 
searches for potential technology solutions through continuing 
interaction with the DOE's technology focus areas, industry contacts, 
and technology meetings. The C Reactor Interim Safe Storage (ISS) 
Project is a good example of how this process works. The project 
involved extensively reducing the ``footprint'' of an old deteriorating 
reactor complex and placing the reactor's core in a safe, inexpensive 
to maintain condition.
    The C Reactor Project was jointly supported by EM-40 and -50 as one 
of DOE's first Large-Scale Demonstration and Deployment Projects. One 
reason for the success of technologies deployed on this project was 
that EM-50 technology support was integrated into the project planning 
at the project's inception. As a result of that approach, the C Reactor 
ISS field-demonstrated 20 innovative technologies, with 13 of those 
technologies being selected by the project for deployment. To be 
selected, the technology demonstration was required to confirm that 
deployment would provide improvements to the project baseline (cost, 
schedule, safety, and quality). Applying these improved technologies at 
the seven remaining Hanford reactors is projected to result in savings 
of at least $23 million.
    The technologies deployed at the C Reactor ISS are also applicable 
to hundreds of other similar facilities throughout the DOE complex, at 
other government sites, and in commercial industry. Some of these 
technologies are being deployed at the Ukraine's Chernobyl reactor.
    Another opportunity for technology deployment currently being 
pursued at Hanford is the Canyon Disposition Initiative (CDI) Project, 
which is evaluating alternatives for disposition of five massive 
chemical processing facilities. There is a potential cost savings of 
one billion dollars if these former processing plants can themselves be 
utilized as low level waste disposal facilities instead of subjecting 
them to costly structural decontamination, demolition, and disposal. 
Obtaining regulatory concurrence for alternate use of these highly 
contaminated facilities for waste disposal will require improved 
technology to support characterization, and to demonstrate long-term 
environmental acceptability. Bechtel's team is currently partnering 
with EM-30, -40, and -50, and with other Hanford contractors to provide 
technology support in the characterization of a test case canyon 
facility, Hanford's U Plant.
Oak Ridge Remediation Technology Results.
    Deployment of innovative technologies to reduce cost and accelerate 
schedule is a key element of the Bechtel Jacobs Company, LLC, 
environmental management and integration (M&I) contract at the Oak 
Ridge Operations Sites.
    The M&I approach was initiated in April 1998, so most of the Oak 
Ridge results are carryovers from the traditional management and 
operation contracting approach. Over the past eight years in Oak Ridge 
operations, over 80 innovative technologies have been deployed. 
Examples of these, jointly funded by EM-40 and -50, include Borehole 
Miner, Pulsair Mixer, and Modified Light Duty Utility Arm for tank 
remediation; and Soil Freezing Technology, and Passive Reactive 
Barriers for treatment and control of subsurface contaminants.
    Cost savings gained from innovative technology deployment are 
evident in the underground tank remediation projects underway at Oak 
Ridge National Laboratory. A suite of technologies designed to assist 
with the cleanup of underground radioactive waste tanks have been 
developed and deployed by Bechtel Jacobs in support of these projects.
    Confined sluicing is utilized as a technique to clean Gunite and 
Associated Tank (GAAT) internal walls, and to break up and retrieve 
hard sludge deposits without introducing excessive amounts of 
additional water. Robotic arms designed for large vertical tank 
configurations have been effectively deployed for in-tank operations, 
including handling and control of sluicing, sampling, and pipe cutting 
and plugging tools. Remotely operated vehicles have proven invaluable 
in support of in-tank cleaning operations such as tool handoff to 
robotic arms, breaking up hard floor sludges, and physical movement of 
sludge piles for retrieval. Overall, the use of these technologies will 
accelerate the GAAT cleanup schedule by eight years and result in an 
estimated cost saving of $112 million.
Savannah River Site Successes.
    As part of the Westinghouse Savannah River team, Bechtel also 
provides assistance with environmental activities at the site. Those 
have been (or, will be) covered in more detail by my fellow panelist 
from Westinghouse.
    I would, however, like to mention in summary that over the past 
three years the SRS ER program has successfully achieved 38 innovative 
technology deployments, saving approximately $168 million in projected 
lifecycle costs. Examples of these innovative deployments, which were 
jointly funded by EM-40 and EM-50, include Barometric Pumping/Baroball, 
In-Well Vapor Stripping with Recirculation Wells, and In-Situ Chemical 
Oxidation using Fenton's Chemistry. These technologies are utilized for 
the cleanup of contaminated groundwater.
                            recommendations
    Progress has been made in the use of technology resulting in 
improved project baselines. To continue to improve the process I would 
offer the following recommendations:
First--Continue to work towards a needs-driven process and align 
        technology funding with projects' technology needs.
    It is necessary for technology funding to be closely aligned with 
the priority technology needs of the DOE environmental cleanup 
projects. In order to be successful in utilizing technology to 
accomplish improved cleanup results, support from EM-50 through its 
focus areas must be strongly tied to field projects and to solving the 
problems specifically identified by those projects. What is needed are 
pragmatic and timely scientific and technological solutions. We support 
the changes that are currently underway in the EM-50 program, which are 
intended to improve continuity of funding and place sharper focus on 
solving problem-holder needs.
Second--Develop metrics that focus on results and improvements to the 
        project life-cycle baseline.
    DOE's EM-50 and EM-40 Programs should develop an improved set of 
metrics to measure program success. These metrics should include cost 
savings, schedule acceleration, problem resolution, and risk reduction. 
Simply counting technology deployments does not provide an adequate 
picture of technology's impact on the process.
Third--Place appropriate responsibility and accountability in the 
        Science and Technology program, and in the field with the 
        project performers.
    The DOE Science and Technology program must be oriented to provide 
solutions that meet science and technology needs identified by field 
projects; and these solutions must be capable of being deployed by the 
field project organizations. The program's success should be measured 
against its effectiveness in providing workable and cost-effective 
solutions in answer to the identified needs.
                             in conclusion
    In my judgement, the process is improving. Is there more room for 
improvement? You bet--and we all have both the responsibility and 
accountability to do so. But now is not the time for a major upheaval 
in the process, or a significant cut in the funds that support this 
effort. I would recommend continuing to support the program, but also 
continuing to insist upon real progress and measurable results.

    Mr. Upton. Thank you very much. Mr. Card.

                   TESTIMONY OF ROBERT G. CARD

    Mr. Card. Mr. Chairman, members of the subcommittee, thank 
you for the opportunity to testify this morning.
    My name is Bob Card, and I am the president and CEO of 
Kaiser-Hill Company. The company has been the management and 
integration contractor for DOE at their Denver area Rocky Flats 
site since 1995, and understanding the site mission at Rocky 
Flats is fundamental to discussion of technology deployment.
    Rocky Flats is a closure project. Closing the site safely, 
cost effectively, and quickly is our only mission. 
Accomplishing this mission will, in turn, enable Congress and 
the DOE to reallocate nearly $700 million per year of budget 
resources to address long-term and technologically complex 
challenges, such as the Hanford tanks.
    In moving toward our goal, last Friday, we released our 
detailed project baseline to accelerate closure to 2006. This 
baseline shaves over $30 billion and 50 years from DOE's 1995 
estimates produced just prior to our contract signing. This 
aggressive short-term cleanup focus means that we are looking 
for technologies that will help us achieve our goal safer, 
better, cheaper, and faster than the way we currently do the 
work. They must also be implemented before the problem they 
were supposed to solve has already been taken care of, which is 
a very short time cycle at our site compared to typical 
deployment and development timeframes.
    When technologies come across our desk that meet these 
objectives, Kaiser-Hill aggressively pursues them. However, 
technology is just one of the main tools we use to reach our 
goal of accelerating site closure. From a technology 
perspective, Rocky Flats is fortunate in that our closure 
challenges are management and systems integration rather than 
technology development. While the challenges we face are 
certainly daunting, we do not have the long-term technological 
problems that exist at some of the major DOE sites. We are not 
aware of any insurmountable technology hurdles to accomplish 
the site's cleanup.
    That notwithstanding, the deployment of existing 
technologies developed for different applications, however, is 
important to closing Rocky Flats. We actively search out these 
deployment opportunities, and we use our Vendor Response 
Program to help screen and deploy these and unsolicited 
technologies. This program is designed to help overcome 
previous vendor relationship weaknesses. It helps technology 
vendors match their technologies to specific needs we have 
identified at Rocky Flats. As a result, the vendors save time 
and money by having more detailed information about what the 
site needs.
    I want to say, the Office of Science and Technology is a 
valuable partner.
    I am going to conclude my testimony there. Thank you.
    [The prepared statement of Robert G. Card follows:]
 Prepared Statement of Robert G. Card, President and CEO, Kaiser-Hill 
                              Company, LLC
    Mr. Chairman and Members of the Subcommittee, I want to thank you 
for the opportunity to testify this morning. My name is Bob Card, and I 
am the President and Chief Executive Officer of Kaiser-Hill Company, 
the management and integration (M&I) contractor at the Rocky Flats 
Environmental Technology Site (RFETS, or ``the site'') in Denver, 
Colorado. Kaiser-Hill was awarded the contract to manage the site on 
April 4, 1995, and operates under one of the first significant 
performance-based contracts offered by the Department of Energy (DOE).
    I realize contract reform has been a major concern of the Commerce 
Committee over the past several Congresses, and I am pleased to say 
that the reforms envisioned by this Committee are being realized at 
Rocky Flats. While I would love to spend some time providing you an 
update on the progress Kaiser-Hill has been making at the site, I will 
confine my comments to the issues before the Subcommittee today.
                                overview
    Rocky Flats is located next to the foothills of Colorado's Front 
Range, about 15 miles from downtown Denver and within a major 
metropolitan area of nearly 2.5 million people. From 1952 to 1989, it 
was the primary manufacturing facility of plutonium ``triggers'' for 
our Nation's nuclear arsenal. Rocky Flats was also a major facility for 
the production of other nuclear weapons components.
    In 1989, the site abruptly halted its production mission, and since 
1992 its primary responsibility has been to clean up and close down. 
This mission has been complicated by the manner in which production 
operations were terminated. In 1989, DOE did not anticipate that the 
site would permanently cease operations. As a result, production 
processes were left in mid-stream--much like workers leaving for a 
lunch break, except in this case the lunch lasted about six years. 
Weapons components, scrap materials, waste, and hazardous chemicals 
were all left in production lines or areas and configurations not 
designed for long-term storage.
    When Kaiser-Hill was awarded the M&I contract in 1995, the 
Department estimated the responsible cleanup and shutdown of Rocky 
Flats would require 65 years and over $37 billion. Since that time, 
Kaiser-Hill and DOE have compressed this schedule to a proposed 2010 
closure at just over $7 billion--a savings of 50 years and nearly $30 
billion for U.S. taxpayers. This accelerated work will provide the same 
outcome--the same ultimate level of protection for human health and the 
environment--with reduced risks for workers due to the shorter overall 
length of time involved in the cleanup effort.
    Kaiser-Hill has accomplished this by two means: an aggressive 
acceleration and compression of the cleanup schedule, and a detailed 
management plan streamlining nearly every aspect of site operations. 
Since 1995, Kaiser-Hill has cut nearly $100 million--about \1/6\ of the 
annual site budget--from overhead and support costs. Nearly 6,000 main 
contractor employees were at the site in 1995, and Kaiser-Hill has 
sliced this number in half. In the environmental remediation and waste 
management areas, Kaiser-Hill is saving an average of over $150 million 
each year, compared to DOE's original cost estimates, through 
efficiencies and innovation.
    One of the more exciting events we've had at Kaiser-Hill is the 
release last week of the detailed project plan mapping out our strategy 
to close Rocky Flats by 2006--shaving an additional four years off the 
accelerated 2010 schedule. Using lessons learned over the past four 
years and a forward-looking management approach, we feel that the 2006 
schedule, while very, very difficult, is an achievable and worthwhile 
target.
    Accelerating the schedule requires Kaiser-Hill to do three things 
exceptionally well. First, and most importantly, we must conduct every 
single work activity safely. A strong safety margin is critical to 
achieving an accelerated closure. Second, we must execute our 
responsibilities with appropriate safeguards and security controls. 
Safeguards and security is a crucial issue given the significant 
quantities of special nuclear materials at the site. Third, Kaiser-Hill 
must continue to increase cost efficiencies at the site. Accelerating 
the closure depends on our ability to cuts costs, produce savings, and 
redeploy those savings into other closure activities.
    We have been successful in each of these categories. In safety, we 
have seen a 30 percent across-the-board increase in key safety 
performance areas since taking over in 1995. This includes a 58 percent 
reduction in nuclear safety rule violations, and a 57 percent 
improvement in the lost workday case rate. The security and safeguards 
area has seen similar improvements. For the last two years, Rocky Flats 
has received DOE's highest rating for the overall status of its 
safeguards and security program. The site has been aggressive in 
securing both the advanced hardware and software needed by our forces 
to ensure a strong security posture. The results have been seen in the 
site's force-on-force exercises, in which elite military units attempt 
to infiltrate Rocky Flats and gain access to its special nuclear 
materials. In every case, the attack test results support the adequacy 
of the site's security response. In the cost efficiency area, we have 
also seen great success. In FY98, Kaiser-Hill was able to put $40 
million into unfunded cleanup work by generating savings in other 
activities. In FY99, efficiency gains in other site operations will 
hopefully allow us to allocate a similar amount for additional unfunded 
cleanup work. The ability to realize these savings, and refocus them on 
cleanup activities, is a critical component of the 2006 closure 
strategy.
                   kaiser-hill's technology approach
    This background is important to the discussion of how technology is 
used at Rocky Flats. The site has some fundamental differences 
separating it from most major sites in the DOE complex. First, Rocky 
Flats is focused on short-term closure. Second, while the challenges we 
face at Rocky Flats are unique and quite complicated, we do not have 
technical and environmental problems as extensive as some other DOE 
sites--nothing as physically large as the Hanford tank system, for 
example, or the Oak Ridge groundwater remediation challenges. Third, we 
have not yet identified any insurmountable technological hurdles to 
accomplishing the cleanup of Rocky Flats. Most of the technology we 
need at the site we can either pull off-the-shelf, or we have been able 
to adapt to the site's needs through creative problem solving.
    Rocky Flats is a construction site, not a laboratory. Our 
responsibility is to safely clean up and demolish about 700 structures 
and just over three million square feet of building space. While 
constantly seeking ways to operate more safely, accelerate schedule, 
and cut costs, we need tools that will work in a productive environment 
today. Kaiser-Hill is eager to incorporate new technologies at the 
site, but these must deliver immediate, cost-effective results. As a 
result, we take a very practical approach to technology deployment at 
Rocky Flats.
    Some of the technologies being used at Rocky Flats are very cutting 
edge. One of the most significant examples is the Standard Waste Box 
(SWB) counter we will begin using next year. This device measures the 
total radioactivity inside SWB containers without having to open the 
box. These measurements are necessary to qualify the SWB for disposal 
at the Waste Isolation Pilot Plant (WIPP), and are an important 
component of safeguards and security in determining the total amount of 
radioactive materials in the container. However, a counter to 
accurately and quickly assay the radioactivity in the container has 
never before been deployed. The SWB counter incorporates several 
different technologies into one unit, and is a first-of-its-kind 
technology for the DOE complex. Kaiser-Hill identified the need, is 
getting the necessary technology on line, and, thus, has helped pioneer 
a solution for the rest of the complex. The site estimates that this 
single set of technologies will enable a fourfold improvement in safety 
and time for the takedown of contaminated equipment destined for WIPP 
and a sevenfold decrease in the amount of paperwork going to WIPP.
    There are decidedly low-tech innovations at Rocky Flats as well. 
For example, one of the site's most recent technological innovations 
was redesigning ``bag-out'' bags to incorporate filters to release non-
hazardous gas buildup and to change the bag and gaskets/seals materials 
used in bag construction. These bag-out bags are the inner layer of the 
radioactive contamination packaging system used for much of Rocky 
Flats' waste. These simple technology fixes allow four times greater 
quantities of combustible waste material to be packaged per bag, which 
reduces the number of shipments of this material to WIPP, and provides 
a better seal--a more secure environment--to contain the radioactivity 
than previous bag designs. The end result is that U.S. taxpayers will 
save more than $20 million over the life of the Rocky Flats Closure 
Project, and employees involved in the cleanup work will see a 
significantly greater safety margin in the packaging process.
    Other technology deployments at Rocky Flats are outside the area of 
environmental technologies, but are equally important to achieving the 
mission of the site. Safeguards and security is a good example. The 
classified nature of the radioactive materials at Rocky Flats demands a 
strong commitment to proper security. A recent deployment at the site 
is the Ion Trap Mobility Spectrometer, which can quickly detect and 
identify explosives or chemical agents attempting to be smuggled onto 
the site. This technology provides a quicker, more accurate analysis of 
possible contraband than previous technologies and is one of the many 
ways in which we have upgraded security at the site.
    Another important non-environmental deployment area is in 
information technologies. Kaiser-Hill uses a unique integration of 
commercially-available computerized planning, management, and database 
software, including the Basis-of-Estimate Software Tool (BEST) cost 
estimating system and the Primavera Project Planner (P3), which provide 
detailed and logic-driven management planning. These and other tools 
allow us to track activities at Rocky Flats for tangible progress, 
allowing Kaiser-Hill to ``de-bottleneck'' and integrate activities to 
ensure the maximum beneficial use of the site's resources. Proper 
activity planning is critical to success at Rocky Flats, and 
information technologies are a vital component of Kaiser-Hill's 
planning process.
                  technology objectives at rocky flats
    Technology objectives at the site are fairly simple: a new 
technology must provide results safer, better, cheaper, faster than the 
technology we are currently using. In order to achieve these 
objectives, Kaiser-Hill has established a straightforward method of 
assessing and deploying new technologies at Rocky Flats.
    Integral to this is an understanding of how activities are 
conducted at Rocky Flats. Every individual project at the site supports 
the overall goal of closure. Technology is but one component of the 
project as a whole, and it is the coordination of all activities that 
moves Rocky Flats to closure. There is little room in the schedule for 
error.
    The project approach at Rocky Flats puts a great deal of 
responsibility into the hands of line managers--the men and women 
actually performing the cleanup work. From line operations management, 
to subcontractors, to project managers, each person is responsible for 
meeting performance metrics: worker safety, budget, and schedule.
    Under its contract with DOE--and embodying the contract reform 
principles sought by Congress and this Committee--all members of the 
Kaiser-Hill team are incentivised to increase safety, ensure proper 
security and safeguards, reduce costs, and accelerate the schedule. To 
the extent that new technologies can assist in accomplishing these 
objectives, they are aggressively pursued at the site. Technologies 
must be fully deployable before they are used, and must have a fairly 
high worth-to-risk ratio.
   deployment process: technical planning and integration activities
    Since line management has the primary responsibility to accomplish 
the work safely, on time, and on budget, they have the lead role in 
identifying roadblocks to progress in work activities, and assessing 
the role new technologies can play in successfully executing work. To 
assist in getting technology deployed where it belongs, Kaiser-Hill 
operates several proactive technical programs to identify and assess 
potential new technologies. These programs are used by Kaiser-Hill to 
support operations and to support technology vendors.
    The Planning and Integration (P&I) organization works with 
operations at the management and project levels to develop the closure 
strategy for the site and to integrate individual project plans into an 
overall Closure Project Baseline. P&I also works with the line program 
and project managers to package and integrate technical innovation in 
their project activities. There are several elements to the P&I 
approach:

a) Technology ``what if'' scenarios are run to determine how life cycle 
        costs, resource allocations, schedules, and other aspects of a 
        technical innovation would affect the critical path, overall 
        closure schedule, and program and project budgets. This 
        activity determines where the most promising ``breakthrough'' 
        opportunities are.
b) Programmatic Risk Assessments are conducted at the detailed project 
        activity level to identify those activities with technical, 
        scope, cost, and schedule uncertainty, and to isolate those 
        activities that could become bottlenecks. Where an improved 
        technology is needed or foreseen, P&I and line managers develop 
        a path forward and engage potential vendors and service 
        providers to prepare an appropriate procurement. Multiple 
        options or paths forward are often pursued until the point at 
        which an optimal technical approach is decided upon.
c) Project plans prepared by the line organizations are scrubbed by P&I 
        for scope, Work Breakdown Structure (WBS) logic, schedule, 
        cost, and technology. One of the most effective ways to 
        integrate technology is to build it into projects at the 
        beginning.
d) Candidate technologies are screened and evaluated using performance-
        based selection criteria: guarantees on commercial terms; 
        reduction of cost, schedule, and/or risk; compliance with 
        performance or regulatory milestones, and other requirements; 
        creation of options; provision of versatility and practicality; 
        and consistency with mandates for off-site treatment and easy 
        shutdown/closeout, so that the means of achieving a clean end-
        state do not themselves pose hurdles to getting there.
e) Commercial candidates meeting the Site criteria need to be 
        qualified, recast in the specific terms of the relevant project 
        activity, adapted into the needed technical service, and 
        approved and/or permitted on a time line that fits the project 
        schedule.
    There have doubtless been occasions on which vendors have felt that 
their technologies have not been given every due consideration for 
deployment at the site. To give vendors an opportunity to present and 
demonstrate their technologies at Rocky Flats, Kaiser-Hill has 
established a Vendor Response Program. This program assists technology 
vendors in focusing their offering on the specifics of a needed 
application at the site so that scheduling, costing, performance 
metrics, and commercial terms can be quickly addressed, and teaming 
with a service provider can be facilitated. With this focus, both the 
vendor and the site save time and money. A mismatch can be quickly 
identified, and the site benefits from a higher capture rate with those 
technologies that truly meet the needs at Rocky Flats. Once a fit at 
the project level has been determined, the project manager and project 
engineers assist the vendor, as described above, to ensure success in 
terms of the required project performance measures. The P&I and 
Procurement departments serve as a coordinated entry point for 
technologies at RFETS.
    The Kaiser-Hill team subcontractors executing projects are the 
actual technology end-users. In most cases, the subject matter experts 
reside in the line organizations and are frequently in direct contact 
with vendors in their respective fields of expertise for information 
relevant to a specific project activity. Those project managers, 
engineers, and workers who are most likely to realize gains are 
motivated by the performance terms of the contract to invest the 
resources required to integrate technology into their operations.
               deployment process: technology operations
    In addition to the individual project initiatives, there are 
several technology initiatives run by the line and operating 
organizations that are designed for the common benefit of all projects 
or a specific group of projects. There are a number of these 
initiatives functioning at any given time. They include:

a) The Decontamination and Decommissioning (D&D) Technology Steering 
        Committee, which reviews needs and vendor offerings for D&D 
        work, recommends applications, and qualifies vendors as needed;
b) The Non-Destructive Assay (NDA) Team, which reviews needs, vendors 
        offerings, and supports development and qualification of 
        technologies needed to characterize and certify wastes for 
        shipment;
c) Value Engineering Teams, which evaluate technical options and 
        benchmark technologies, performance capabilities, etc.;
d) Process Improvement Teams, which review and/or develop processes and 
        procedures for work activities at the site (e.g., radiological 
        survey and disposition of property, criticality reengineering);
e) Engineering Quality Assurance (QA), which reviews engineering 
        designs for safety, compliance with various codes, cost 
        effectiveness; and
f) The ALARA (As Low As Reasonably Achievable) Center, a clearinghouse 
        for technical information and demonstrations of technologies 
        having the potential to reduce worker radiation exposures.
    Initiatives like these may be on-going, or in some cases ad hoc and 
terminated when their mission is completed, while new ones are started 
up to resolve an identified problem that is common to several projects. 
They are staffed by subject matter experts drawn from the projects 
themselves--again, using the expertise of those men and women actually 
doing the work at Rocky Flats.
    To ensure that the site is being exposed to a full range of the 
technology options available in today's marketplace, the Kaiser-Hill 
team regularly participates in conferences to communicate needs and 
business opportunities to the technical community. Additionally, 
qualified vendor technology demonstrations occur regularly at Rocky 
Flats, sponsored by one or more interested project managers or 
subcontractors.
      needs at rocky flats and the role of doe-funded technologies
    As the closure effort progresses, Kaiser-Hill continues to discover 
new opportunities for technology deployment. Again, these technology 
needs are driven by our primary deployment objectives: to accomplish 
the closure of Rocky Flats safer, better, cheaper, and faster. Some of 
the areas in which we are seeking additional improvements include:

a) in situ and stand-alone size reduction and contaminated equipment 
        removal;
b) survey and measurement of contamination and special nuclear 
        materials (SNM), both in situ and in containers;
c) characterization and decontamination of equipment and buildings;
d) detection and control of trace quantities of plutonium in soils and 
        water; and
e) business processes, such as waste container management, content 
        certification, and computerized documentation of materials to 
        be shipped off-site.
    The Department's Office of Science and Technology (OST) is the 
front-line organization providing technology support at DOE sites. OST 
addresses the technology needs of the complex over the long term. This 
reflects the lengthy schedules for cleanup at most sites. However, due 
to the accelerated closure schedule at Rocky Flats, technologies that 
may well fit the scope of work here cannot be used simply because they 
do not fit the project deadline. Other categories of technologies that 
have only a limited potential for use at the site are groundwater 
remediation tech-

nologies and waste treatment technologies. There are major groundwater 
contamination problems at some DOE sites, and many OST technologies are 
focused on this particularly vexing issue. Rocky Flats is fortunate not 
to have significant groundwater contamination problems. The site is 
using passive systems for remediation, and this OST-supported approach 
looks promising for other applications.
    Regarding waste treatment technology, Rocky Flats is planning to 
ship a significant percentage of wastes to other DOE and commercial 
sites for treatment and disposal, and thus looks to those other sites 
for deployment. This obviates the need for certain technologies at 
Rocky Flats. The Savannah River Site, for example, plans to process 
plutonium metals and oxides and some of the plutonium residues in the 
Rocky Flats inventory. The Oak Ridge Reservation has already treated 
some of the site's hazardous wastes. Rather than spend time developing 
new technologies at Rocky Flats to treat each specific waste stream, we 
are depending on other sites to engage in this activity. Again, these 
other DOE sites do have a continuing mission in the complex, and the 
development of these treatment and processing technologies is an 
appropriate role for them. For these sites, the role of OST in 
supporting longer-term activities would appear to be a wise investment.
    Another OST area paying off at Rocky Flats is the leveraging of 
funds from the Accelerated Site Technology Deployment (ASTD) and other 
Focus Area programs. These programs have prompted the use of certain 
technologies at the site that were on the edge of commercial 
availability. In Fiscal Year 1998, the site received $2.9 million from 
OST, and we expect that a total of about $3.65 million in OST funding 
will be allocated at Rocky Flats in Fiscal Year 1999. While the amounts 
are not large relative to the overall site budget, they have a 
significant impact ``on the margin'' in planning specific activities.
                   technology deployment at the site
    A sampling of some of the specific work activities at Rocky Flats 
is helpful in describing the range of technologies the site uses to 
accomplish these activities. Again, it is important to remember that at 
Rocky Flats, technology deployment is not an end in itself. Technology 
simply provides tools to get the job done. In most cases, the site 
identifies the need: for productivity increases, for additional worker 
protection, for solutions to technical problems, or for less costly 
methods of conducting procedures. Once that need has been analyzed, an 
appropriate technology solution is applied to the problem. In many 
cases, addressing a need in one area produces benefits in the others.
Size Reduction: Remote Operated Systems, High Efficiency Tools
    Process equipment from weapons production includes gloveboxes, 
tanks, chemical reactors, furnaces, machine tools, and pipe, valve and 
duct work. These materials, contaminated both radiologically and 
chemically, are to be stripped out of all buildings by cutting and 
packaging for off-site disposal. Current technical approaches include 
metal saws, nibblers, chisels, etc.; workers in very cumbersome 
protective clothing; complex air/fume controls; alarm systems; and 
direct contact with sharp pieces of radioactive metal. This can be very 
dangerous work. Many innovations in workspace design, equipment 
handling, and cutting techniques have been made, yet accomplishing a 
safer and less-costly acceleration of site closure still requires 
order-of-magnitude technology improvements. The Kaiser-Hill team is now 
instituting remote operated robotic work stations; containment/
ventilation/filter systems; and efficient hydraulic, torch, and 
possibly laser cutters. These technologies will enhance productivity by 
making the work much safer for the employees, and result in greater 
work efficiencies. OST has provided leveraging funds for the first 
stand-alone dual robotic platform (in Building 776), advanced hydraulic 
and torch cutters, a torch-head fume control system, and design of a 
high-throughput central station concept. These advances will have a 
dramatic impact on worker safety at Rocky Flats.
Characterization of Equipment and Buildings: Survey Instrumentation
    Characterization consists of the instrumentation, mechanics, and 
data management systems for measuring, mapping, and documenting 
radiological and chemical contamination. All process equipment and 
building components must be characterized: first for work planning, 
then for monitoring work progress, and finally for work release and 
property release. The requirements differ for all three stages, and the 
definition of what constitutes adequate characterization is a 
regulatory issue. The Kaiser-Hill team is pursuing technical 
improvements on all these fronts. For example, systems engineering 
analyses showed that decontamination could be avoided and disposal 
simplified in many cases by segregating transuranic (TRU) wastes from 
other low-level waste materials. These case-method decision models 
portend enormous cost savings throughout the DOE complex. The DISPIM 
(Decommissioning In Situ Plutonium Inventory Monitor TM) neutron-gamma 
system recently deployed in Building 771, with OST cost sharing, 
provides an image that displays the radioactive contamination inside 
gloveboxes and tanks. With this information, workers can plan the 
cutting so as to minimize exposure and maximize the packaging of TRU-
level pieces of process equipment to be disposed at WIPP, while the 
low-level waste can then be packaged and disposed at a much reduced 
cost at other facilities. Also, the SCM/SIMS (Surface Contamination 
Monitor and Survey Information Management System) system is being used 
to characterize entire walls in Building 779 where equipment has been 
stripped out. This system scans the walls automatically and identifies 
``hot spots'' for concrete removal work. The SCM/SIMS combines both 
conventional detectors and high sensitivity proportional counters; it 
was demonstrated at other sites with OST support before Kaiser-Hill 
acquired it through a commercial service provider.
Airborne Contamination Control: Fog n' Fix
    Airborne radioactive contamination levels in some rooms are so high 
as to preclude human entry for more than a few minutes--even with the 
most protective supplied breathing air suits. These so-called 
``infinity rooms'' required a work/support team of a dozen people for a 
single entry to drain process pipes or perform decontamination 
activities. The site has deployed a combination of a sugar/glycerin fog 
called Capture Coating TM, a fluorescent dye called Invisible Blue TM, 
and a poly-urea coating called Insta-Cote TM to capture and contain 
airborne radioactivity. Insta-Cote TM is an OST supported technology. 
The radioactive particles are settled out on room surfaces by the 
aerosol, after which a spray-on flexible plasticized layer is applied 
to enable workers to walk and work in the room without resuspending the 
particles. Air contamination levels are reduced at least ten- to a 
hundred-fold, resulting in much safer and faster work at significantly 
reduced cost. Additionally, the size of the work/support crew is 
reduced to four people, allowing more efficient use of employee 
resources. The performance of the fog has prompted other applications 
at RFETS. Its dispersive characteristics are superior to most fixatives 
and its adherence to surfaces makes it a candidate for coating process 
equipment of all kinds prior to size reduction.
Multi-Purpose Containers: Pipe n' Go
    Residues from weapons production processes contain plutonium and 
associated americium in amounts that require special handling, 
radiation shielding, and disposal at WIPP. In addition, the closure 
baseline specified stabilization treatment processes for over 50,000 
kilograms of ash, salt, and combustible residues before they could be 
packaged and shipped. Setting out to design a radiation-protective 
package, the Kaiser-Hill team ended up developing a complete storage/
shipping/disposal container system called the pipe overpack component. 
This pipe system is so robust with respect to safeguards and hazard 
conditions that it has since been certified by regulators for the 
shipping and disposal at WIPP of the majority of the site's residues 
without prior stabilization and with greater quantities of plutonium 
than previous drum packaging configurations. As a result, worker risks 
are dramatically reduced, costs associated with residue treatment are 
avoided, and the number of shipments to WIPP is reduced by at least a 
factor of four. This significantly extends the capacity of WIPP to 
accept TRU wastes from other sites. Further, all sites in the DOE 
complex can capitalize on the pipe component technology.
Groundwater Treatment: Passive Reactive Barriers
    Conventional groundwater remediation techniques involve active 
processing by recovery, physical-chemical and/or biological treatment, 
and recharge or surface water discharge. Cleanup typically takes 
decades. Closure by 2006 requires that servicing requirements for 
systems be minimized, and a passive technology was needed that would 
meet the water quality cleanup requirements for the site. The geology 
at Rocky Flats is such that contaminated groundwater plumes seep to the 
surface at a finite number of locations, where they can be confined and 
funneled to discrete ``reactors.'' These reactors are, in effect, sumps 
filled with appropriate reactive media designed to render the water 
safe for discharge. Discharge monitoring and occasional media change-
out are the only long-term requirements. This technological approach 
has been promoted by OST and two deployments have been co-funded by the 
Office. One is treating a plume contaminated with plutonium and 
volatile organics. A second system, using an alternative medium, is now 
being installed to treat uranium and nitrates. Instead of pumping and 
processing tens of millions of gallons of water over the coming decades 
at the site's water treatment plant, the plant can be shut down and 
removed at great cost savings. The water will continue to be collected 
by gravity and treated passively until its hazardous constituents are 
eliminated.
Shipping Certification: Non-Destructive Assay
    Materials assay is a little recognized but critical component of 
the cleanup process, as accurately measuring the amounts of material 
being transferred or disposed is not only an environmental issue, but 
an important nuclear safeguards issue as well. All wastes must be 
characterized and the containers documented/certified for acceptance by 
the appropriate disposal site, such as WIPP or the Nevada Test Site. 
With regard to radiological content, the amount of each isotope must be 
assayed to specified accuracy. To minimize exposure, assay methods are 
employed that do not require the container to be opened and waste 
samples extracted for laboratory analysis. Quantities are determined by 
counting decay events and/or heat release through the container 
surface. Computational models of the physics are needed to correct the 
measurements for internal shielding or interference by the waste 
itself. Such methods, while safe, have not been able to meet site needs 
for the high throughput rates and large dimension containers needed to 
stay on track with an accelerated closure schedule. In Fiscal Year 
1997, the Kaiser-Hill team pushed the technology envelope with a 
competitive procurement for a WIPP-certifiable drum counter on pay-for-
performance terms. A commercial firm succeeded in meeting the specified 
throughput rate. The next quantum step was to count SWB loads for 
shipping. The SWB is ten times larger than a drum, which greatly 
reduces the worker risk, time, and cost of size reduction, yet 
magnifies the engineering challenges and cost of counting and 
certifying the Box's radioactivity content. With OST co-funding, the 
site is again pushing the technology envelope by developing a Box 
counter that exceeds current commercially offered specifications in 
sensitivity and throughput rates. This system will be completed in 
Fiscal Year 1999, certified in early Fiscal Year 2000, and commercially 
released for deployment complex-wide at that time. In addition to the 
advantages in terms of size reduction work, the Box counter will cut 
the high costs of WIPP certification for radioactive-contaminated 
equipment sevenfold.
                               conclusion
    Technology deployment has been, and will continue to be, an 
important component of enhancing worker safety and nuclear safeguards, 
increasing productivity, and realizing cost efficiencies at Rocky 
Flats. The site's partnership with OST has provided leverage to deploy 
some of the innovative solutions we need to accelerate the cleanup work 
at Rocky Flats. OST is one of the many ways in which we seek out and 
use technology at the site.
    The pay-for-performance nature of the DOE/Kaiser-Hill contract at 
Rocky Flats provides the fundamental incentive for us to aggressively 
pursue technical innovation, and the DOE employees of the Rocky Flats 
Field Office have proven to be skillful in linking performance measures 
to those activities that will provide the greatest return on 
investment--those most likely to accelerate the closure date. Since the 
site closure takes a project approach, and performance measures are 
tied to the critical path and to safety, project managers are 
incentivized to employ innovative technology to complete their projects 
on schedule and on budget. There are further incentives in the contract 
to exceed these objectives--to come in ahead of schedule and under 
budget. From this standpoint, technology is not only a method to 
reaching a specific project ends, but it is also a means to 
accelerating closure.
    The overall result of performance-based contracting at Rocky Flats 
is that the Kaiser-Hill team has reduced the estimated cost of cleaning 
up Rocky Flats from about $37 billion when the contract was initiated 
to about $7 billion under the current plan, without changing the end 
result. Technology has made and will continue to make an important 
contribution to safety and productivity at Rocky Flats. Since much of 
the technical work at RFETS is being done for the first time anywhere 
and under an accelerated schedule, the technology integration process 
is a necessarily dynamic and interactive activity. The results are 
helping steer the Rocky Flats site toward its closure with increased 
worker safety, enhanced performance, and significant taxpayer savings.

    Mr. Upton. Thank you very much. Mr. Peterson.

                TESTIMONY OF RONALD G. PETERSON

    Mr. Peterson. Thank you, Mr. Chairman. Please note that we 
have submitted a report for the record, and I would like to 
give a short summary in my time allotted.
    Mr. Upton. That would be just fine.
    Mr. Peterson. I am Ron Peterson, and I head up the 
responsibility for the Government business at Fluor 
Corporation. So, the Fernald site in Ohio is a part of what I 
watch over as well as the Hanford site in the State of 
Washington. I think on those two sites, certainly, we do have a 
first-hand knowledge of the application of technology, and if I 
could, I would like to give a brief summary of those two.
    At Fernald, we have been managing that site since 1992. So, 
over the past 7 years, we have deployed around $20 million in 
OST funds, and with those deployments, which have ended up in 
around 22 technologies being applied over this 7-year period, 
we have estimated the savings in the $100 million range. One 
could conclude, however--I would like to mention one of those. 
We do have a water injection system which has allowed us to 
accelerate the closure from 2019 to 2006. That 15 years has a 
documented savings of $3.1 billion, so one could push the fact, 
I would suppose, that $20 million has really been the linchpin 
of driving that closure. But, in any case, we have documented 
that single one in the $100 million range.
    At Hanford, the spending on technology issues is somewhat 
higher. It is around $10 million. In the 2 years that we have 
been managing that site, we have deployed 11 demonstrations and 
4 deployments, mainly in the tank waste area which we have 
talked a little bit--177 underground storage tanks in the 
decontamination, decommissioning area and then also, third, in 
the solid waste area.
    I think the approach to innovation and technology at these 
sites in particular I think is very important in that more 
often than not, the things that we are asked to do are 
typically first of a kind. There are no known technologies. A 
company like ours and those of my colleagues deal in R&D kinds 
of things often and will apply commercial practices where 
applicable. Our problem at these sites, so often, it is one of 
a kind. And, so the choice that we have is either do it in an 
R&D setting or do it in what one might term a production 
setting, and we certainly think that the former is a smarter 
way to do it.
    In terms of recommendations, I, too, would have three 
recommendations in the application of these funds in 
technology. No. 1 would be, let us really do it in a problem 
driven kind of way. Let us apply the dollars, technology, and 
brain power in an applied versus a pure research way, because 
we do have, certainly, a host of problems to deal with.
    No. 2, in some fashion, let us ensure the surety in the 
schedule of funding. It is very, very difficult and frustrating 
to get 80 percent of distance down the road of development and 
deployment only to find out that the schedule gets slipped or 
funding gets cut.
    No. 3, and, finally, I think that we need to put a lot more 
effort into a well thought out programmatic plan as we launch 
off on some of these things and less of a shotgun year-by-year 
approach to it.
    That pretty concludes my summary of that. Thank you.
    [The prepared statement of Ronald G. Peterson follows:]
 Prepared Statement of Ronald G. Peterson, President, Fluor Government 
                      Services, Fluor Corporation
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to address the Committee's 
concerns regarding the Department of Energy's (DOE) deployment of 
environmental cleanup technologies. As the management contractor at two 
major Department of Energy clean-up sites, Fernald and Hanford, I have 
witnessed first hand the application of technology in the ``cleanup'' 
process.
    As a company, Fluor Daniel has a long tradition of executing large 
complex projects for industry and government clients worldwide. We are 
the first Management and Integration (M&I) contractor for Project 
Hanford, as well as the first ERMC or Environmental Remediation 
Management Contractor at the Fernald site in Ohio. Both of these unique 
contracts are performance-based. They are designed to implement 
commercial practices and applications, and to show a new, improved and 
more disciplined way of doing business. Utilizing innovative 
technology, as well as new management practices, is a vital part of our 
plan to accomplish these missions.
    In the past seven years as a major DOE contractor, our experience 
in utilizing and deploying technology, as well as our experience in 
working with DOE's Office of Science and Technology (OST) has generally 
been positive. Like any major undertaking there is always room for 
improvement--on our part, as well as on the part of others.
    Overall, we believe it is fair to say that projects supported by 
the OST have had a very positive impact on costs and schedules at 
Fernald and Hanford. Additionally, the contracts under which we work 
have further encouraged us as contractors to seek new and improved 
technologies to accomplish our missions.
    Prior to submitting our proposal for the contract at Fernald, we 
were aware of the potential significant role that innovative technology 
could play in ensuring that clean up could be performed in a safe and 
more efficient manner. Fluor Daniel brought a similar understanding to 
Project Hanford. Both Fluor Daniel Fernald (FDF) and Fluor Daniel 
Hanford (FDH) are dedicated to utilizing innovative technology to 
support the overall clean-up mission by working with project managers 
to identify and deploy new, technologies for safer, less costly, and 
faster remediations. Fluor Daniel's recognition of the importance of 
technology development and deployment has resulted in the establishment 
of a proactive approach which identifies opportunities for innovative 
technology consideration and receives some funding from OST.
    Fluor Daniel Fernald manages its basic Technology Programs 
activities with funds from its prime contract with DOE. We regularly 
identify technology needs and seek solutions for them from DOE, other 
government agencies, universities, and the private sector, including 
approaches used by subcontractors. We believe that there are proven 
approaches for most stabilization and remediation requirements, however 
we are always investigating new technologies that can be implemented 
within the scheduled time frame to improve safety and efficiency at our 
sites.
    Since assuming responsibility for the Fernald Environmental 
Management Project (FEMP) in December 1992, the site has received 
approximately $22 million from OST. It is estimated that 25% of these 
funds were passed through FEMP to national laboratories to support the 
FEMP-administered DOE programmatic led initiatives. The projects 
supported at FEMP have included; Integrated Demonstrations, Individual 
Technology Demonstrations, Large Scale Demonstration and Deployment 
Projects, and Accelerated Site Technology Deployment (ASTD).
    As a result, Fluor Daniel Fernald has deployed 22 technologies, 19 
of which are listed in the DOE Technology Management System. Some of 
these, such as the oxy-gasoline torch and personal ice-cooled suits, 
have also been deployed at other sites. We estimate that the potential 
savings from the technologies deployed to date exceed $100 million.
    The Project Hanford Management Contract (PMHC) team under FDH 
leadership was designed to ensure that best-in-class contractors were 
aligned with the appropriate work scope. In part, this contracting 
approach was designed to ensure first hand knowledge of work practices 
and state of the art technologies to perform the work efficiently and 
cost effectively. The technology efforts under the PHMC are integrated 
under a Technology Management (TM) organization. This organization is 
aligned with the various project organizations and reports directly to 
the Executive Vice President and Chief Operating Officer. To ensure 
alignment with the OST, Fluor Daniel Hanford has co-staffed the TM 
organization with staff from the Pacific Northwest National Laboratory 
under a formal Memorandum of Understanding. Additionally, Numatec 
Hanford Company, a subsidiary of the French companies SGN and Cogema, 
has been integrated into the project team to identify opportunities to 
deploy technologies with a proven history of successful application in 
the French nuclear industry.
    At Fernald we have been involved in OST programs since 1992, and 
have witnessed a transition from an emphasis on demonstrations through 
the OST formation of Focus Areas, to the emphasis on deployment. With 
this transition, FDF witnessed and encouraged a change from a 
technology provider-driven program to a site needs-driven approach. We 
support DOE at the FEMP through the Site Technology Coordination Group 
that represents the end users, as well as stakeholders and regulators, 
in determining needs and seeking solutions. We believe that the switch 
to a needs-driven and deployment-emphasized approach is making OST more 
valuable to closure sites. At FEMP, more than half or 11 out of 19 
deployments supported by OST occurred in 1997 and 1998. The OST system 
and FDF have improved with time.
    Fluor Daniel Hanford, on the other hand, has only been involved 
with OST since 1997, but has established a technology program that is 
driven by the needs of the projects. The Project Hanford Management 
Contractors have in their first two years successfully demonstrated 21 
technologies and deployed 29 others, with plans to complete 8 new 
technology demonstrations and deploy 14 more technologies in the 
current fiscal year. These successes can be attributed in part to the 
fact that the PHMC has been incentivized through Performance Agreements 
and/or Performance Expectations to demonstrate and deploy new 
technologies.
    The impact on our projects has been substantial and our current 
focus is on project enhancements that will tie technology investments 
to risk. One example of high technical risk at Hanford is associated 
with the retrieval of high level waste from underground storage tanks. 
In partnership with the OST, under the Hanford Tanks Initiative (HTI) 
project, a number of promising retrieval technologies were evaluated. 
The HTI utilized a novel approach to simultaneously develop effective 
technology and qualify industrial suppliers to retrieve wastes from the 
Hanford tanks. Several commercial vendors competed in a two-phase 
(design/demonstration) procurement, which provided the capabilities and 
experience of the national laboratories at no cost to the project, and 
yet preserved the business secrecy and competitive position of the 
commercial enterprises. This unique arrangement effectively utilized 
the investments DOE had made over several years in basic technology, 
and qualified four vendors for waste retrieval.
              historical evolution and involvement of ost
    Early technology efforts at the FEMP were centered on the Uranium 
Soils Integrated Demonstration (USID) which had been funded by OST 
under the predecessor contractor. The USID was a program to treat 
uranium-contaminated soil in a cradle-to-grave approach. This early 
work eventually led to the success under the ASTD program of real-time 
characterization, and treatment of uranium contaminated soil. A soil 
washing pilot plant was constructed in conjunction with the FEMP 
Operable Unit 5 (OU5) and testing was done to support the Remedial 
Investigation/Feasibility Study (RI/FS). Although the results did not 
indicate that soil washing would be effective in treatment of soil at 
the FEMP, the work was then used in the RI/FS as part of the 
justification for selection of the preferred alternative. The work 
funded in part by OST was valuable in determining a final remediation 
strategy. The equipment used in the soil washing treatability studies 
was then transferred to the DOE Ashtabula Environmental Management 
Project for utilization.
    Beginning in 1995 FDF's technology efforts involving OST changed 
from a strategy of investigation and early stage technology development 
to a strategy focused on demonstration of mature technologies directly 
supportive of site closure, followed by implementation and deployment. 
In 1995 a demonstration and deployment proposal was made to OST to 
investigate the use of solution mining techniques to remediate an 
aquifer beneath the FEMP. A determination was made that a main 
component of solution mining was worth pursuing as a means of 
accelerating completion of the aquifer remedy. In 1995 and 1996 two 
tests of groundwater re-injection were conducted. The small-scale tests 
showed that aquifer geochemistry could be managed and re-injection had 
potential for accelerating completion of the aquifer remediation remedy 
at the FEMP. Modeling simulations were conducted, and it was determined 
that re-injection used in conjunction with an optimized groundwater 
extraction strategy could potentially shorten the aquifer remediation 
by 17 years. The optimized site groundwater remediation strategy has 
the potential to produce savings of $40-50 million.
    This cost savings represents a return on investment of about 8:1. 
The Fernald site and OST jointly are funding a full-scale demonstration 
of remediation using ground-

water re-injection. The demonstration has been operating for six months 
and to date, the results look promising. The value to Fernald of this 
type of development work supported by OST was that the work could not 
be budgeted in a site undergoing remediation and striving to meet 
regulatory milestones. If OST had not been available as a means to 
jump-start promising ideas outside of the box, this work and the 
subsequent cost cutting may never have been achieved.
    The re-injection project marked a change in the way OST was 
involved in the conduct of technology projects at the FEMP. The OST 
program administered funding and program management, but the direction 
of technical efforts were determined at the site by FDF and DOE 
management. OST management directly supported accelerated remediation 
and agreed to construct a full-scale demonstration system in the heart 
of the groundwater contamination plume, so that when re-injection is 
shown successful the equipment will then be used for the balance of the 
remediation.
    The overall effect on the Fernald baseline from numerous 
improvements, including key enhancements from the groundwater injection 
enabling technology, in conjunction with other improvements, have led 
to compression of the Fernald baseline from the year 2019 to the year 
2006, and a cumulative budget reduction of $3.1 billion.
    We have also conducted a Large Scale Demonstration and Deployment 
Project in conjunction with the Decontamination and Decommissioning 
(D&D) of the FEMP Plant 1 Facility. The objective was to find promising 
technologies that were ready to be tried in the field and compare them 
under real field conditions to our project baseline D&D methods. A cost 
benefit analysis was done comparing each technology demonstrated to its 
corresponding baseline method, and the projects benefited.
    The following technologies were identified as superior methods for 
D&D work: the oxy-gasoline torch for steel cutting; the Vecloader HEPA 
vac for insulation and other debris removal; centrifugal shot blasting 
for removal of contamination in concrete floors; and the Personal Ice 
Cooled System for personnel safety and improved efficiency for workers 
wearing anti-contamination clothing in high heat stress working 
conditions.
    The Accelerated Site Technology Deployment program has also moved 
promising technology efforts to the field. Early work, as part of the 
USID, did comparisons of the results of measurements made with real-
time uranium characterization instruments on contaminated soil. The 
knowledge gained in the 1997 tests resulted in real-time instruments 
being considered for soil characterization and was deployed in 1998 and 
1999.
    In 1997, FDF submitted a proposal to integrate real-time 
instruments with Global Positioning Systems (GPS) to produce area 
contamination survey maps in one half-hour. This allows field crews to 
work without a three to seven day delay waiting for sampling results. 
The ASTD program allowed us to tap into the resources of two national 
labs to focus on the problems of system and software integration. To 
date, the real-time methodologies are acceptable to regulating agencies 
for all measurements; except those for final certification for an area 
that has been remediated. The OST investment was $2.4 million, while 
the savings are estimated at $34 million.
    Another example of an ASTD project for deployment is the Personal 
Ice Cooling System (PICS). The PICS is being used at several other DOE 
sites. The PICS circulates ice water through tubing in undergarment-
like clothing using interchangeable bottles that can be replaced 
quickly. This improves worker productivity by allowing them to work 
safely for longer periods of time in high heat stress areas. 
Information and several PICS units were transferred from Fernald to end 
users at the Nevada Test Site and Hanford. As part of the ASTD project 
trial, sets of the PICS will be given to each site for their use in 
developing their own deployment strategy.
    The oxy-gasoline torch is another example of a new tool that is 
being used as a result of the Large Scale Development and Deployment 
Project. The oxy-gasoline torch is used for steel cutting operations. 
Using gasoline for fuel at one-tenth the cost, the oxy-gasoline torch 
is particularly effective when utilized on thick steel and cuts twice 
as fast as the baseline method. These torches are currently being used 
at six DOE sites.
    When Fluor Daniel was chosen as the M&I contractor for Hanford in 
1997, the team had a commitment to successfully demonstrate and deploy 
new technologies. Since FY 1997, the OST program has provided PHMC with 
approximately $22 million to support over 15 technology and deployment 
projects. OST funding has enabled eleven technology demonstrations and 
four deployments.
    The successful OST funded deployments include; Laser Ablation/Mass 
Spectrometer System, Macro-encapsulation of Mixed Waste Debris, Tank 
Corrosion Sensor Monitoring, and Inductively Coupled Plasma/Mass 
Spectrometer.
    The Laser Ablation/Mass Spectrometer (LA/MS) was deployed at 
Hanford to analyze highly radioactive samples extracted from waste 
tanks. The LA/MS was used to quickly analyze the mass distribution of 
metal components in a waste sample that has been split for detailed 
analysis. The data obtained from the LA/MS has proven successful in 
identifying partially blended samples that are not homogeneous and 
require further blending to ensure that the sample is representative of 
the larger primary sample. The use of the LA/MS has enabled us to 
develop a better understanding of tank waste characteristics, including 
chemical and radionuclide composition.
    In 1997, the macro-encapsulation of mixed waste debris took place. 
Over 880 drums of hazardous mixed waste debris were size-reduced 
(achieving approximately a 75% volume reduction) and encapsulated in 
high-density polyethylene tubing for long term disposal in Hanford's 
low-level burial ground. This demonstration was very successful.
    Two other significant initiatives have also taken place between 
1997 and 1999. The first is the tank corrosion sensor deployment. 
Corrosion of the tank walls is a serious concern for the underground 
storage tanks at Hanford. These tanks store radioactive waste as a 
result of plutonium production for 50 years. Deployment of improved 
corrosion sensors resulted in a significant cost saving by minimizing 
chemical additions necessary to adjust the pH of the tank waste, 
therefore minimizing the volume of tank waste to be treated by 
privatization.
    The last initiative represented is the Inductively Coupled Plasma/
Mass Spectrometer (ICP/MS). The ICP/MS can simultaneously measure 
elemental (more than 70 elements) and isotopic information in a waste 
sample. The technology provides nearly complete chemical and isotopic 
information from a single analytical technique and offers analysis with 
lower detection limits for long lived isotopes.
    As stated earlier, the PHMC is planning to complete eight 
technology demonstrations and deploy 14 technologies during FY 1999. 
For this effort, OST has provided Fluor Daniel Hanford and its 
subcontractors with about $4 million to support technology development 
and deployment in the areas of tank waste, deactivation and 
decommissioning and solid/mixed waste management.
    In support of tank waste retrieval efforts the PHMC team plans to 
deploy three technologies this fiscal year. The Enraf Densitometer will 
be used to provide tank sludge layer interface location and sludge 
density information. Additionally a versatile variable speed new 
generation waste transfer pump will be deployed that fits most waste 
transfer pumping applications and a soil sampler will be used to gather 
samples from the contaminated vadose zone at SX farm.
    In support of the Tank Waste Remediation System (TWRS) Operations 
the PHMC team plans to deploy 7 technologies in FY99. Three 
technologies provide tank and transfer line leak detection capabilities 
and the multifunction corrosion probe will provide data to enhance tank 
integrity and life extension data. New continuous air monitors will 
reduce cost while making the site safer for workers. The Saltwell 
Portable Exhauster is flammable gas qualified for tank pumping and the 
Slimhole Neutron/Gamma Probe will provide changes in moisture and 
identify the liquid surface beneath the growing crust in tank 101-SY.
    The Plutonium Finishing Plant (PFP) Gloveport Monitor will be used 
to support Facility Stabilization at the PFP. This technology will 
permit plutonium-containing items in gloveboxes to be individually 
assayed without the time consuming seal-in seal-out process. This 
represents a significant cost and worker safety improvement.
    There are also plans to deploy three technologies this year to 
support Spent Nuclear Fuels. The Fuel Retrieval System will remove and 
clean fuel elements from K Basins. Two technologies, the Integrated 
Water Treatment System and the enhanced Thermo-gravimetric Analysis 
Instrument will be used to remove particulate debris and for treating 
the sludge from K Basins.
                       incentives and initiatives
    Both the Hanford and Fernald contracts, although different, require 
Fluor Daniel to undertake initiatives for the utilization of new 
technology. We have also established programs and organizations to 
encourage staff and other site contractors to utilize innovative 
technologies. Both FDF and FDH search widely for innovative solutions, 
including those from industry as well as from the DOE. We conduct 
demonstrations of technologies in actual project conditions, evaluate 
the results, and foster the deployment of successful technologies. For 
example:

--The Technology Programs Department at the Fernald site supports all 
        the projects in determining technology requirements to expedite 
        remediation in a safer and faster approach that also reduces 
        costs.
--Fluor Daniel Fernald initiated efforts to include within the site 
        Records of Decision a commitment to continue to seek innovative 
        technologies throughout the closure effort.
--Establishment of a Technical University Program that involves 
        personnel from local and minority universities in assisting in 
        the identification, development, and demonstration of potential 
        innovative solutions.
--FDF supports OST in its deployment efforts by providing cost-sharing 
        for technology demonstrations and deployments and supporting 
        participation with DOE Headquarters technology initiatives.
--Making lists of applicable new technologies available to potential 
        subcontractors for their potential use.
    DOE Hanford also has incentives to assist in promoting the 
deployment of new technologies. In addition to the ASTD program at 
Hanford, additional incentives include:

--Performance based contracting incentives implemented through 
        Performance Agreements and Expectation Plans to encourage the 
        application of alternative technologies that improve project 
        baselines.
--Technology planning efforts including the identification of 
        Technology Insertion Points (TIPs) and technology needs are 
        incentivized. TIPs are the key technology decision points that 
        represent an opportunity to insert technology to enhance the 
        baselines. These key decision points are tracked and reported 
        as DOE milestones.
--Incentives for the application of alternative technologies include 
        technology demonstrations and deployments.
    Fluor Daniel also is supportive of efforts underway to evaluate and 
encourage the participation of small businesses. Some examples are:

--Working with Petrogen, inc. for wide-spread deployment of the cost-
        cutting oxy-gasoline torch by working with the union training 
        coordinators, vocational schools and from other DOE sites.
--Working with Concrete Cleaning Incorporated, the vendor of 
        centrifugal shot blasting, from the demonstration phase (at a 
        competitive evaluation of similar technologies conducted at 
        Florida International University) through the deployment stage 
        at Fernald.
--Employing Terra Kleen to work on a process to treat tri-mixed wastes. 
        Although the process was not capable of treating all waste 
        forms, the effort showed the support from OST on high risk 
        projects.
--An ASTD project has been used to involve a small business 
        subcontractor in the use of innovative dismantlement 
        technologies for D&D at the FEMP site.
--Currently investigating technologies from two companies that could 
        provide pre-treatment to improve the operation of the Advanced 
        Wastewater Treatment facility.
               summary, recommendations, and conclusions
    Technology has played a key role in our success to date at Fernald 
and will play an ever increasing role at Hanford. Projects supported by 
OST have had a substantial impact on baseline costs and schedules. Our 
general observations, conclusions and recommendations include the 
following:

--The initial investment in demonstrations by OST is paying off. 
        Technologies that were demonstrated in the mid-nineties are now 
        starting to be used.
--While not every initiative has been successful, OST has provided 
        support that has helped identify and deploy needed 
        technologies.
--OST has provided the funding for deployment of high-risk approaches 
        which could not have been supported from other funding sources.
--The ASTD program has been successful in deploying technologies, but 
        it could be improved by making a portion of the funds available 
        directly to the sites. This would permit a site to deploy 
        technologies in a more timely fashion instead of relying on the 
        periodic proposal requests and the uncertain timing of funds 
        from OST.
--The OST programs should be even more ``end-user'' driven. The local 
        DOE and site contractor personnel have a greater understanding 
        of each site and its unique needs. Programs without clearly 
        identified end-users should be minimized or eliminated.
--OST is currently reorganizing to better serve the sites. In these 
        efforts, OST should solicit input from the sites.
--OST could better serve the needs of the site by developing a program 
        that provides immediate service to the site focusing directly 
        on the technical problem in the field.
--OST should continue to fund development of technologies that are 
        necessary for problems that are unique to DOE, such as high 
        level wastes and tanks.
--OST should use its funding to provide up-to-date information on 
        commercial availability of potential technologies.
--OST should concentrate on deployments, especially at the closure 
        sites. Funding support should be based on an anticipated return 
        on investment.
    In summary, while Fluor Daniel believes that there are proven 
approaches for remediation for most of the problems at the sites, we 
continue to investigate new technologies that can be implemented within 
the time frame of our projects to improve upon our projected baseline. 
In addition to working closely with the DOE, we broadly distribute the 
technology needs statements for all our projects and encourage 
innovative ways to engage industry in solving these important issues.

    Mr. Upton. Thank you very much.
    Mr. Gallagher, I noted that the record shows that 
Westinghouse has deployed relatively more OST-funded 
technologies at Savannah River compared to other sites. Why do 
you think that is the case?
    Mr. Gallagher. I think, in part, Mr. Chairman, it is 
because we have a science and technology center that is run by 
Dr. Wood--who I brought with me this morning, and I appreciate 
you allowing that to happen--and the fact that we have a focus 
there under her cognizance that has a cadre of scientists that 
are devoted to looking at the technology needs, interacting 
with the programs at the site in a very close linkage that 
makes that happen.
    Mr. Upton. And do the other project sites not have someone 
like Dr. Wood? We have been talking about cloning in a couple 
of the other panels that we have, but wouldn't that be part of 
a function of the other major contractors at all these sites?
    Mr. Gallagher. Well, I think it depends on the particular 
sites. Other sites, those large sites like Hanford, has Bechtel 
Northwest as a scientific arm for that particular site, but 
other sites may not have a need like, for example, our West 
Valley site or WIPP site does not have that specific need.
    Mr. Upton. Mr. Peterson, how does Fluor do with regard to 
having OST technology?
    Mr. Peterson. Jim mentioned PNML, which is a division of 
Bechtel Laboratories, but we also have internal field corps at 
the Hanford site and Office of Technology, as well. We have a 
Dr. Anderson who has been running that. Probably, the majority, 
however, goes to Bechtel Labs as far as its development.
    Mr. Upton. Would you say that the Department of Energy has 
been a positive force in trying to influence OST technologies 
coming into play? Have they been a main player in terms of 
trying to influence or encourage that type of activity?
    Mr. Peterson. I think they have. The two areas that you 
have heard somewhat about in earlier panels was the ``K Basin'' 
issue where the characterization of the spent reactor fuel that 
is in there, and, second, the robotics method in which it has 
to be moved, is a very high priority of the DOE. And, so my 
opinion is that they have been very supportive. The second area 
that you have heard some about is the tank farm and the 
characterization and ultimately the movement of that to make 
preparations for the privatization piece which ultimately will 
vitrify that liquid, mainly waste.
    Mr. Upton. Mr. Card, I know that we are all pleased to know 
that 2006 is coming and it is close, and I guess the release 
that was made on Friday is certainly encouraging news. But as 
we sort of focus on OST technology, I know that Rocky Flats has 
less 10, I think, technologies that have been used there. What 
would be the reason for that, do you suppose?
    Mr. Card. Well, I think there is a couple. First of all----
    Mr. Upton. And are they a part of the new plan that you 
announced on Friday.
    Mr. Card. Well, the baseline does include whatever 
technologies we view are appropriate to meet that 2006 
timeframe. I would cite a couple reasons. One is, I think, if 
you look at the original mission of OST, it was to work on the 
more intractable, long-range problems. Frankly, if you look at 
the list of OST technologies, hopefully, we are going to be 
done before many of them will be deployable, and, furthermore, 
Rocky Flats is gifted in a way in that all of our ground water, 
which comprises a large number of the OST suite, emerges as 
surface water onsite, which, by the way, one of the OST 
technologies we have applied is a passive treatment system for 
that ground water before it emerges. So, I just view Rocky 
Flats as, as I said, more of a management and systems 
integration problem than a problem you see at these other 
megasites, like Savannah River and Hanford and Oak Ridge where 
you have the very large problems that people haven't even 
figured out quite what to do yet.
    Thank you.
    Mr. Upton. Thank you. Ms. DeGette.
    Ms. DeGette. Thank you, Mr. Chairman.
    Following up a little bit, we heard from the last panel and 
others that you don't want to use technologies developed by 
some of these small vendors and other folks. I am wondering if 
any of you who wish would like to comment on that?
    Mr. Gallagher. I will comment first. Mr. Schofield 
mentioned the initial demonstration of his technology to a DOE 
site was done at the Savannah River, and we did a separate 
evaluation and determined it was cost effective. I can tell you 
that we have looked over the technologies that we have applied 
at Savannah River for all the programs, and over 65 percent of 
these technologies that have been applied at the Savannah River 
site are from commercially available technology and not self-
developed or through the OST Program.
    Ms. DeGette. If it was effective, then why didn't you use 
it?
    Mr. Gallagher. You mean, additionally at Savannah River?
    Ms. DeGette. Right.
    Mr. Gallagher. Well, as Dr. Schofield mentioned, there was 
additional applications for his technology at Idaho and there 
limited applications at Savannah River. Dr. Wood might be able 
to comment more specifically on that.
    Ms. Woods. The technology was demonstrated as part of a 
integrated demonstration program at Savannah River which 
demonstrated a very wide suite of technologies that may be 
available across the DOE complex. One additional commercially 
available technology was selected from that suite for use at 
Savannah River. It was actually being implemented when the 
second technology was demonstrated.
    Ms. DeGette. Okay. Would any of the rest of you like to 
comment on that?
    Mr. McIntire. If I could just comment on the issue of 
whether we like to develop our own technologies or use somebody 
else's. We don't develop our own technologies, so we have to 
rely on other technologies either from the labs or through 
bids. I want to men-

tion Oak Ridge M&I, too, is a--you know, the DOE keeps moving; 
they keep learning from the past, and we are going into a 
different stage, too, and we are not just maintaining like we 
used to do. We are now tearing down, cleaning up, so they are 
learning, and they are using different contracting vehicles. 
The Oak Ridge M&I is a job where we are doing none of the work 
ourselves. We are just managing it, and we are putting up 94 
percent of the revenue all out in subcontracts. There are 150 
RFPs out on the street over a 12-month period. Each one of 
them, they are asked to use technology. Most of the jobs are 
lump sum for a fixed price, so they have to use technology; 
they have to take risks. So, I don't think we have the metric 
shut to see how successful this is going to be, but it is--
anyway, on the question, do we like to develop our own, and we 
don't want to any help? It is 180 degrees the other way.
    Ms. DeGette. So, you disagree with that?
    Mr. McIntire.   
    Ms. DeGette. Okay.
    Mr. Card. First of all, Kaiser-Hill, we have consistently 
exceeded our small disadvantaged business goals, winning the 
Secretary's Award in 1997; being rated as highly successful by 
the SBA in 1998. I empathize, though, with the plight of the 
gentlemen who were up here earlier in that the process is long-
term. Let me just take two specific examples for Rocky Flats. 
The gentleman from BIR, we were very interested in that 
technology, but, as I think he alluded to, WIPP waste 
acceptance criteria were a gold-plated, certified measurement 
system; that is very expensive to develop. Even if you have the 
technology to go through the paperwork, that is a very 
expensive process, and I think he mentioned that he was nearly 
there and his contracted was terminated at another site. I 
think for low capitalized businesses, it is a very tough thing.
    The other example was the surface radiation measurement 
system. We continue to be very interested in that. However, our 
job at Rocky Flats is to eliminate the need for technologies by 
eliminating the work altogether, and we dramatically changed 
our approach and focused on more contaminated buildings after 
talking with that firm. We are still very interested when we 
get to the more lightly contaminated areas where that 
technology would have better application, but that is probably 
now, frankly, 12 plus months out, and the question is how can 
they maintain their business while we are waiting unless we are 
instructed to subsidize in the meantime which is not our 
current instructions.
    Ms. DeGette. Okay. Did you have something, Mr. Peterson?
    Mr. Peterson. I would also disagree with the premise that 
says we like to develop in-house, on our own. First of all, we, 
like Bechtel, are not a science company, we are an engineering 
company. No. 2, 100 percent of the profit that we make is based 
upon meeting schedules and meeting cost numbers. If we don't do 
those, we make no corporation profit, and we will take whatever 
technology is available to help us do that.
    Ms. DeGette. Okay. Let me quickly, with consent of the 
chairman, go back to a couple of specific questions relating to 
the last panel, and, Mr. Card, since you are my pal, I will 
pick on you, and, by the way, we were all happy to see your 
announcement last week, as well about 2006.
    Mr. Card. Timing of the change was a good one then.
    Ms. DeGette. Yes, yes, at least for us.
    In your written testimony, you said that you need 
additional technology improvements in surveying and measurement 
of the contamination out at Rocky Flats, and I am wondering if 
you heard Mr. Kotrappa testify about his technology to measure 
low levels of uranium, plutonium, and other alpha-emitting 
contaminations, which was field tested at Oak Ridge and was 
presented, as I understand, to Rocky Flats in November. I am 
wondering what your response to that is and why they still 
haven't heard back from you folks on their proposal?
    Mr. Card. Well, I am not sure they--we put out two bids--
there are about three parts to my answer--we put out two bids 
for this technology, and it is my understanding that, for 
whatever reason, they did not submit a bid on the first one, 
which is mobil containers, and, as Congressman Burr noted, the 
successful bidder has a no bricks and mortar trailer with their 
name on it. The drugs go in one way and come out measured and 
nobody opens them. Even though it may be older, it meets the 
bid specs. There was another bid we put out for larger 
containers, waste crates, and it was my understanding their 
technology was attractive and certainly within the competitive 
range. The cost was significantly out of line, for whatever 
reason, on that technology. Our bigger problems, frankly, are 
in the residues, which are higher levels of contamination, and 
we have very complex matrices. But what I would like to do is 
go ahead and submit a one-page write-up to the committee on our 
analysis of BIR and where they have been through our process.
    Ms. DeGette. Yes, because Mr. Kotrappa was focusing on the 
other vendor----
    Mr. Card. Canberra, BNFL, and Amtech are the primary 
international competitors, and all of them work at Rocky Flats.
    Ms. DeGette. Rad Elec is the one that you are talking 
about. So, if you can get us a written answer, that would be 
helpful.
    And then, I am wondering if, Mr. McIntire, you can comment 
on this technology, as well?
    Mr. McIntire. I was waiting for Congressman Burr to ask me 
about Bio-Imaging, but you want to ask about which technology?
    Ms. DeGette. Well, I am sure Congressman Burr will have 
several fabulous questions.
    Mr. McIntire. Okay. Could you rephrase your questions, 
please?
    Ms. DeGette. Yes, I would be happy to. The technology that 
Mr. Kotrappa was testifying about on the technology they have 
to measure the low levels of uranium, plutonium, and other 
alpha-emitting contaminations in soils and surfaces.
    Mr. McIntire. I can't comment at this time. I am sure I can 
get back to you on it. I have got some notes here, but it would 
take me 15 minutes to figure them out.
    Ms. DeGette. To figure it out, okay. Thank you. Mr. 
Chairman, I will yield back.
    Mr. Upton. Thank you. Mr. Burr?
    Mr. Burr. I will try not to disappoint my colleague's 
confidence in me.
    Really, I am sort of lost as to where to start. Let me 
start here. To each of you, do you think we can achieve a $20 
billion life-cycle cost savings with the use of OST technology? 
Mr. Gallagher?
    Mr. Gallagher. I think that we can't do it with OST 
technologies alone. I think we, as I mentioned in my testimony, 
must look at universities, commercial vendors for innovative 
technologies. The process that we have, Congressman, is that 
for each of one our technology projects, we have a baseline 
which has a schedule and cost and a baseline technology. Then, 
when we come across an innovative technology that can reduce 
the cost and the schedule, then we evaluate that and, with Dr. 
Wood's organization at Savannah River, make that evaluation and 
decide then whether or not to proceed with the new innovative 
technology.
    Mr. Burr. The answer is there is not enough confidence that 
OST technology can do it alone.
    Mr. Gallagher. You have to use others.
    Mr. Burr. Mr. McIntire?
    Mr. McIntire. I don't think I would say there is not enough 
confidence in the OST. I think the process in DOE is looking at 
all avenues. I will mention the M&I again; I think----
    Mr. Burr. Do you believe they can get $20 billion of 
savings through this effort?
    Mr. McIntire. Not alone, but they are not trying to just do 
it alone. They are trying to open it up to other avenues, too, 
and we are looking at all avenues of technology. I think we 
need to look at everything.
    Mr. Burr. Mr. Card?
    Mr. Card. Obviously, there is not $20 billion left at Rocky 
Flats, but a thing that we have been working with Mr. Boyd's 
office on, which is promising, is co-funding of technologies 
that we need now but we need some seed money to test out, and I 
think, certainly, for a site like Rocky Flats, that kind of 
approach would be more fruitful than long-lead technology 
development.
    Mr. Burr. Mr. Peterson?
    Mr. Peterson. I believe that the implementation of 
innovation and technology will far exceed a $20 billion savings 
if you really look at a $200 billion to $250 billion cleanup 
problem. It is difficult for me, however, to say what OST's 
input and piece of that is, but it will take innovation, and, 
as we do that, there will be big savings as a result.
    Mr. Burr. So, clearly, since the sites that you are in 
charge of make up 70 percent of the cleanup costs projected for 
DOE sites, the numbers that this committee could expect from 
your answers that this would be the last time we would ever 
hear DOE say that they projected an increase for the future 
cleanups. Am I correct? At least of the 70 percent that are 
represented here at the table? We will actually save money and 
start going the other way.
    Mr. Gallagher. I believe there is a significant opportunity 
to save costs and schedule with innovative technologies. I 
think the thing that we have to concentrate on, Congressman, is 
the process in which we get those actual applications. And, as 
you heard from the previous panel, there can be a lot of 
barriers, procedurally and administratively, to get these 
technologies to the field.
    Mr. Burr. I will make the same offer to the companies that 
we made to the Department of Energy. Any specific 
recommendations that you see from a regulatory side, from a 
process side that are recommendations you would like to make to 
this subcommittee for them to follow through in a partnership 
or whatever with the Department of Energy and with your 
companies, we would certainly entertain that exchange of good 
ideas, because our attempt is to clean up and to do it as cost 
effectively as we can.
    Let me shift, if I can, because I have got limited time, 
and let me compliment all of you for your willingness to come, 
for your commitment to use new technologies, but let me also--
several additional minutes, unanimous consent--let me also make 
one comment relative to some of the testimony you gave; that 
comment would be ``Bull.'' The cleanup process is not working 
as smoothly as the testimonies you gave, and I think it is time 
that somebody come before this committee and tell us what the 
hell is wrong. Are we going to hit the 2006 figure in your 
site? If so, and you can't incorporate technology, then why the 
hell is OST sending you $3 million? If you don't need it, turn 
it back in. If you are going to take it, then know that there 
is some technology out there that you can incorporate in the 
process. You do as big of an injustice as OST does, to some 
degree, and DOE to these private entrepreneurs who are going 
out on a shoestring, creating technologies with good 
intentions. If the technology, Mr. Card, at BIR is as bright as 
what you said, my question would be why didn't you put up the 
capital?
    Mr. Card. There is a whole variety of contracting issues 
that we could get into if we were going to do that. You end up 
in a situation that has been before the committee before. Do we 
have one foot in too many buckets at the site? And, so we, 
actually, are anxious to put up some capital for Rocky Flats.
    Mr. Burr. So, the answer is that contractually, as it is 
written, you can't do it?
    Mr. Card. It would be institutionally difficult.
    Mr. Burr. Since we do have some DOE folks in the room, let 
me encourage them that we explore any waiver processes that 
could exist so that if we are deficient in our ability to help 
finance to the level needed for you to make a decision on new 
technologies, that we look at a waiver process for promising 
technologies that might have started at OST or started anywhere 
that you see as long as we can contractually use those 
technologies to save money and to clean up sites faster. There 
is one thing that I can assure you that I will attempt to do 
and that is to try to bring a higher degree of accountability 
to the cleanup process, and I think for those of you that know 
me, you know I am not going to go away or forget about it.
    Let me ask you--I hate to pick on you, Mr. Card--how many 
technologies do you think have come across your desk, new 
technologies, relative to the Rocky Flats site?
    Mr. Card. Well, it would be dozens. I don't have an exact 
count, but it would be certainly in the many dozens.
    Mr. Burr. And of that, we elected to use how many?
    Mr. Card. I don't have that count either, because most of 
the technologies we are employing are not technologies on the 
OST list. I did mention several in the testimony, and I would 
be glad to go into detail on them, but, for example, for us, 
some of the more important technologies are not even 
necessarily hardware and process equipment like you would 
normally imagine barcoding drums, which we have a huge quantity 
of. Computer systems and other management process improvement 
systems are just as important to us in closing Rocky Flats.
    Mr. Burr. How much in OST funds do you receive?
    Mr. Card. I would say, of the large sites, we must be the 
smallest recipient. It is in the few millions of dollars per 
year; certainly less than $10 million.
    Mr. Burr. Mr. Peterson, how much for Fluor?
    Mr. Peterson. We receive around $3 million at the Fernald 
site per year and around $10 million per year at the Hanford 
site.
    Mr. Burr. Mr. McIntire?
    Mr. McIntire. Remember that both the Hanford project that 
we are doing and Nevada, the dollar value is relatively small, 
and the OST percentage, I believe, is in the 4 percent area of 
the total cost of the cleanup. So, it is in that region.
    Mr. Burr. Does that include Oak Ridge?
    Mr. McIntire. No. Oak Ridge is similar--a little lower 
percentage, a little more dollar volume. It is about $250 
million of their total volume per year, and the percentage is 
more like 2.9, 3 percent. Those are rough figures, and I would 
be glad--I think we have already provided that information, by 
the way.
    Mr. Burr. Mr. Gallagher?
    Mr. Gallagher. Twenty million dollars.
    Mr. Burr. Twenty million?
    Mr. Gallagher. Yes.
    Mr. Burr. Is there any correlation between how much money 
OST gives to you and how many technologies you ultimately end 
up accepting as usage?
    Mr. Gallagher. I think there probably is a correlation.
    Mr. Burr. Are there any additional comments any of you 
would like to make relative to this hearing and to this 
process?
    Mr. McIntire. Yes, I would like to say that I disagree with 
some things that have been said, and some things I agree with. 
The bull part I don't agree with, but the fact that the future 
of cleanup and reducing, dramatically, like my colleague said, 
probably more than $20 million is tied to technology and 
innovation and creativeness. Sometimes we are getting a little 
narrow on the technology part. It is also just creative 
thinking, and I believe some of the small businesses that have 
testified today, I think that is part of our future, and I do 
empathize with working with the system. I think we could do 
more, and I think we are doing more--all the companies are--but 
I think there is more to communicate with these folks, and we 
have to do more. I will commit our company to try even more 
than we have done before, because I empathize with their pain.
    Mr. Burr. Let me be bold and share with you where the bull 
I thought came from; you deserve at least that. Three of you 
referred to funding. I guess there is some consistency in the 
people's willingness to come to Washington and say the problem 
is money. Clearly, it may be, but one of the responsibilities, 
I think, of companies is to, in fact, tell us what it will cost 
us to do ``X.'' There is no way that the long-term cleanup 
costs can rise every year if that honest exchange is, in fact, 
happening. It is important that we be good stewards of the 
taxpayer money. If that is an investment in OST because we feel 
that the good works of that area of the Department of Energy 
will ultimately save us money, that is what people have asked 
us to come here and do. If we are not incorporating those 
technologies, then they have asked us to ask the question, why? 
If you are not using them, yet the problem is funding, and we 
have addressed things that we thought were actually going to 
bring down the cost versus come and listen to the reasons that 
we need to put more money in, quite honestly, I don't think 
that is a fair exchange, and I think there is a degree of 
accountability that does not exist at DOE cleanup sites that we 
must and we will get a handle on. That may alter significantly 
who bids for them in the future. It may be that some of the 
entrepreneurs that we saw in here with technologies might end 
up actually having those technologies onsite, but I am 
confident that funding is not the primary reason that sites 
aren't getting clean. There is a process problem that allows us 
to concentrate 99 percent on process and funding and 1 percent 
on outcome. There is something wrong with that mix.
    So, I apologize to all of you if you take offense at the 
fact that I said your testimony was bull, but if we can't get 
past that part of it and you to actually share with this 
committee what the problem is--if 2006 is not a date you can 
hit, then tell us why. If it is not a date you can hit, then 
tell us why. If we can't meet the schedule that DOE comes in 
here and says, ``Here is what our contractors will do,'' this 
is your opportunity to tell us, ``We can't do what they said, 
Congressman.'' But all of you have sat here and said 
``Everything is rosy; it is great. We are incorporating this. 
In the places where they are deficient with supplying us new 
technology, we are creating it; we are finding it; we are 
developing it.'' If everything was that good, we would have all 
the sites cleaned up in 2006, and that is not the case.
    So, I would just implore with each one of you that you have 
as much of a responsibility to share with us accurate 
information and suggestions as to how we accomplish this or 
that word that each one of you has used, and that was 
``partnership,'' will, in fact, not work.
    With that, I yield back, Mr. Chairman.
    Mr. Upton. Thank you. We appreciate your testimony this 
morning and this afternoon, and we look forward to seeing you 
again.
    This subcommittee is now adjourned.
    [Whereupon, at 12:46 p.m., the subcommittee was adjourned.]

</pre></body></html>
